<html>
<title> - Serial No. 114-45 (Committee on Homeland Security) and Serial No. 114-178(Committee on Foreign Affairs)THE RISE OF RADICALISM: GROWING TERRORIST SANCTUARIES AND THE THREAT TO THE U.S. HOMELAND</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






THE RISE OF RADICALISM: GROWING TERRORIST SANCTUARIES AND THE THREAT TO 
                           THE U.S. HOMELAND

=======================================================================

                             JOINT HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                                and the

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 18, 2015

                               __________

                           Serial No. 114-45

                    (Committee on Homeland Security)

                               __________

                           Serial No. 114-178

                     (Committee on Foreign Affairs)

                               __________

     Printed for the use of the Committee on Homeland Security and 
                    the Committee on Foreign Affairs
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                    

      Available via the World Wide Web: http://www.gpo.gov/fdsys/
                               __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

99-750 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

















                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                      COMMITTEE ON FOREIGN AFFAIRS

                 Edward R. Royce, California, Chairman
Christopher H. Smith, New Jersey     Eliot L. Engel, New York
Ileana Ros-Lehtinen, Florida         Brad Sherman, California
Dana Rohrabacher, California         Gregory W. Meeks, New York
Steve Chabot, Ohio                   Albio Sires, New Jersey
Joe Wilson, South Carolina           Gerald E. Connolly, Virginia
Michael T. McCaul, Texas             Theodore E. Deutch, Florida
Ted Poe, Texas                       Brian Higgins, New York
Matt Salmon, Arizona                 Karen Bass, California
Darrell E. Issa, California          William R. Keating, Massachusetts
Tom Marino, Pennsylvania             David Cicilline, Rhode Island
Jeff Duncan, South Carolina          Alan Grayson, Florida
Mo Brooks, Alabama                   Ami Bera, California
Paul Cook, California                Alan S. Lowenthal, California
Randy K. Weber, Sr., Texas           Grace Meng, New York
Scott Perry, Pennsylvania            Lois Frankel, Florida
Ron DeSantis, Florida                Tulsi Gabbard, Hawaii
Mark Meadows, North Carolina         Joaquin Castro, Texas
Ted S. Yoho, Florida                 Robin L. Kelly, Illinois
Curt Clawson, Florida                Brendan F. Boyle, Pennsylvania
Scott DesJarlais, Tennessee
Reid J. Ribble, Wisconsin
David A. Trott, Michigan
Lee M. Zeldin, New York
Daniel M. Donovan, Jr., New York

                       Amy Porter, Chief of Staff
                     Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Edward R. Royce, a Representative in Congress From 
  the State of California, and Chairman, Committee on Foreign 
  Affairs:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
The Honorable Eliot L. Engel, a Representative in Congress From 
  the State of New York, and Ranking Member, Committee on Foreign 
  Affairs:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Prepared Statement.............................................    13

                               Witnesses

General John M. Keane (Ret. U.S. Army), Chairman of the Board, 
  Institute for the Study of War:
  Oral Statement.................................................    18
  Prepared Statement.............................................    20
Mr. Matthew G. Olsen, Co-founder and President, Business 
  Development and Strategy, IronNet Cybersecurity:
  Oral Statement.................................................    23
  Prepared Statement.............................................    25
Mr. Peter Bergen, Vice President, Director, International 
  Security and Fellows Programs, New America:
  Oral Statement.................................................    26
  Prepared Statement.............................................    28

                             For the Record

The Honorable Candice S. Miller, a Representative in Congress 
  From the State of Michigan:
  Letters........................................................    59
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas:
  Article........................................................    89
  Statement of the Syrian American Council.......................    90
  Statement of the Syrian Community Network (Chicago, IL); Syrian 
    American Medical Society; Karam Foundation; Syria Relief and 
    Development; Syrian Expatriates Organization; Watan USA; 
    Rahma Relief Foundation; Hope for Syria......................    91
  Statement of Brian Michael Jenkins, RAND Office of External 
    Affairs......................................................    93

 
THE RISE OF RADICALISM: GROWING TERRORIST SANCTUARIES AND THE THREAT TO 
                           THE U.S. HOMELAND

                              ----------                              


                      Wednesday, November 18, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
                                             joint with the
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committees met, pursuant to call, at 10:08 a.m., in 
Room 210, HVC, Hon. Michael T. McCaul [Chairman of the Homeland 
Security committee] presiding.
    Present from Committee on Homeland Security: 
Representatives McCaul, King, Rogers, Miller, Duncan, Marino, 
Barletta, Perry, Clawson, Katko, Hurd, Carter, Walker, 
Loudermilk, McSally, Ratcliffe, Donovan, Thompson, Sanchez, 
Jackson Lee, Langevin, Higgins, Keating, Payne, Vela, Watson 
Coleman, Rice, and Torres.
    Present from Committee on Foreign Affairs: Representatives 
Royce, Smith of New Jersey, Rohrabacher, Chabot, Wilson, 
Salmon, Cook, Weber, DeSantis, Yoho, DesJarlais, Zeldin, Engel, 
Sherman, Meeks, Connolly, Deutch, Cicilline, Bera, Lowenthal, 
Meng, Frankel, Gabbard, Castro, Kelly, and Boyle.
    Chairman McCaul. The Committee on Homeland Security and 
Committee on Foreign Affairs will come to order. The purpose of 
this hearing is to examine current and evolving terrorist 
sanctuaries abroad and the threats they pose to the United 
States homeland.
    I now recognize myself for an opening statement.
    Before we begin, I would like to have a moment of silence 
in memory of those who lost their lives in the attacks in Paris 
and in honor of those who were wounded.
    Today, we must make this much clear. We are at war. The 
world was reminded last week that Islamic terrorists are 
seeking to harm our people, destroy our way of life and 
undermine the foundational principles of the free world. The 
Paris attacks also confirmed our worst fears, that of the 
thousands of foreign fighters who have gone to Syria and Iraq 
to join access, some would be deployed to bring terror back to 
the West.
    For more than a year, my committee has warned of this 
growing threat. We launched a bipartisan Congressional task 
force to focus on closing security gaps both at home and abroad 
to make it harder for terrorists and foreign fighters to slip 
across the border undetected.
    More than 5,000 individuals with Western passports, 
including Americans, have gone to fight in Syria and Iraq, and 
some have already returned, battle-hardened and prepared to 
strike. After the Charlie Hebdo attacks, we traveled to Paris 
and met with the counterterrorism officials on the ground who 
have known that Europe was wide open to this danger. We 
conducted site visits along the jihadi super-highway from 
Western Europe to Turkey and then into the conflict zone.
    Our findings were alarming. This September, the committee's 
final task force report concluded that we are losing the 
struggle to stop Americans from going overseas to join jihadist 
groups. It announced that the gaping security weaknesses 
overseas are putting the U.S. homeland and our allies in 
danger.
    These worries have materialized. We know that jihadists 
exploited these gaps to plot and execute the worst terrorist 
attack on French soil since World War II. The world is now 
looking to America for leadership and for a clear eye to 
understanding of the threat.
    ISIS is not contained as the President says. ISIS is 
expanding globally and is plotting aggressively. In a matter of 
weeks it executed major external terrorist plots on 3 
continents, destroying a Russian airliner, conducting suicide 
bombings in Lebanon and launching a mass attack in the streets 
in Paris.
    ISIS is now responsible for more than 60 terrorist plots 
against Western targets, including 18 in the United States. 
Here at home, we have arrested more than 70 ISIS supporters 
over the last year. That is on average more than 1 per week, 
and the FBI says it has nearly 1,000 ISIS-related 
investigations in all 50 States. If this is not a war, then I 
don't know what is.
    America cannot wait for terrorists to launch their next 
attack. The security of the free world depends on our response, 
and we must respond immediately. We can start by securing the 
homeland. Our task force report will not sit on the shelf. We 
are taking action to turn our recommendations into reality. 
Soon we will release legislation designed to help close 
security loopholes and keep terrorists from reaching our 
shores.
    We will also work to make sure terrorists do not infiltrate 
refugee flows to sneak into our country as some apparently did 
to reach France.
    Today we released a report laying out the preliminary 
findings of a nearly year-long investigation into 
counterterrorism challenges associated with Syrian refugee 
flows. The results of this review are sobering. While we are 
proud of our humanitarian tradition of welcoming refugees into 
our country, this is a special case. The President's own 
intelligence and law enforcement officials have warned this 
committee of the risk involved with the Syrian refugee program 
and the high-threat environment and I have to take them at 
their word.
    I have called upon the President to temporarily suspend 
Syrian refugee admissions into the United States until we can 
improve the screening and vetting process. But we cannot wait 
for the President to take action. Congress will act immediately 
to make sure the system is more secure.
    Americans are worried about the terror threat level, and my 
promise to the American people is that we are working hard to 
strengthen this country's defenses. My promise to our allies is 
that we stand ready to help you to do the same.
    But as we will discuss today, the rise of radicalism cannot 
be reversed without confronting the problem at its source. 
Terrorist sanctuaries for jihadists recruit, train, and plot 
against us. In Syria, we are witnessing the largest global 
convergence of jihadists in world history; yet, the President's 
plan is to contain rather than roll back the threat. What we 
have seen as a policy of containment leads to a constant stream 
of terror.
    We need a strategy for victory in the war against Islamist 
terror and that strategy must begin in Syria. Our enemies have 
said that the latest attack is just the beginning of a storm, 
and our message back to them must be clear. You have fired the 
first shot in this struggle but rest assured America will fire 
the last.
    I want to thank our witnesses for joining us here today. 
Each of you worked in different ways on our front lines in this 
long struggle. Look forward to your insights.
    [The statement of Chairman McCaul follows:]
                Statement of Chairman Michael T. McCaul
                           November 18, 2015
    Before we begin, I would like to have a moment of silence in memory 
of those who lost their lives in the attacks in Paris and in honor of 
those who were wounded.
    Today we must make this much clear: We are at war.
    The world was reminded last week that Islamist terrorists are 
seeking to harm our people, destroy our way of life, and undermine the 
foundational principles of the free world.
    The Paris attacks also confirmed our worst fears--that of the 
thousands of foreign fighters who have gone to Syria and Iraq to join 
ISIS, some would be deployed to bring terror back to the West.
    For more than a year, my committee has warned of this growing 
threat.
    We launched a bipartisan Congressional task force to focus on 
closing security gaps--both at home and abroad--to make it harder for 
terrorists and foreign fighters to slip across the border undetected.
    More than 5,000 individuals with Western passports, including 
Americans, have gone to fight in Syria and Iraq. And some have already 
returned battle-hardened and prepared to strike.
    After the Charlie Hebdo attacks, we traveled to Paris and met with 
counterterrorism officials on the ground who have known that Europe was 
wide-open to this danger.
    And we conducted site visits along the ``jihadi superhighway,'' 
from Western Europe to Turkey and then into the conflict zone.
    Our findings were alarming.
    This September, the committee's final task force report concluded 
that we are losing the struggle to stop Americans from going overseas 
to join jihadist groups, and it announced that gaping security 
weaknesses overseas are putting the U.S. homeland and our allies in 
danger.
    Those worries have materialized.
    We know that jihadists exploited these gaps to plot and execute the 
worst terrorist attack on French soil since World War II.
    The world is now looking to America for leadership and for a clear-
eyed understanding of the threat.
    ISIS is not ``contained,'' as the President says. ISIS is expanding 
globally and is plotting aggressively.
    In a matter of weeks it executed major external terrorist plots on 
3 continents, destroying a Russian airliner, conducting suicide 
bombings in Lebanon, and launching a mass attack on the streets of 
Paris.
    ISIS is now responsible for more than 60 terrorist plots against 
Western targets, including 18 in the United States. Here at home we 
have arrested more than one ISIS supporter a week, on average, in the 
past year, and the FBI says it has nearly 1,000 ISIS-related 
investigations in all 50 States.
    If this is not a war, then I don't know what is.
    America cannot wait for terrorists to launch their next attack. The 
security of the free world depends on our response--and we must respond 
immediately.
    We can start by securing the homeland.
    Our task force report will not sit on a shelf. We are taking action 
to turn our recommendations into reality.
    Soon we will release legislation designed to help close security 
loopholes and keep terrorists from reaching our shores.
    We will also work to make sure terrorists do not infiltrate refugee 
flows to sneak into our country, as some apparently did to reach 
France.
    Today we released a report laying out the preliminary findings of a 
nearly year-long investigation into counterterrorism challenges 
associated with Syrian refugee flows. The results of this review are 
sobering.
    While we are proud of our humanitarian tradition of welcoming 
refugees into our country, this is a special case.
    The President's own intelligence and law enforcement officials have 
warned this committee of the risks involved with the Syrian refugee 
program in this high-threat environment, and I have got to take them at 
their word.
    I have called upon the President to temporarily suspend Syrian 
refugee admissions into the United States until we can improve the 
screening and vetting process. But we will not wait for the President 
to take action. Congress will act immediately to make sure the system 
is more secure.
    Americans are worried about the terror threat level.
    My promise to the American people is that we are working hard to 
strengthen this country's defenses. And my promise to our allies is 
that we stand ready to help you do the same.
    But as we will discuss today, the rise of radicalism cannot be 
reversed without confronting the problem at the source: Terrorist 
sanctuaries where jihadists recruit, train, and plot against us.
    In Syria, we are witnessing the largest global convergence of 
jihadists in world history, yet the President's plan is to contain 
rather than rollback the threat. And what we have seen is that a policy 
of containment leads to a constant stream of terror.
    We need a strategy for victory in the war against Islamist terror, 
and that strategy must begin in Syria.
    Our enemies have said the latest attack is the beginning of ``a 
storm.'' And our message back to them must be clear: You have fired the 
first shot in this struggle, but rest assured--America will fire the 
last.

    Chairman McCaul. With that, the Chair now recognizes the 
Chairman of the Foreign Affairs Committee, the gentleman from 
California, Mr. Royce.
    Chairman Royce. Well, thank you, Chairman McCaul. I thank 
my colleagues here too and the witnesses.
    I will give you a few of my observations as we get underway 
with this hearing.
    But the first is I think if we go back to the 9/11 
Commission and we look at their core finding, what they warned 
us of in the future is that terrorists should be allowed no 
sanctuary because if we ever gave them sanctuary again, we 
would see the consequences of that in terms of attacks 
potentially on our homeland.
    Why did they say that? They said that if they have safe 
haven. If they have this, this time and space available to them 
where they are going to be able to go forward with their 
capabilities of making bombs or training with automatic 
weapons, we could see them attack the West again as a 
consequence of allowing them to have that safe haven.
    In this particular case with ISIS, we have a terrorist 
organization that believes that anyone who does not share their 
world view are apostates. In other words, when you saw their 
attack on civilians in Beirut, Lebanon, the argument was that 
those Shia in the marketplace, those women and children were 
apostates.
    The attacks on the young people in Paris. The argument 
there again. They are apostates. So, when it comes to a 
philosophy like that, I think the administration is on the 
wrong track with this strategy of containment. You can't 
contain a terrorist organization like that--intends to 
establish a state and use it to train and recruit in order to 
carry out its attacks overseas.
    You have got a second point that the 9/11 commission I 
think would make. I think they would have been dismayed to have 
watched ISIS, who say in their playbook, that their goal is to 
take over territory.
    I think they would have been dismayed to watch for 12 full 
months, as ISIS took town after town, starting with Raqqa. 
Going into Fallujah and Ramadi and all the way to Mosul. Twelve 
months, when our air power was not allowed to take off and hit 
any of these ISIS targets.
    Over and over again, we in the Committee on Foreign 
Affairs, Members on both sides of the aisle called for the use 
of our air power to stop ISIS from taking these cities and 
taking territory. We know that we had allies in the Pentagon 
and we know that we had an ally in the ambassador in Baghdad.
    Yet, by the administration, not to take action until 
finally Mosul itself had fallen. The central bank itself, of 
Iraq, was in the hands of ISIS, close to a $1 billion in the 
hands of this terrorist organization.
    So, given that ISIS believed that a necessary step in 
undermining democracy and setting the stage for their ideology 
was to expand their territory, this containment strategy is a 
very flawed position.
    Now, the fighting force of ISIS itself is another issue 
here, because on balance it has not shrunk. It hasn't shrunk 
because of the virtual caliphate that they have set up on the 
internet.
    They have now attracted 30,000 foreign fighters into ISIS. 
When you look at the more than 100 countries that they have 
recruited from, it is clear again, that the containment 
strategy, far from being a disincentive, has actually allowed 
them to say that we are advancing in terms of our strategy and 
our recruitment.
    Young men are watching them on the advance. Forty-five 
hundred hold Western passports, of these ISIS fighters. Two 
hundred and fifty of them are Americans. In France's case, 
1,800 of its citizens are entrenched now, in jihadi networks 
and this terrorist diaspora is not far from France. It is a 
plane ride away from here.
    So, now with this conundrum that we are in, we hear this 
argument from ISIS as the FBI director so aptly summed it up. 
Troubled soul, come to the caliphate. You will live a life of 
glory. If you can't come, kill somebody where you are.
    Now that is the other aspect of what we are now dealing 
with. The ability to attack is here by recruitment through the 
internet. So, to hit ISIS from the air. This is a major 
conundrum because we are hearing that 75 percent of the time, 
pilots are returning without dropping ordinates.
    We are hearing from those pilots who tell us that they are 
not given the ability to target even when they have a clear 
sight. There won't be collateral damage. They still can't get 
clearance. We heard this last week.
    We haven't had an aircraft carrier in the region for 2 
months. Frankly, now a year after the U.N. Security Council 
acted to curb travel by foreign fighters, only 12 countries 
have databases allowing for quick risk assessments of 
travelers.
    So, given all of this, it is time for a broad, overarching 
strategy for Syria and beyond Syria. It was also the 9/11 
Commission that criticized the U.S. Government. They told us, 
``You are too stove-piped.''
    Congress isn't immune to poor communication and 
coordination. So it makes sense for our committees to work 
together on a topic like this and I look forward to working 
with the other Members here as Chairman of the Committee on 
Foreign Affairs, to make sure that end of the day we reverse 
what the administration is doing here and put forward a sound 
strategy to defeat ISIS.
    Thank you, Chairman.
    [The statement of Chairman Royce follows:]
                 Statement of Chairman Edward R. Royce
                           November 18, 2015
    Thank you Chairman McCaul. With room to operate abroad, it was only 
a matter of time before Islamist terrorists struck, hitting Paris, 
again. They are looking to strike us too.
    A core finding of the 9/11 Commission was that terrorists should be 
allowed ``no sanctuaries.'' The reason is simple: With safe haven, 
terrorists have the time and space to indoctrinate, plan, and 
strengthen--and then take the fight to their enemies. In this case, 
anyone who does not share ISIS's apocalyptic world view is an apostate 
who must be destroyed--not something easily ``contained,'' as the 
administration suggests.
    The 9/11 Commissioners would likely be dismayed to have watched 
ISIS take over more and more territory between Iraq and Syria--and sit 
mainly uncontested. As one observer wrote this month, ``The terrorists' 
own playbook sees the taking and holding of territory as a necessary 
step to discredit Western democracy and prove that the Caliphate is a 
real political possibility in the 21st Century.''
    While ISIS has taken losses, its fighting force has not shrunk--
thanks in part to a steady stream of foreign recruits. More than 30,000 
fighters have made it to Syria and Iraq from more than 100 countries. 
Of those, it is estimated that more than 4,500 hold Western passports--
including at least 250 Americans. In France's case, 1,800 of its 
citizens are believed to be entrenched in jihadist networks. This 
``terrorist diaspora'' is a skip away from Europe--and a plane ride to 
the United States.
    With the internet now serving as a ``virtual caliphate,'' young 
radicals don't have to travel abroad to become indoctrinated or receive 
terrorist training. Indeed, the FBI has revealed that it is 
investigating ISIS suspects in all 50 States. As Director Carney noted, 
ISIS's slick propaganda sends a ``siren song'' that goes like this: 
``Troubled soul, come to the caliphate, you will live a life of glory . 
. . And if you can't come, kill somebody where you are.'' That includes 
in the United States.
    As is often said, the best defense is a good offense. But this 
administration has not wanted to play offense. When it had the chance 
to hit ISIS from the air early on, the White House sat paralyzed. 
Instead of pummeling ISIS territory, the White House is still 
proceeding with pinpricks. Last week, Secretary Kerry reported that the 
President has decided to ``pick up the pace'' against ISIS. What on 
earth have they been waiting for?
    Worse, our defenses aren't where they should be. A year after the 
U.N. Security Council acted to curb travel by foreign fighters, only 12 
countries have databases allowing for quick risk assessments of 
travelers. New technologies are making it harder for our authorities to 
keep up with would-be killers. And our Government is still floundering 
in understanding and combating the radicalization process.
    It's easy to view these problems as being ``over there,'' but like 
it or not, our National security is ever more connected to the chaos 
unfolding in Syria, Libya, and other sanctuaries. This reality can feel 
overwhelming at times. But unfortunately, the wave of radicalism around 
the globe shows no signs of receding--making it essential for us to 
have a broad, overarching strategy for Syria and beyond.
    It was also the 9/11 Commission that criticized the U.S. Government 
for being too ``stovepiped.'' Congress isn't immune to poor 
communication and coordination. So it makes sense for our committees to 
work together on a topic like this. I look forward to this timely 
hearing.

    Chairman McCaul. Thank the Chairman.
    Chair now recognizes Ranking Member of the Homeland 
Security Committee, Mr. Thompson.
    Mr. Thompson. Thank you very much. I thank you Chairman 
McCaul and Chairman Royce for holding today's hearing.
    I also thank the witnesses for their testimony that they 
will give during this hearing.
    I stand with my colleagues in expressing my condolence and 
support for the people of France. As Americans, we stand in 
solidarity with our French allies. The terrorist group, ISIL, 
has claimed responsibility for the attacks that were carried 
out last Friday in Paris.
    The attacks were a chilling manifestation of the reach of 
the ISIL terrorist network in Europe. On Monday, President 
Obama announced a new bilateral agreement with France to share 
intelligence and operational military information more quickly 
and more often.
    This move will close the information gaps that have existed 
with our European partners. The bipartisan task force organized 
by Homeland Security, cited this gap as a major finding of its 
recent report that examined the threat posed by foreign 
fighters.
    Consequently, we welcome enhanced information sharing with 
France. It has been reported that a fake Syrian passport was 
found with one of the terrorists who carried out the deadly 
Paris attacks. Since 2011, Syria has been a country torn by 
civil war with an estimated 4.2 million Syrians forced to flee 
from their homeland.
    While the United States is the largest donor of 
humanitarian aid to Syria, President Obama announced earlier 
this year that we do more and work with the United Nations to 
provide shelter to 10,000 refugees who are in refugee camps, 
primarily in Turkey, Jordan, and Lebanon.
    As we continue to discuss America's involvement with Syrian 
refugees, it is important that we as Federal policymakers 
embrace fact, not fear.
    The Syrian people are the primary victims of the violent 
conflict in Syria and the brutal actions of ISIL. They are the 
most vulnerable to the violence and know first-hand the cruelty 
of terrorists have brought to their communities. Syrian 
refugees, like others who are given safe harbor in the United 
States, are fleeing dire, even life-threatening, situations.
    The migrants who have fled and continue to flee to Western 
Europe will not be considered for protection in the United 
States as they will seek protection in European countries. The 
United States has the benefit of an ocean and time to separate 
us from the flood of humanity that Europe is struggling to 
manage. In stark contrast to what is occurring with migrants 
arriving in Europe, our Government has the time to thoroughly 
screen refugees before they are admitted.
    Our extensive and deliberative vetting process takes on 
average between 18 and 24 months. An individual seeking refugee 
status in the United States cannot step foot in the country 
until the Department of Homeland Security has made a 
determination of admissibility, having applied a Federal 
prioritization criteria and subjected the applicant to 
extensive biometric and biographic checks, multiple in-person 
interviews and medical screenings.
    While concern about the risk associated with unknown 
persons in refugee population is understandable, particularly 
in the wake of last week's heinous attacks in Paris, we must 
not lose sight of the fact that three-quarters of the refugee 
population are women and children, and the U.S. Government will 
be highly selective on which applicant it approves. Providing 
safe harbor to individuals who no longer have a home because of 
war and violence is a humane and American thing to do.
    Furthermore, in our fervor to protect the country from 
threats, we must not turn a blind eye to the fact that there 
are people who would seek to do Americans harm and strike at 
our way of life who were born and raised here in the United 
States. Lone offenders have been reached not only by ISIL, but 
by al-Qaeda and domestic groups having conspired to commit 
domestic terrorism right here on United States soil.
    Furthermore, the downing of a Russian airliner on October 
31 by ISIL brings into focus that the aviation sector remains a 
terrorist target and the importance of bolstering our screening 
procedures at last-point-of-departure airports.
    Finally, as we consider foreign terrorist threats to the 
homeland, we must not ignore the risks associated with the Visa 
Waiver Program. In fact, the committee's bipartisan task force 
report acknowledged that while the administration has improved 
the security of the Visa Waiver Program, continuous 
enhancements must be made to keep pace with changing terrorist 
tactics, and to detect violent extremists before they board 
U.S. planes bound for here.
    Mr. Chairman, with that I yield back the balance of my 
time.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                           November 18, 2015
    I stand with my colleagues in expressing my condolences and support 
for people of France. As Americans, we stand in solidarity with our 
French allies. The terrorist group ISIL has claimed responsibility for 
the attacks that were carried out last Friday in Paris. The attacks 
were a chilling manifestation of the reach of the ISIL terrorist 
network in Europe.
    On Monday, President Obama announced a new bilateral agreement with 
France to share intelligence and operational military information more 
quickly and more often. This move will close information gaps that have 
existed with our European partners. The bipartisan task force organized 
by the Homeland Security cited this gap as a major finding in its 
recent report that examined the threat posed by foreign fighters. 
Consequently, we welcome enhanced information sharing with France.
    It has been reported that a fake Syrian passport was found with one 
of the terrorists who carried out the deadly Paris attacks. Since 2011, 
Syria has been a country torn by civil war, with an estimated 4.2 
million Syrians forced to flee from their homeland. While the United 
States is the largest donor of humanitarian aid to Syria, President 
Obama announced earlier this year that we would do more and work with 
the United Nations to provide shelter to 10,000 refugees who are in 
refugee camps, primarily in Turkey, Jordan, and Lebanon.
    As we continue to discuss America's involvement with Syrian 
refugees, it is important that we as Federal policymakers embrace 
facts, not fear. The Syrian people are the primary victims of the 
violent conflict in Syria and the brutal actions of ISIL. They are the 
most vulnerable to the violence and know first-hand the cruelty the 
terrorists have brought to their communities.
    Syrian refugees, like others who are given safe harbor in the 
United States, are fleeing dire, even life-threatening, situations. The 
migrants who have fled and continue to flee to Western Europe will not 
be considered for protection in the United States, as they will seek 
protection in European countries.
    The United States has the benefit of an ocean and time to separate 
us from the flood of humanity that Europe is struggling to manage. In 
stark contrast to what is occurring with migrants arriving in Europe, 
our Government has the time to thoroughly screen refugees before they 
are admitted. Our extensive and deliberative vetting process takes, on 
average, between 18 and 24 months.
    An individual seeking refugee status in the United States cannot 
step foot in the country until the Department of Homeland Security has 
made a determination of admissibility, having applied our Federal 
prioritization criteria and subjected the applicant to extensive 
biometric and biographic checks, multiple in-person interviews, and 
medical screenings.
    While concern about the risks associated with unknown persons in 
refugee populations is understandable, particularly in the wake of last 
week's heinous attacks in Paris, we must not lose sight of the fact 
that three-quarters of the refugee population are women and children, 
and the U.S. Government will be highly selective about which applicants 
it approves.
    Providing safe harbor to individuals who no longer have a home 
because of war and violence is the humane--and American--thing to do.
    Furthermore, in our fervor to protect the country from threats, we 
must not turn a blind eye to the fact that there are people who would 
seek to do Americans harm and strike at our way of life who were born 
and raised here. Lone offenders have been reached not only by ISIL, but 
by al-Qaeda and domestic groups and have been inspired to commit 
domestic terrorism right here on U.S. soil.
    Furthermore, the downing of a Russian airliner on October 31 by 
ISIL brings into focus that the aviation sector remains a terrorist 
target and the importance of bolstering our screening procedures at 
last-point-of-departure airports.
    Finally, as we consider foreign terrorist threats to the homeland, 
we must not ignore the risks associated with the Visa Waiver Program. 
In fact, the committee's bipartisan task force report acknowledged that 
while the administration has improved the security of VWP, ``continuous 
enhancements must be made to keep pace with changing terrorist tactics 
and to detect violent extremists before they board U.S.-bound planes.''

    Chairman McCaul. Thank the Ranking Member. The Chair now 
recognizes the Ranking Member of the Foreign Affairs Committee, 
Mr. Engel.
    Mr. Engel. Thank you Mr. Chairman, Chairman McCaul, 
Chairman Royce, Ranking Member Thompson. Thank you all. I am 
glad that our committees have come together to take a look at 
what I agree is a major element of the threat posed by ISIS.
    I hope by putting all of our heads together and by hearing 
from our witnesses we can find some answers to some critical 
questions. How do we stop the flow of foreign fighters into 
Syria? How do we make sure these fighters aren't coming back or 
sneaking into the United States with designs to harm innocent 
Americans?
    Since this hearing was announced of course the complexion 
of this debate has changed a great deal. We are all shaken by 
the attacks in Paris. It is deeply troubling that ISIS was able 
to orchestrate such a complicated attack, and that both home-
grown terrorists from Europe and possibly individuals posing as 
refugees were able to carry out such brutality.
    A tragedy like this invariably spurs us to action. During 
my question time I hope we can get into some specifics. How do 
we improve our detection methods to get past the encryption 
ISIS is using to communicate? How do we counter their use of 
social media to spread propaganda and recruit fighters from the 
West?
    What support do communities here at home and overseas need 
to thwart ISIS recruitment? Are countries doing what they can 
to stop the flow of their citizens to Syria and Iran, and block 
those trying to come back? How do we empower law enforcement to 
grapple with this problem while respecting civil liberties?
    I look forward to a good conversation about what we do now 
because it is up to us whether we will stand with our allies 
and partners and effectively confront an enemy, or allow fear 
and panic to make us forget who we are and what we stand for as 
a Nation. I would like to say a bit about that because I am 
unsettled by what I have heard from some people in Congress 
this week.
    I read a poll the other day. The question was ``What is 
your attitude toward allowing political refugees to come into 
the U.S.?''--67.4 agreed with the response. ``With conditions 
as they are we should try to keep them out.'' More than two-
thirds, try to keep them out.
    That poll was conducted in December 1938. The question in 
its entirety was ``What is your attitude toward allowing 
German, Austrian, and other political refugees to come into the 
U.S.?'' European Jews--more than two-thirds of Americans 
thought we should just close the gates. Just 4 months before 
Kristallnacht.
    So less than a year later that attitude sealed the fate of 
the men, women, and children on-board the ocean liner St. 
Louis. Nearly 1,000 refugees, most of them German Jews, boarded 
the ship with the hope of finding safety across the Atlantic.
    After being turned away in Cuba, those on-board the St. 
Louis turned their sights toward the United States. They came 
so close to Miami they could see the lights. Their cables to 
the White House and State Department begging for safe haven 
went unanswered.
    The St. Louis steamed back to Europe. Six hundred twenty 
passengers ended up back on the continent. Two hundred fifty-
four of them died in the holocaust. On-board the St. Louis they 
would pass close enough to Miami to see the city's lights.
    Syrians fleeing their homes because life in Syria for the 
last 4 years has meant not knowing when Assad will drop the 
next barrel bombs or release poison gas. It has meant watching 
community after community fall under the merciless and medieval 
rule of ISIS.
    Often with just the clothes on their backs men, women, and 
children are struggling to escape. Not because they agree with 
terrorists, but because terrorists have destroyed their lives 
and staying behind could very well ensure their deaths.
    Let's remember these people are the victims of ISIS. They 
are fleeing from ISIS. They are not ISIS. So will we now slam 
the door in their faces?
    The process the United States uses to screen refugees is 
the most rigorous of any--investigation of any individual 
trying to enter this country. Biometric screening to match 
their fingerprints and vital statistics against any known 
troublemakers, interviews with the Homeland Security 
Department, background checks by the State Department, the 
Defense Department, and the FBI, and medical screening and 
orientation program. We all know there are other measures in 
place that we can't discuss in this open setting. It can take 
years.
    Do we need to ensure we are following these procedures to 
the letter? Absolutely. Do we need to enhance procedures? 
Absolutely. Can we abandon our values as a Nation out of fear? 
Absolutely not.
    My grandparents, all 4 of them, were Jewish immigrants from 
Ukraine. Like millions of others a century ago, they arrived in 
New York before World War I in New York Harbor and saw our 
country's front doorstep, the most enduring symbol of freedom 
the world has ever known, ``A mighty woman with a torch, whose 
flame is the imprisoned lightning, [with] her name, Mother of 
Exiles,'' the Statue of Liberty.
    The words of Emma Lazarus on the Statue of Liberty, ``Give 
me your tired, your poor, your huddled masses yearning to be 
free.'' The huddled masses we are talking about, Syrians, 
Yazidi who are desperate.
    When I hear suggestions that maybe we should only take 
Christians, or that all these orphans would be such a burden, 
or that State or another State wants nothing to do with these 
refugees whatsoever, I am reminded of the St. Louis and what 
happened to her passengers. I think of what we could have done 
differently. I hope the decades and now our successors don't 
look back to the year 2015 with the same regrets.
    So let me say in conclusion, we can do a smart thing and 
the right thing at the same time. We can stop the flow of 
foreign fighters to ISIS and safeguard against attacks here at 
home without succumbing to panic and xenophobia. Let's choose 
the path forward that protects the United States and that 
defeats our enemies without abandoning our values and repeating 
history's mistakes.
    Thank you, Mr. Chairman. I yield back.
    [The statement of Ranking Member Engel follows:]
               Statement of Ranking Member Eliot L. Engel
                           November 18, 2015
    Chairman McCaul, Chairman Royce, Ranking Member Thompson, thank you 
all. I'm glad our committees have come together to take a look at, what 
I agree, is a major element of the threat posed by ISIS. And I hope by 
putting all our heads together, and by hearing from our witnesses, we 
can find some answers to some critical questions. How do we stop the 
flow of foreign fighters into Syria? How do we make sure these fighters 
aren't coming back or sneaking into the United States with designs to 
harm innocent Americans?
    Since this hearing was announced, of course, the complexion of this 
debate has changed a great deal. We are all shaken by the attacks in 
Paris. It's deeply troubling that ISIS was able to orchestrate such a 
complicated attack, and that both home-grown terrorists from Europe 
and, possibly, individuals posing as refugees were able to carry out 
such brutality.
    A tragedy like this invariably spurs us to action. And during my 
question time, I hope we can get into some specifics: How do we improve 
our detection methods to get past the encryption ISIS is using to 
communicate? How do we counter their use of social media to spread 
propaganda and recruit fighters from the West? What support do 
communities here at home and overseas need to thwart ISIS recruitment? 
Are countries doing what they can to stop the flow of their citizens to 
Syria and Iran and block those trying to come back? How do we empower 
law enforcement to grapple with this problem while respecting civil 
liberties?
    I look forward to a good conversation about what we do now. Because 
it's up to us whether we will stand with our allies and partners and 
effectively confront an enemy . . . or allow fear and panic to make us 
forget who we are and what we stand for as a Nation. I'd like to say a 
bit about that, because I'm unsettled by what I've heard from some 
leaders in Congress this week.
    I read a poll the other day. The question was, ``What's your 
attitude towards allowing political refugees to come into the United 
States?'' Sixty-seven-point-four percent agreed with the response, 
``With conditions as they are, we should try to keep them out.'' More 
than two-thirds: Try to keep them out.
    That poll was conducted in the summer of 1938, and the question in 
its entirety was: ``What's your attitude towards allowing German, 
Austrian, and other political refugees to come into the United 
States?'' European Jews. More than two-thirds of Americans thought we 
should close the gates. Just 4 months before Kristallnacht.
    So less than a year later, that attitude sealed the fate of the 
men, women, and children on-board the ocean liner St. Louis. Nearly a 
thousand refugees, most of them German Jews, boarded the ship with the 
hope of finding safety across the Atlantic. After being turned away in 
Cuba, those on-board the St. Louis turned their sights toward the 
United States. Their cables to the White House and the State Department 
begging for safe haven went unanswered. The St. Louis steamed back to 
Europe.
    Six-hundred twenty passengers ended up back on the continent. Two-
hundred fifty-four of them died in the Holocaust. On-board the St. 
Louis, they had passed close enough to Miami to see the city's lights.
    Syrians are fleeing their homes because life in Syria for the last 
4 years has meant not knowing when Assad will drop the next barrel 
bombs or release poison gas . . . it has meant watching community after 
community fall under the merciless and medieval rule of ISIS. Often 
with just the clothes on their backs, men, women, and children are 
struggling to escape--not because they agree with terrorists, but 
because terrorists have destroyed their lives and staying behind could 
very well ensure their deaths.
    Will we now slam the door in their faces?
    The process the United States uses to screen refugees is the most 
rigorous investigation of any individual trying to enter this country. 
A biometric screening to match their fingerprints and vital statistics 
against any known troublemakers. Interviews with the Homeland Security 
Department. Background checks by the State Department, the Defense 
Department, and the FBI. A medical screening. An orientation program. 
And we all know there are other measures in place that we can't discuss 
in this open setting. It can take years.
    Do we need to ensure we're following these procedures to the 
letter? Absolutely.
    Can we abandon our values as a Nation out of fear? Absolutely not.
    My grandparents, all four of them, were immigrants from Ukraine. 
Like millions of others a century ago, they arrived in New York Harbor 
and saw on our country's front doorstep the most enduring symbol of 
freedom the world has ever known:
          A mighty woman with a torch, whose flame
          Is the imprisoned lightning, and her name
          Mother of Exiles.
    We all know the rest of the poem, and when we talk about the tired, 
the poor, the huddled masses, we're talking about the Syrians, the 
Yazidis, the Kurds who are desperate. And when I hear suggestions that 
maybe we should only take the Christians, or that all these orphans 
would be such a burden, or that this State or another State wants 
nothing to do with these refugees whatsoever, I'm reminded of the St. 
Louis and what happened to her passengers and I think of what this 
country could have done differently. I hope that decades from now, our 
successors don't look back to the year 2015 with the same regrets.
    We can do the smart thing and the right thing at the same time. We 
can stop the flow of foreign fighters to ISIS and safeguard against 
attacks here at home without succumbing to panic and xenophobia. So 
let's leave aside the fear-mongering and the political posturing, and 
choose the path forward that protects the United States and that 
defeats our enemies without abandoning our values and repeating 
history's mistakes.

    Chairman McCaul. I thank the Ranking Member. Other Members 
are reminded that opening statements may be submitted for the 
record.
    [The statement of Ms. Jackson Lee follows:]
               Statement of Honorable Sheila Jackson Lee
                           November 18, 2015
    I thank Chairman McCaul, Ranking Member Thompson, Chairman Royce, 
and Ranking Member Engel thank you for holding this morning's joint 
hearing between the Committees on Homeland Security and Foreign Affairs 
on the implications of ``A Global Battlefield: The Fight Against 
Islamist Extremism at Home and Abroad.''
    This week we mark another tragic attack on Paris--known the world 
over as the City of Light from those who seek to plunge the world into 
darkness. France whose motto is liberty, equality, and fraternity has 
laid a path of enlightenment through culture, art, music, and 
philosophy that the United States and its people have greatly admired.
    I offer the people of Paris--especially the families of the victims 
of the attacks and the hundreds of wounded who are recovering my 
thoughts and prayers.
    I welcome and thank today's witnesses:
  <bullet> The Honorable Matthew G. Olsen, the co-founder and president 
        of the Business Development and Strategy IronNet Cybersecurity; 
        General;
  <bullet> General Jack Keane (Retired U.S. Army), who is the chairman 
        of the board for the Institute for the Study of War; and
  <bullet> Mr. Peter Bergen, the vice president, and director of 
        International Security and Fellows Programs with New America, a 
        nonprofit, nonpartisan public policy institute.
    As a senior member of the Homeland Security Committee and a former 
Member of the Foreign Affairs Committee my commitment to peace and 
security is unwavering.
    I am committed to a peaceful world where differences can be 
resolved among nations or individuals through honest open dialogue.
    The world has worked for over 70 years to bring peace through the 
development and support of international institutions that establish 
protocols and regimes that had made the world a safer place.
    Then the morning of September 11, 2001 came, and the world has not 
been the same.
    The enemy came from an ungoverned area of Afghanistan; it used 
conventional commercial aircraft unconventionally by turning them into 
guided missiles.
    The 9/11 Commission report provided the fullest possible account of 
the events surrounding 9/11 and identified lessons learned.
    The report chronicled the activities of al-Qaeda which revealed the 
sophistication, patience, discipline, and deadliness of the 
organization to carry out the attacks of September 11.
    From the Commission's work, we learned of the lack of imagination 
among our law enforcement and National intelligence community in 
understanding how dangerous al-Qaeda was to the security of the United 
States and the safety of our citizens.
    We were well aware of the threat they posed from the attacks they 
carried out against Americans and American interests in the 1990s 
through the year 2001.
  <bullet> On February 26, 1993, a truck bomb was detonated below the 
        North Tower of the World Trade Center--killing 6 people. It was 
        intended to cause both the North and South Towers to collapse 
        and if it had been successful thousands would have died on that 
        day.
  <bullet> On August 7, 1998, 224 people were killed and more than 
        5,000 injured by bombs exploding almost simultaneously at the 
        U.S. embassies in Nairobi, Kenya, and Dar es Salaam, Tanzania.
  <bullet> On October 12, 2000, 17 sailors aboard the USS Cole were 
        killed by an al-Qaeda attack using a small boat packed with 
        explosives.
  <bullet> On September 11, 2001, 2,977, persons including 2,504 
        civilians, were killed when al-Qaeda operatives hijacked 3 
        planes and used them as guided missiles to attack both World 
        Trade Towers and the Pentagon.
              the victims of the september 11, 2001 attack
    At the World Trade Center site in Lower Manhattan, 2,753 people 
were killed when hijacked American Airlines Flight 11 and United 
Airlines Flight 175 were intentionally crashed in the North and South 
Towers.
    Of those who perished during the initial attacks and the subsequent 
collapses of the towers, 343 were New York City firefighters, another 
23 were New York Police Department officers and 37 others were officers 
at the Port Authority.
    The victims ranged in age from 2 to 85 years.
    At the Pentagon in Washington, 184 people were killed when hijacked 
American Airlines Flight 77 crashed into the building.
    Near Shanksville, Pennsylvania, 40 passengers and crew members 
aboard United Airlines Flight 93 died when the plane crashed into a 
field.
    It is believed that the hijackers crashed the plane in that 
location, rather than its unknown target, after the passengers and crew 
attempted to retake control of the flight.
    The act of those passengers to stop the hijackers likely saved the 
lives of thousands of their fellow Americans that day.
    The heroic work done by the first responders who rushed into the 
burning Twin Towers and the Pentagon saved lives.
    We will forever remember the first responders who lost their lives 
in the line of duty on September 11.
    This Nation shall forever be grateful for their selfless sacrifice.
    I visited the site of the World Trade Center Towers in the 
aftermath of the attacks and grieved over the deaths of so many of our 
men, women, and children.
    I watched as thousands of first responders, construction workers, 
and volunteers worked to recover the remains of the victims, and 
removed the tons of debris, while placing their own lives and health at 
risk.
    The men and women who worked at ``Ground Zero'' were called by a 
sense of duty to help in our Nation's greatest time of need since the 
bombing of Pearl Harbor.
    Under the leadership of President Obama, Osama Bin Laden was found 
and killed and the prosecution of al-Qaeda leaders has left the 
terrorist group without the capacity to launch major operations within 
the United States.
    Al-Qaeda began in remote regions of Afghanistan with its own self-
defined vision of Islam and began to impose their views of one of the 
world's great religions on the people of Afghanistan.
    It took September 11, 2001, for the world to fully understand the 
danger posed by al-Qaeda.
    ISIS/ISIL, a new, and unfortunately, much improved version of al-
Qaeda:
  <bullet> sought out the Syrian conflict--where it could ferment more 
        war and violence so that no governing order could be found;
  <bullet> turned on any moderate or tolerant Muslim group engaged in 
        conflict with Syrian government and murdered them; and
  <bullet> conducted a ``lightning war,'' or blitzkrieg attack, into 
        Iraq and formed the largest border disruption since World War 
        II.
    The ISIS/ISIL's control stretches from the towns along the Syrian-
Turkish border to Raqqa, in northern Syria, across the obliterated 
Iraqi border into Mosul, Tikrit, and Falluja, through farming towns 
south of Baghdad--involving one-third of the territory of both Iraq and 
Syria are involved or impacted by this act of aggression.
    The things that keep civilized nations in check are not the worry 
of ISIS/ISIL leaders--they have no concern for anyone or anything.
    Nations care about the well-being of their people--they worry about 
how an action may impact its people.
    Nations work to relieve the suffering of their people--they seek 
peaceful means of addressing conflicts, but if necessary will defend 
themselves, their people, and their National interest.
    ISIS/ISIL is no al-Qaeda--it is much more dangerous because of its 
global ambition to lure the United States into a ground war to solidify 
its ambition to create a caliphate.
    A caliphate is a form of Islamic government led by a caliph.
    A caliph is the successor to the Islamic prophet, Muhammad 
(Muhammad ibn Abdullah), and the leader of the entire Muslim community.
    The goal is not just war with the United States, but to take 
hostage one of the world's great religions and use it to justify a 
murderous, blasphemous existence.
    In the past 3 months alone, ISIS has claimed responsibility for 
crimes, atrocities, and terroristic attacks, and deaths in Saudi 
Arabia, Yemen, Egypt, Beirut, and Paris.
    Daesh-ISIL, also known as ISIS, and other terrorist networks that 
have pledged allegiance to ISIS today pose the gravest extremist threat 
faced by our generation and those of our children.
    Since September 11, 2001, it has been a priority of this Nation to 
prevent terrorists or those who would do Americans harm from boarding 
flights whether they are domestic or international.
    Just as the terrorist threat has evolved--so has the United States 
in its means, methods, and approaches to addressing this ever-evolving 
threat.
    The tools at the ready for ISIS include automatic weapons, suicide 
bombers, and social media to recruit and influence those who could 
become violent extremists.
    The reality is that we can no longer think of just the threats 
abroad, but the ones we may create for ourselves, as we grapple with 
managing fear and anxiety of our citizens.
    Countering Violent Extremism (CVE) both domestic and international 
in nature is a priority that the Nation and policy makers must face.
    To succeed in the fight against violent extremism defined by the 
actions of ISIS/ISIL and Boko Haram we must use every asset available 
to stop the spread of the violence they perpetrate as well as their 
ability to create safe havens in areas where Government authority is 
not enforced or consistent.
    The Foreign Affairs Committee held a hearing on the subject of 
people buying stolen artifacts and art from the region controlled by 
ISIS/ISIL.
    Anyone who purchased stolen antiquities or anything of value from 
the region of the world controlled by ISIS/ISIL could very easily have 
contributed money for the purchase of weapons, air flights for foreign 
fighters, or bomb-making materials.
    I commend the Foreign Affairs Committee for their focus on this 
aspect of the ISIS/ISIL threat.
    Part of our strategy to achieve global stability, especially in 
light of what has transpired in the past few days alone, is to 
destabilize ISIS so that it lacks the financial ability to recruit and 
expand its caliphate aspirations.
    In my estimation that is ISIS/ISIL's greatest vulnerability--they 
need cash to function.
              means employed by isis to achieve financing
  <bullet> One of the strategies employed by ISIS involve global 
        terrorist fundraising sources which may involve state sponsors 
        such as in the case of Iran funding certain terrorist groups 
        according to State Department reports.
  <bullet> According to the Treasury Department's first-ever-released 
        National Terrorist Financing Risk Assessment, we learn that 
        countries like Kuwait and Qatar may foster environments which 
        make it easy for terrorist organizations like ISIS to receive 
        some of its support from private donors.
  <bullet> In addition to its illicit activities such as drug 
        trafficking, kidnapping for ransom, extortion, and antiquities 
        smuggling, ISIS is also able to sustain its activities on self-
        generated profits through legitimate and non-profit 
        organizations who are not aware that their resources or funds 
        are being utilized to promote terrorism.
    The battle against violent extremism is constantly changing but 
their changes should not result in our Nation becoming less human or 
clear-minded.
    We are not ISIS/ISIL nor can our Nation allow any comparisons to 
develop in the minds of our allies or enemies.
    ISIS/ISIL's message needs words and deeds to further pollute the 
truth about them by creating a false narrative about the United States 
and its people.
    After the terrible carnage inflicted upon unarmed people of Paris 
they would like to change the front-page stories around the world from 
the terrible things that they did in Paris to ones about anti-Muslim 
sentiments in the United States.
    I respect the concerns of Governors regarding Syrian refugees, but 
the statesman thing to have done would have been to call a meeting with 
the President, the Secretary of State, and the Chairs and Ranking 
Members of key Senate and House Committees.
    ISIS/ISIL is vain--it does not like bad press.
    We cannot give them any good days where they can hide their true 
nature with lies about the true nature of our Nation and its generous 
people.
    The United States as the greatest democracy in the free world must 
and always lead.
    It is not in our National security or economic interest to sit by 
while ISIS-DAESH or ISIL wreaks havoc in our world.
    As a Nation of immigrants, providing for the least among us is an 
American value which makes us a leader in the world as well as promotes 
our credibility in the world in other matters related to foreign policy 
and our dealings with our international allies.
    Indeed, as a world leader, our country carries the burden of 
leading the international community in addressing the dire humanitarian 
crisis we face across our world from Syria to Nigeria and the world 
over, just as we did during World War II by playing an instrumental 
role in the formation of the United Nations, on which we now sit as one 
of the 5 permanent members of Security Council.
    Remember that ISIS/ISIL covets a power vacuum--the United States 
cannot step aside or away from the global stage.
    We must refrain from knee-jerk anti-refugee rhetoric and policies 
even as we grapple with the recent attacks in Beirut, Paris, Baghdad, 
and Sana'a.
    If anything, the recent attacks compel us not to stoop to the level 
of the evil perpetrators of violence but rather to prepare ourselves to 
redouble our efforts to address the refugee crisis the world faces by 
making good on our promises to provide refuge to Syrians seeking peace 
and security from the war-torn society they have fled.
    Putting up walls and fences and closing borders to prevent members 
of the human race from sanctuary do not provide any short- or long-term 
solutions to the challenges we face as it relates to solving the threat 
of ISIS or the challenge of the refugee crisis in Syria.
    The circumstance for refugees that may enter the United States is 
not the conditions people entered Europe from the conflict area.
    They came by foot and could cross narrow bodies of water to be on 
European soil.
    The United States' entire refugee process has been completely 
revised based on lessons learned from September 11, 2001 and the unique 
threats posed by terrorism.
    The process can take up to 2 years. The United States can hand-pick 
who it will allow to enter. The policy of the administration is that 
only the most vulnerable are under consideration--women with minor-age 
children, persons with dire medical conditions and those who have been 
victims of violence.
    Yes, there are challenges--we do not have access to records on 
persons who are coming from Syria. This is why the policy regarding 
refugees entering the country takes almost 2 years and is so selective.
    We should also be aware of burden sharing.
    As the world's sole superpower we must do what other nations are 
doing--accept Syrian refugees.
    The United States has agreed to accept 10,000 Syrians through 2016, 
which to some may seem to be a great number of refugees to accept.
    However, when compared to other nations, our contributions toward 
relieving the suffering caused by ISIS/ISIL the number is small, for 
example:
  <bullet> To date the United States has accepted 1,500 Syrian refugees 
        since the start of the conflict in 2011 and will receive 
        another 10,000 by 2016.
  <bullet> Turkey has accepted over 1.9 million Syrians accounting for 
        almost half of the Syrian refugees.
  <bullet> Lebanon has received 1.1 million refugees which marks a 25% 
        increase in the country's 4.4 million population.
  <bullet> Jordan has provided shelter to 629,000 refugees from Syria, 
        Iraq, Somalia, and Sudan, but Syrians constitute the majority 
        of Jordan's refugee population.
  <bullet> Iraq has received 249,000 Syrians even though like Syria, 
        Iraq has been torn by attacks perpetrated by ISIS.
  <bullet> Egypt has provided refuge to 132,000 Syrians, with no 
        refugees living in camps in Egypt and Egyptian billionaire 
        Naguib Sawiris, one of the region's wealthiest men, offering to 
        buy an island for refugees and his name for the proposed island 
        home: Hope.
  <bullet> Germany has accepted 98,700 Syrian refugees as the European 
        country that faces the largest share of Syrian requests for 
        asylum in Europe.
  <bullet> Sweden has provided refuge for 64,700 Syrians.
  <bullet> France has accepted 6,700 refugees and as of September 2015, 
        has committed to hosting 24,000 refugees over the next 2 years.
  <bullet> The United Kingdom has accepted 7,000 Syrian refugees and 
        has committed to take up another 20,000 Syrian refugees over 
        the next 5 years.
  <bullet> Denmark and Hungary have received 29,000 Syrians combined.
  <bullet> Serbia has received 49,500 asylum requests from Syrian 
        refugees.
  <bullet> Italy, where many migrants have made the perilous 
        Mediterranean crossing from North Africa also receives 
        refugees.
  <bullet> Greece, which lies on a popular transit route from Turkey 
        north through the Balkans to Northern Europe, has seen more 
        than 250,000 people arrive on its shores this year.
    Today's witnesses tell many of us what we already know--that we are 
in a new era of geopolitical conflict.
    It is no longer a matter of governments fielding armies or 
combatants--but the emergence of what is best described as a new form 
of geo-military transnational gang activity.
    The affiliations of violent extremist individuals and groups are 
loose, with membership remaining fluid--one individual or small group 
may identify with al-Qaeda today, and switch its identification to ISIL 
or al-Shabaab or Boko Haram depending on which group is perceived to be 
the strongest.
    These groups require chaos to function and they attack institutions 
and people regardless of their religious or ethnic traditions to 
destabilize regions.
    They act in the name of Islam but institute intra- and inter-Muslim 
faith conflicts against individuals and mosques to kill thousands.
    It is ironic and sad that the single greatest casualty group of 
ISIS/ISIL are Muslims--especially women, children, disabled, and the 
elderly.
    Violent extremism is not new--those who struggle to hold onto an 
idyllic past or rigid view of their faith that does not tolerate non-
conformism has plagued societies throughout history.
    The only tools that have succeed in overcoming violent extremism is 
the commitment of those most affected by their violence to stand 
against them.
    We must remember that after the battles are fought and won that the 
underlying causes for so many willing souls to commit themselves to 
kill and die for ISIS/ISIL and Boko Haram must be addressed.
    Where there is poverty, corruption, a sense of not having value or 
social worth, violence and systemic disparity in living conditions and 
insurmountable forces to resist upward mobility by poor communities 
lays fertile ground for recruiting, training, and turning young minds 
toward violence.
    Some would argue that these problems are not ours to solve.
    The counter argument is that the cost of not solving these 
underlying problems makes the ability to win a lasting end to violent 
extremism nearly impossible.
    We cannot kill ideas with bombs--we must change hearts and minds.
    I am a firm supporter of getting to the source of problems that 
come from the complexity of our interconnected world.
    Part of the struggle for peace we have today is a direct 
consequence of invading Iraq without provocation or reason.
    Paraphrasing Secretary of State Colin Powell's advice to President 
George W. Bush: ``if we break it--we will own it.''
    He was warning President Bush about the folly of entering into a 
war of choice with Iraq and the complexities of that region of the 
world that could spiral out of control.
    It is time that we recognize how right Secretary Powell was then 
and how his words are playing out every day.
    Added to the challenge of violent extremists is their technological 
savvy in the use of the tools of social media to reach far beyond the 
battlefield to influence young people to join their cause.
    Our work as Members of our respective committees should focus on 
ensuring that the Department of Homeland Security and the Department of 
State have the resources needed to meet the challenges presented by 
violent extremism.
    I thank today's witnesses and look forward to their testimony.
    Thank you.

    Chairman McCaul. We are pleased to have a distinguished 
panel of witnesses before us here today. Our first witness is 
General Jack Keane, who is a retired four-star general of the 
United States Army and current chairman of the board at the 
Institute for the Study of War. Previously he served as vice 
chief of staff of the United States Army. Thank you, sir, for 
being here.
    General Keane. Mr. Chairman----
    Chairman McCaul. Our second witness----
    General Keane. Oh, I am sorry.
    Chairman McCaul. I will get to you in a minute.
    Second witness is the Honorable Matthew Olsen who currently 
serves as president of Business Development at IronNet 
Cybersecurity. Previously he served as a director of the 
National Counterterrorism Center.
    Our third witness is Mr. Peter Bergen who is the current 
director of the National Security Studies Program at the New 
America Foundation. Mr. Bergen also serves as the national 
security analyst for CNN, and fellow at Fordham University 
Center on National Security. Thank you, sir, for being here as 
well.
    The witnesses' full statements will appear in the record. 
The Chair now recognizes General Keane for his opening 
statement.

 STATEMENT OF GENERAL JOHN M. KEANE (RET. U.S. ARMY), CHAIRMAN 
          OF THE BOARD, INSTITUTE FOR THE STUDY OF WAR

    General Keane. Chairman McCaul, Chairman Royce, Ranking 
Members Thompson and Engel, distinguished Members of this joint 
committee, thank you for inviting me to testify today. I am 
honored to be here with Matt Olsen and Peter Bergen, both who I 
have known for years and have great respect for.
    Listen, please refer to the map that is provided at your 
seat. It looks like this, provided by the Institute for the 
Study of War, which I will reference in my remarks. I will 
refine my remarks to ISIS in the interest of time.
    ISIS is the most successful terrorist organization in 
modern history. It is driven by a religious-based ideology with 
significant geopolitical objectives to establish an extensive 
caliphate that touches the Middle East, Africa, Asia, and 
Europe by dominating all Muslim lands, and an apocalyptic event 
in Europe that carves out an ISIS enclave.
    ISIS has three major thrusts. The first is to defend Syria 
and Iraq. While ISIS has lost some territory, it views 
operations in Syria and Iraq as largely successful because it 
controls large swaths of territory, it is recruiting 
successfully, maintaining tactical and operational initiative, 
and is able to logistically sustain its forces.
    The second thrust is to use its headquarters in Syria to 
expand what it terms the near abroad--on your map, see the 
areas with the black stars or crosses?--by establishing 
affiliate organizations they term wilayats, which is a formal 
relationship in 9 countries and regions.
    The third major thrust is to influence the far abroad, on 
your map areas in yellow, which are Muslim lands and countries 
that are supporting the coalition against ISIS by inspiring and 
motivating radicals, by averaging thousands of social media 
posts per day and by returning fighters from Syria who are 
trained and motivated to attack their own citizens at home. 
ISIS attempts to divide and polarize these societies by 
weakening the people's resolve to support their governments' 
efforts against ISIS and to fragment and polarize the non-
Muslim and Muslim populations.
    What ISIS has accomplished in the last few weeks is 
unprecedented and quite stunning. While conducting a 
conventional war in Iraq and Syria, ISIS has staged terrorist 
attacks on a global scale against the people from the countries 
who are fighting ISIS. The result is almost 900 casualties in 
12 days, both killed and wounded who are Russian, Lebanese, and 
mostly French in Paris. Can you imagine the impact if the Nazis 
were conducting terrorist activities in major American cities 
while the United States was fighting the Nazis in Europe?
    So what do we do about ISIS? Clearly, ISIS is not contained 
and is far from defeated. The United States and our allied 
partners need to wake up. ISIS is at war with us and 
civilization, but in my judgment, America is not truly at war 
with ISIS, not the President, nor the Congress and certainly 
not the American people. We need to throw out the policy of, 
``strategic patience,'' which is an excuse for a lack of an 
aggressive coherent strategy, recognize that dragging out the 
war provides ISIS with a degree of invincibility, a sense of 
destiny and purpose shrouded in the aura of success.
    The security of the American people at home is directly 
related to ISIS's success and their ability to motivate and 
inspire their followers to kill fellow Americans. One, step up 
U.S. military activities in Iraq and Syria. Once and for all 
send the required advisers, trainers, air controllers that are 
truly needed to dramatically increase combat effectiveness. 
Recognize the criticality of Sunni opposition forces to depose 
ISIS who is largely occupying Sunni lands.
    Also be realistic about the Kurds who are proven fighters 
but are interested only in their territory and not reclaiming 
lost Sunni territory. Mission the special operations forces not 
just to target leaders or conduct hostage rescue but to conduct 
large-scale in and out raids to target ISIS critical nodes and 
functions. Dramatically increase UAVs, mine clearance vehicles, 
Apache helicopters, and a host of other much-needed equipment.
    The troops required is about a minimum of 10,000. Identify 
combat brigades separate from the number I just gave you for 
potential deployment but held in reserve and only committed if 
all else fails. Unleash a devastating air campaign without the 
imposed restrictions of the last 15 months which has been 
disproportionate to all recent air campaigns in the extreme 
concern for civilian casualties.
    Establish safe zones in northwest Syria along the Turkish 
border and in southwest Syria along the Jordanian border for 
refugees. Protect on the ground with an international force, 
protect from the air using coalition air power and with 
Jordanian and Turkish missile defense on their side of the 
border.
    Step up politically in Syria. Recognize that ISIS will 
never be defeated until the civil war ends. Only when there is 
a genuine cease-fire can the Sunni Arabs turn their attention 
on ISIS. Move to marginalize Russia in Syria and then encourage 
a face-saving exit.
    In Iraq, ISIS with the exception of some Kurdish land that 
it surrounded, controls largely Sunni land. Obviously, to re-
take and hold this territory will require a significant Sunni 
force commitment. Currently, Prime Minister Abadi has not been 
successful in creating political unity, particularly with the 
Sunnis. Dispatch retired Ambassador Crocker, America's 
preeminent Middle East diplomat, to Baghdad as the President of 
the United States' personal envoy to move the government of 
Iraq toward political unification.
    While I believe we should not overreact and certainly not 
all get overly defensive, I will leave those comments for my 
statement--my written testimony provided for the record and 
discuss it in Q&A.
    In conclusion, ISIS is fundamentally evil, brutal, 
barbaric, killing every day, systematically enslaving and 
raping women, destroying many of the monuments to civilization. 
It is indisputable that ISIS is succeeding in executing a 
global strategy from their caliphate in the Islamic State.
    As much--as part of that strategy, they are planning to 
kill Americans, they have repeatedly said so and they have 
proven they do what they say.
    Having the best security defensive system in America is not 
sufficient. We must have as good an offense to stop and defeat 
ISIS. We do not, we are not even close. I can say with 
certainty that the current U.S.-driven coalition strategy with 
its modest improvements will fail. I believe the Congress 
should provide the President a bipartisan sense of the Congress 
that we are failing to protect the American people and that 
much more must be done with urgency and resolve to defeat ISIS. 
The Congress should also pass the AUMF.
    I look forward to your questions.
    [The prepared statement of General Keane follows:]
         Prepared Statement of General John M. Keane, USA (Ret)
                           November 18, 2015
    Chairman McCaul, Chairman Royce, Ranking Members Thompson and 
Engel, distinguished Members of the committee, thank you for inviting 
me to testify today. Am honored to be here with such a distinguished 
panel. Please refer to the map provided by the Institute for the Study 
of War (ISW) which I will reference in my remarks.
    ISIS is part of the multi-generational struggle against radical 
Islam which will likely dominate the first half of the 21st Century 
similar to the fight against communism, which dominated the second half 
of the 20th Century. Fourteen years after 9/11 the United States has no 
comprehensive strategy or a global alliance to defeat radical Islam. 
ISIS is the most successful terrorist organization in modern history. 
It is driven by a religious-based ideology with significant 
geopolitical objectives to establish an extensive caliphate that 
touches the Middle East, Africa, Asia, and Europe, by dominating all 
Muslim lands and an apocalyptic event in Europe that carves out an ISIS 
enclave.
    ISIS has 3 major thrusts:
    The first is to defend Syria and Iraq. While ISIS has lost some 
territory, it views operations in Syria and Iraq as largely successful, 
because it still controls large swaths of territory, is recruiting at 
the same rate, maintaining tactical and operational initiative, and is 
able to logistically sustain its forces.
    The second thrust is to use its headquarters in Syria to expand in 
the ``near abroad'' (on your map see areas with black crosses) by 
establishing affiliate organizations (wilayats), which is a formal 
relationship in 9 countries and regions: Saudi Arabia, Libya, Egypt, 
Afghanistan, Pakistan, Yemen, Nigeria, North Caucasus, and Algeria. 
ISIS provides guidance and resources to these affiliates. The 
affiliates are attempting to control a swath of territory inside these 
countries and regions while undermining the local government. As we 
know, Wilayat Sinai is suspected of downing a Russian aircraft.
    The third major thrust is to influence the ``far abroad,'' (on your 
map see areas in yellow) which are Muslim lands and countries that are 
supporting the coalition against ISIS (United States, Europe, and 
Australia) by inspiring and motivating radicals, by averaging thousands 
of social media posts per day, and by returning fighters from Syria who 
are trained and motivated to attack their own citizens at home. 
Obviously the recent attacks in France and Lebanon are examples. ISIS 
attempts to divide and polarize these societies by weakening the 
people's resolve to support their government's efforts against ISIS and 
to fragment and polarize the non-Muslim and Muslim populations.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    What ISIS has accomplished in the last few weeks is unprecedented. 
While conducting a conventional war in Iraq and Syria, ISIS has staged 
terrorist attacks on a global scale against the people from the 
countries who are fighting ISIS. The result is almost 900 casualties in 
12 days, both killed and wounded, who are Russian, Lebanese, and mostly 
French in Paris. Can you imagine the impact if the Nazis were 
conducting terrorist activities in major American cities while the 
United States was fighting the Nazis in Europe ?
                       what we can do about isis
    Clearly ISIS is not contained and is far from defeated. The United 
States and our allied partners need to wake up. ISIS is at war with us 
and civilization, but America is not truly at war with ISIS--not the 
President, nor the Congress and certainly not the American people. 
Throw out the policy of ``strategic patience'' which is an excuse for a 
lack of an aggressive, coherent strategy. Recognize that dragging out 
the war provides ISIS with a degree of invincibility, a sense of 
destiny, shrouded in the aura of success. The security of the American 
people at home is directly related to ISIS's success and their ability 
to motivate and inspire their followers to kill fellow Americans.
1. Step up U.S. military activities in Iraq and Syria
  <bullet> Once and for all send the required advisors, trainers, air 
        controllers that are truly needed to dramatically increase IA, 
        Sunni tribal force and Kurdish Peshmerga combat effectiveness. 
        The output should be at least 3 times greater.
  <bullet> Recognize the criticality of Sunni opposition forces to 
        depose ISIS who is largely occupying Sunni lands. Also be 
        realistic about the Kurds who are proven fighters but are 
        interested only in their territory and not reclaiming lost 
        Sunni territory.
  <bullet> Mission SOF not just to target leaders or conduct hostage 
        rescue but to conduct large-scale in/out raids to target ISIS 
        critical nodes and functions.
  <bullet> Dramatically increase UAVs, mine clearance vehicles, and 
        Apache helicopters.
  <bullet> Troops required is a minimum of 10K.
  <bullet> Identify combat brigades for potential deployment but held 
        in reserve and only committed if all else fails.
  <bullet> Unleash a devastating air campaign without the imposed 
        restrictions of the last 15 months which has been 
        disproportionate to all previous air campaigns in the extreme 
        concern for civilian casualties. The result: Multiple general 
        officer layers clearing fires, targets lost, enemy taking 
        advantage of the rules of engagement (ROE).
  <bullet> Establish Safe Zones in NW Syria along the Turkish border 
        and in SW Syria along the Jordanian border for refugees. 
        Protect on the ground with an international force. Protect from 
        the air using coalition air power and with Jordanian and 
        Turkish missile defense on their side of the border.
2. Step up Politically
            SYRIA
  <bullet> Recognize that ISIS will never be defeated till the Syrian 
        civil war ends.
  <bullet> The objective is not simply a cease-fire but elimination of 
        Assad and the Alawite regime. United States should not give in 
        to Russian/Iranian demands to keep an Alawite regime. Move to a 
        transition regime representing major power players and then a 
        general election.
  <bullet> Only when there is a genuine cease-fire can the Sunni Arabs 
        turn their attention on ISIS.
  <bullet> Move to marginalize Russia in Syria and then encourage a 
        face savings exit.
            IRAQ
  <bullet> ISIS with the exception of some Kurdish land that it 
        surrendered, controls largely Sunni land. Obviously to retake 
        and hold this territory will require a significant Sunni force 
        commitment.
  <bullet> Currently PM Abadi has not been successful in creating 
        political unity in Iraq among Sunni, Kurds, and Shia.
  <bullet> Moving PM Abadi toward political unity is key to the 
        survival of Iraq and the defeat of ISIS. The status quo is not 
        working.
  <bullet> Dispatch retired Ambassador Crocker, America's preeminent ME 
        diplomat to Baghdad as the POTUS' personal envoy to move the 
        GOI toward political unification.
3. Don't over-react or get defensive
  <bullet> ISIS is seeking fragmentation and polarization of European 
        Muslim and non-Muslim communities. They want a crackdown and 
        further isolation of Muslim communities to move Europe toward 
        their idea of an ``apocalyptic war'' resulting in expansion of 
        their caliphate to a Muslim enclave in Europe. These drums are 
        already beating in European countries as resentment grows to 
        the Muslim migration and the huge refugee challenges. 
        Reactionary, revisionist voices are getting louder and gaining 
        influence.
  <bullet> Now is not the time to commit U.S. combat brigades to Iraq 
        or Syria. But if necessary, at some future date, it should be a 
        part of a regional Arab and NATO coalition.
  <bullet> We need to avoid over-policing at home or curtailing 
        American liberties. We need good counter intelligence from 
        Government agencies, police departments, and a sense of public 
        awareness about security.
  <bullet> As to taking in Middle East refugees the Congress should ask 
        the administration to prepare a Refugee Crisis Plan for 
        Congressional approval by their oversight committees. As you 
        know the Congress and the Executive branch set the ceiling for 
        refugees, currently at 70K in 2015, with 69K already in the 
        United States, with a White House request for an additional 10K 
        Middle East refugees. While we stand up for America's values 
        and what makes the United States a great Nation, the Congress 
        should be reasonably convinced that the American people are 
        protected by the Refugee Crisis Plan.
    In conclusion, ISIS is fundamentally evil; brutal, barbaric killing 
every day while systematically enslaving and raping women. It is 
indisputable that ISIS is succeeding in executing a global strategy 
from their caliphate in the Islamic State. As part of that strategy, 
they are planning to kill Americans. They have repeatedly said so and 
they have proven, they do what they say. Having the best security 
defensive system in America is not sufficient, we must have as good an 
offense to stop and defeat ISIS. We do not. We are not even close. I 
can say with certainty that the current U.S.-driven coalition strategy 
with its modest improvements will fail. I believe the Congress should 
provide the President a bipartisan ``sense of the Congress'', that we 
are failing to protect the American people, and that much more must be 
done with urgency and resolve to defeat ISIS. The Congress should also 
pass the AUMF or the Authorization for the Use of Military Force.
    Thank you and I look forward to your questions.

    Chairman McCaul. Thank you, General. The Chair recognizes 
Mr. Olsen.

   STATEMENT OF MATTHEW G. OLSEN, CO-FOUNDER AND PRESIDENT, 
    BUSINESS DEVELOPMENT AND STRATEGY, IRONNET CYBERSECURITY

    Mr. Olsen. Thank you Chairman McCaul and Chairman Royce, 
Ranking Member Thompson, Ranking Member Engel, Members of these 
two key committees, I appreciate the opportunity to be here 
this morning with my distinguished panelists General Keane and 
Peter Bergen to discuss the threats we face from terrorism and 
the steps we need to take to confront those threats.
    Of course, we meet this morning only a few days after the 
horrific attacks in Paris that took the lives of 129 people and 
shocked the city of Paris and the rest of the world. So today, 
our discussion of terrorism must begin, as you did Mr. 
Chairman, with our expression of condolences for the victims 
and our declaration of solidarity with the people of France.
    The attacks in Paris serve both as a sobering reminder of 
the severity of the threats we face from terrorist groups of 
global reach and as a call for action in the on-going struggle 
against terrorism and violent extremism.
    Indeed, the attacks last Friday give this hearing added 
urgency as you convene to examine the threat to the United 
States and the steps we need to take to counter terrorist 
groups both here at home and abroad. So I will focus my very 
brief remarks on the terrorist landscape today, beginning with 
the Paris attacks.
    As that investigation continues to unfold, it now appears 
clear the attacks were a deliberate and planned effort 
conducted by the terrorist group that calls itself the Islamic 
State, or ISIS. ISIS has publicly claimed responsibility for 
these attacks, and the suspect coordinator of these attacks 
Abdelhamid Abaaoud, is reportedly a member of ISIS.
    The Paris attacks reflect an alarming trend. Over the past 
year, we have seen ISIS increase the complexity, the severity 
and the pace of its external attacks. The Paris attacks were 
not simply inspired by ISIS, but rather, they appear to have 
been ISIS planned and directed. They were conducted as part of 
a coordinated effort to maximize casualties by striking some of 
the most vulnerable targets in the West--nightclubs, cafes, 
sporting arenas.
    The Paris attacks also demonstrate ISIS's expanding reach 
beyond its safe haven in Syria and Iraq. Indeed, we have seen 
ISIS-inspired or direct attacks in Libya, Tunisia, recently in 
Beirut and apparently with the downing of the Russian airliner 
in the Sinai. So far this year, there have been 41 ISIS or 
ISIS-inspired attacks against Western targets. That is already 
more than double the number of such attacks last year according 
to reports. As the CIA director warned this week, ISIS likely 
has other planned attacks.
    The number of European and Westerners who have gone to 
Syria to fight in this conflict is helping to drive this trend. 
Estimates vary, but the reports suggest that the number of 
foreign fighters exceed 30,000, and this includes as many as 
4,000 or more Europeans, including many French, British, and 
German nationals, and the number of Americans who have traveled 
to Syria or tried to now exceeds 250.
    Also disturbingly, ISIS has developed an unprecedented 
ability to communicate with its followers world-wide. The group 
attracts recruits through a sophisticated media propaganda 
effort, the group uses multiple websites, Twitter feeds, 
YouTube channels, on-line chatrooms, and it uses these 
platforms to radicalize and mobilize potential operatives in 
the United States and elsewhere. In short, ISIS's proven 
intentions and its increasing capability, as the Paris attacks 
reflect so starkly, warrant ranking the group as our most 
urgent terrorist threat.
    At the same time, I have to say that al-Qaeda and its 
affiliates continue to pose a significant threat to the United 
States and our interests around the world. Indeed, al-Qaeda is 
vying with ISIS to be the leader of a global jihadist movement. 
There is no doubt that U.S. counterterrorism pressure has led 
to the steady elimination of the group's senior leaders and 
limited the group's ability to operate, train, and recruit 
operatives, but at the same time, the core leadership of al-
Qaeda continues to wield substantial influence over affiliated 
and allied groups such as the Yemen-based al-Qaeda in the 
Arabian Peninsula.
    On three occasions over the past several years, AQAP sought 
to bring down an airliner bound for the United States, and 
there is reason to believe it still harbors this intent and 
substantial capability to carry out such a plot. Looking closer 
to home, here in United States, there has been an uptick over 
the past year in the number of moderate to small-scale plots.
    Lone actors, insular groups often self-directed or inspired 
by groups like ISIS pose the most serious threat to carry out 
attacks here, and home-grown violent extremists will likely 
continue gravitating towards simpler plots that do not require 
advanced skills, outside training, or communication with 
others.
    Highlighting this challenge, the FBI director said earlier 
this year that the FBI has home-grown violent extremist cases 
in every State, totaling more than 900, and most of these cases 
reportedly are connected to ISIS.
    Finally, three broad trends that I want to identify make it 
much more difficult for our counterterrorism professionals to 
prevent attacks here in the United States.
    First, it is increasingly difficult for the intelligence 
community to collect specific intelligence on terrorist 
intentions and the status of developing plots. The illegal 
disclosure of our intelligence collection methods and 
techniques give terrorists a road map on how to evade our 
intelligence, and they are taking advantage of this.
    Second, there has been a proliferation of rapidly-evolving 
plots that emerge simply from an individual being urged to take 
action and then quickly moving to attack. ISIS has adopted this 
approach and the compressed time frame for these plots to 
develop limits the opportunity for our intelligence and law 
enforcement professionals to disrupt attacks.
    Then, third, the instability--looking more broadly--the 
instability and unrest in large parts of the Middle East and 
North Africa have led to a lack of security border patrol and 
effective governance. In the last few years, 4 states, Iraq, 
Syria, Libya, and Yemen, have effectively collapsed.
    In conclusion, Mr. Chairman, the rise of ISIS and the 
overall threat landscape present enormous challenges to our 
counterterrorism law enforcement and military professionals and 
to policymakers across the Government. Our strategy to defeat 
ISIS and other terrorist groups must use all the tools of 
American power. It must include military action where necessary 
to eliminate leaders, deny these groups territory, remove 
eminent threats to our citizens.
    The strategy must seek to broaden and strengthen the 
international coalition and includes our European allies and 
partners in the region who are on the front lines of this 
fight. We must redouble our efforts to collect intelligence 
necessary to obtain advance warning of developing plots, and to 
ensure that our law enforcement officers have the tools to 
disrupt these plots. The strategy must counter the underlying 
message and ideology of ISIS.
    The enduring lesson of 9/11 is that American leadership is 
indispensable to this fight.
    I look forward to your questions.
    [The prepared statement of Mr. Olsen follows:]
                 Prepared Statement of Matthew G. Olsen
                           November 18, 2015
    Thank you Chairman McCaul, Chairman Royce, Ranking Member Thompson, 
Ranking Member Engel, and Members of these two key committees. I 
appreciate this opportunity to appear before your committees to discuss 
the threat we face from terrorism and the steps we must take to 
confront these threats.
    We meet this morning only a few days after the horrific terrorist 
attacks in Paris that took the lives of 129 people and shocked the city 
of Paris and the world. Today, our discussion of terrorism must begin 
with our expression of condolences for the victims and a declaration of 
solidarity with the French people.
    The attacks in Paris serve both as a sobering reminder of the 
severity of the threats we face from terrorist groups of global reach 
and as a call for action in the on-going struggle against terrorism and 
violent extremism. Indeed, the attacks last Friday give this hearing 
added urgency, as you convene to examine the threat to the United 
States and the steps we should take to counter terrorist groups both at 
home and abroad.
    I will focus my brief remarks on the terrorist landscape today. 
Beginning with the Paris attacks, as the investigation continues to 
unfold, it now appears clear that these attacks were a deliberate, 
planned effort conducted by the terrorist group that calls itself the 
Islamic State, also known as ISIS. ISIS has publicly claimed 
responsibility for these attacks. And the suspected coordinator of 
these attacks, Abdelhamid Abaaoud, who police in Paris may have 
targeted in a raid last night, is reportedly a member of ISIS.
    The Paris attacks reflect an alarming trend. Over the past year, we 
have seen ISIS increase the complexity, severity, and pace of its 
external attacks. The Paris attacks were not simply inspired by ISIS, 
but rather it appears they were ISIS-planned and directed. And they 
were conducted as part of a coordinated effort to maximize casualties 
by striking some of the most vulnerable targets in the West: 
Nightclubs, cafes, and sporting arenas.
    The Paris attacks also demonstrate ISIS's expanding reach beyond 
its safe haven in Syria and Iraq. Indeed, we have seen ISIS-inspired or 
directed attacks in Libya and Tunisia, recently in Beirut, and 
apparently with the downing of the Russian airliner in the Sinai 
Peninsula. And so far this year, there have 41 ISIS or ISIS-inspired 
attacks against Western targets, already more than double the number of 
such attacks last year, according to reports. As the CIA director 
warned this week, ISIS likely has other attacks planned.
    The number of Europeans and other Westerners who have gone to Syria 
to fight in this conflict is helping to drive this trend. Estimates 
vary, but reports suggest that the number of foreign fighters exceeds 
30,000 and this includes as many as 4,000 or more Europeans, including 
many French, British, and German nationals. The number of Americans who 
have travelled to Syria, or have tried to, exceeds 250.
    ISIS also has developed an unprecedented ability to communicate 
with its followers world-wide. The group attracts recruits through a 
sophisticated media and propaganda effort. ISIS has multiple websites, 
active Twitter feeds, YouTube channels, and on-line chat rooms, and it 
uses these platforms to radicalize and mobilize potential operatives in 
the United States and elsewhere.
    In short, ISIS's proven intentions and increasing capability, as 
the Paris attacks reflect so starkly, warrant ranking the group as our 
most urgent terrorist threat.
    At the same time, al-Qaeda and its affiliates continue to pose a 
significant threat to the United States and our interests around the 
world. Indeed, al-Qaeda is vying with ISIS to be the ideological leader 
of the global jihadist movement.
    There is no doubt that U.S. counterterrorism pressure has led to 
the steady elimination of the group's senior leaders and limited the 
group's ability to operate, train, and recruit operatives. At the same 
time, the core leadership of al-Qaeda continues to wield substantial 
influence over affiliated and allied groups, such as Yemen-based al-
Qaeda in the Arabian Peninsula. On three occasions over the past 
several years, AQAP has sought to bring down an airliner bound for the 
United States. And there is reason to believe it still harbors this 
intent and substantial capability to carry out such a plot.
    Here in the United States, there has been an uptick over the past 
year in the number of moderate- to small-scale plots. Lone actors or 
insular groups--often self-directed or inspired by overseas groups, 
like ISIS--pose the most serious threat to carry out attacks here. And 
home-grown violent extremists will likely continue gravitating to 
simpler plots that do not require advanced skills, outside training, or 
communication with others. The on-line environment serves a critical 
role in radicalizing and mobilizing home-grown extremists towards 
violence.
    Highlighting the challenge this presents, the FBI director said 
earlier this year that the FBI has home-grown violent extremist cases 
in every State, totaling about 900. Most of these cases reportedly are 
connected to ISIS.
    Finally, three broad trends make it much more difficult for our 
counterterrorism professionals to prevent terrorist attacks here. 
First, it is increasingly difficult for the intelligence community to 
collect specific intelligence on terrorist intentions and the status of 
developing plots. The illegal disclosure of our intelligence collection 
methods and techniques gave terrorists a roadmap on how to evade our 
surveillance.
    Second, there has been a proliferation of rapidly-evolving plots 
that emerge simply from an individual being urged to take action, and 
then quickly moving to attack. ISIS has adopted this approach, using 
social media and encrypted means of communicating to inspire others to 
carry out attacks. The compressed time frame for these plots to develop 
limits the opportunity for our intelligence and law enforcement 
professionals to disrupt potential attacks.
    Third, instability and unrest in large parts of the Middle East and 
North Africa have led to a lack of security, border control, and 
effective governance. In the last few years, 4 states--Iraq, Syria, 
Libya, and Yemen--have effectively collapsed. ISIS and other terrorist 
groups exploit these conditions to expand their reach and establish 
safe havens. Dozens of jihadist groups in as many as 18 countries have 
now pledged allegiance or support to ISIS.
    In conclusion, the rise of ISIS and the overall threat landscape 
present enormous challenges to our counterterrorism, law enforcement, 
and military professionals, and to policy makers across our Government.
    Our strategy to defeat ISIS and other terrorist groups must use all 
the tools of American power. It must include military action where 
necessary to eliminate leaders, deny these groups territory, and to 
remove imminent threats to our citizens. The strategy must seek to 
broaden and strengthen the international coalition that includes our 
European allies and partners in the region, who often are on the front 
lines of this fight.
    We must also redouble our efforts to collect the intelligence 
necessary to obtain advance warning of developing plots and to ensure 
that our law enforcement officers have the tools to disrupt these 
plots. This strategy must counter the underlying message and ideology 
of ISIS. And the enduring lesson we have learned since 9/11 is that 
American leadership is indispensible to this fight.
    I look forward to answering your questions.

    Chairman McCaul. Thank you, Mr. Olsen.
    Chair now recognizes Mr. Bergen for an opening statement.

     STATEMENT OF PETER BERGEN, VICE PRESIDENT, DIRECTOR, 
    INTERNATIONAL SECURITY AND FELLOWS PROGRAMS, NEW AMERICA

    Mr. Bergen. Thank you, Chairman McCaul, Chairman Royce, 
Ranking Member Thompson and Ranking Member Engel, and also all 
the distinguished Members here today and also it is a great 
honor to be here with General Keane and Director Olsen.
    I work at a foundation called New America. This week we 
released a report of 474 named individuals, Western foreign 
fighters, from reliable press accounts and also from court 
records. In order to bring some light to the question who 
exactly is--who are these Western recruits signing up for ISIS 
and we found the following interesting findings.
    For a start, the demographic profile of the militants drawn 
to the Syrian war is very different from previous jihads. Most 
notably, 1 in 7 of the militants is female. We just found out 
last night that one of the people that was killed in the raid 
on Saint-Denis in Paris was a female who blew herself up.
    They are also very young; the average age is 24. For the 
females it is even younger, it is 21. They are very active on-
line, unsurprising given their age. In United States we found 
that 9 out of 10 were active on-line, by which I mean not just 
sending e-mails but posting regularly on jihadi websites active 
on social media.
    Many have familial ties to jihadism. We found one-third of 
the Western fighters have a family member in some way involved 
in the jihad. We--this is in Paris--we found two brothers who 
were involved in the plot; one of whom is still being sought by 
police. We have seen people getting married in Syria.
    Part of the attraction for people going to Syria is that 
they in their own minds may find a perfect marriage partner. 
ISIS presents itself as creating the perfect society and you 
can come and marry the man or woman of your dreams.
    The American profile of these militants is very similar to 
the Western foreign fighter, in general. They are young, 1 in 6 
are women, their average age is 25.
    A lot of these Western foreign fighters are dying in Syria. 
Syria is obviously a very dangerous conflict. Half the males in 
our data set are dead; 6 percent of the females, even though 
they are not fighting on the front lines. The war is very 
dangerous.
    The threat to the United States from returning foreign 
fighters is low. We have only seen so far one returnee who was 
plotting some kind of act of violence in the United States. The 
threat really in the United States is much more from people 
inspired by ISIS and we have seen in Texas and other cases 
where there were serious plots.
    Of course, the threat to the United States comes as the 
Ranking Member indicated from countries with a Visa Waiver 
Program. Making sure that that program works as successfully as 
possible, of course, is vital.
    The threat from returning fighters to Europe is much 
greater than it is in the United States. In fact, Paris speaks 
for itself. Few of the Western fighters who have traveled to 
Syria and Iraq are in government custody. One one-sixth of--in 
our data set are in government custody.
    The most popular route to Syria is through Turkey. We 
have--in the cases of militants, very few militants are going 
by any other route other than Turkey. We could find only one 
case of a fighter went via Lebanon.
    The majority are joining ISIS. Director Olsen mentioned al-
Qaeda, the Nusra front. We found only one-tenth of the foreign 
fighters are joining Nusra and only 6 percent are joining other 
jihadi groups.
    So in the brief time I have left, what can be done? I 
think, you know, reading this--the House report from 2015 which 
is obviously very thorough, I think the key recommendation is 
the fact that we simply don't know who these foreign fighters 
are. Creating a global database of exactly who the foreign 
fighters are is absolutely key. If we don't know who they are, 
how can we prevent them coming into this country or anywhere 
else?
    Interpol has a list of about 4,500 fighters, as Director 
Olsen pointed out, but 30,000 foreign fighters so we only know 
very small percentage of the people who have gone.
    We should also enlist defectors to tell the real story 
about ISIS. There is nothing more effective than a former 
member of ISIS explaining that ISIS is not creating utopia here 
in Earth but instead hell on Earth. Amplify voices such as the 
Syrian opposition group, Raqqah is Being Silently Slaughtered 
which is by far the most effective of the opposition groups in 
terms of the information coming out of Raqqah.
    Support the works of clerics such as Imam Mohamed Magid of 
Northern Virginia, who has personally dissuaded at least 5 
American citizens not to go to join ISIS. Nothing is more 
credible than a serious cleric explaining that ISIS is not an 
Islamic group.
    Keep up pressure on social media companies such as Twitter 
and ISIS to bring down material which is, after all, against 
their own terms of use. Earlier this year, Twitter quietly took 
down 2,000 accounts used by ISIS supporters, and we should 
continue to make sure these social media companies keep doing 
that.
    As General Keane indicated, you know, ISIS's main selling 
point is this victorious, and so if we can damage that claim 
significantly, and he has outlined a number of ideas about how 
to do that, the caliphate shrinks as a physical entity, it will 
also shrink as an entity that is appealing to people around the 
Muslim world.
    By the way, just one quick other thought. The Turks have 
actually done quite a good job on foreign fighters. Having been 
very lackadaisical initially, if you look at ISIS's own 
propaganda and since early 2015, the Turks are saying do not--
be aware that Turkish intelligence agents are not your friends 
and don't go across the border as you used to in the past. This 
is a whole new ballgame.
    So we are basically--encourage the Turks to continue doing 
the work that they are doing, help them with, you know, their 
border patrol people need more assets, I think that is the most 
important thing that can be done in terms of the Western 
foreign fighter flow to ISIS.
    [The prepared statement of Mr. Bergen follows:]
                   Prepared Statement of Peter Bergen
                           November 18, 2015
    This testimony is divided into six sections:
  <bullet> the first, who the Westerners being recruited by ISIS are;
  <bullet> the second, how they are being recruited;
  <bullet> the third, the threat to the United States by ISIS's 
        American recruits;
  <bullet> the fourth, the threat to the United States by ISIS's non-
        American recruits;
  <bullet> the fifth, how ISIS is expanding it reach;
  <bullet> the sixth, how to defeat ISIS: 12 action items.\1\
---------------------------------------------------------------------------
    \1\ Thanks to Courtney Schuster and David Sterman of New America 
for their help in preparing this testimony.
---------------------------------------------------------------------------
    On Friday November 13, France had its 9/11. At least 129 people 
were killed at multiple locations in Paris, including a concert hall, a 
soccer stadium and a popular restaurant, the kinds of venues that 
ordinary Parisians flock to on a Friday night. At, or near, these 
venues the attackers deployed a mix of terrorist tactics, including 
suicide attackers, an assault using more than one gunman willing to 
fight to the death, hostage-taking, and bombings.
    In the years after 9/11, we have seen various forms of this 
terrible news story play out: The multiple bombs on trains in Madrid 
that killed 191 in 2004, the 4 suicide bombings in London that killed 
52 commuters in 2005, and the 2008 attacks in Mumbai, India, by 10 
gunmen who killed 166. The attackers in Paris seemed to have learned 
lessons from all these attacks. (By the way, this is also the case of 
U.S. school shootings in which the perpetrators study the tactics of 
those who have gone before them.)
    French President Francois Hollande blames ISIS, for the attack, and 
the terror group has claimed responsibility. According to French 
prosecutors, one of the attackers who has been identified is a French 
national known to police, and a Syrian passport was found on one of the 
bodies of the other attackers. CNN reports that this militant was 
posing as a Syrian refugee. It is still early in the investigation, but 
already the Washington Post and New York Times report that French 
nationals who have been identified as among the perpetrators of the 
Paris attacks had traveled to Syria, while Reuters reports that the 
leader of the attacks is a Belgian citizen who also spent time in 
Syria.
    Until now, French citizen Mehdi Nemmouche was the only case of a 
Western fighter in Syria accused of returning to conduct a deadly 
terror attack--the May 24, 2014, shooting at the Jewish Museum in 
Brussels, Belgium, that left 4 people dead. Nemmouche had served time 
in a French prison, and he had an assault rifle when he was arrested in 
France. A French journalist held by ISIS reportedly has identified 
Nemmouche as one of the group's alleged torturers. Nemmouche has been 
extradited to Belgium, where he awaits trial.
    Returning militants from Syria are a worrying potential source of 
terror attacks. And two major factors place Europe at far greater risk 
of ``returnee'' violence from veterans of the Syrian conflict than is 
the case in the United States: The much larger number of European 
militants who have gone to fight in Syria and the existence of more 
developed jihadist networks in Europe.
    France has supplied more fighters to the Syrian conflict than any 
other Western country. In September, Prime Minister Manuel Valls told 
Parliament that 1,800 French citizens have been involved in jihadist 
networks world-wide--almost all of whom were drawn to the Syrian war. 
Nine months earlier, Interior Minister Bernard Cazeneuve estimated that 
185 militants had returned to France from Syria. Of those who had 
returned, he said 82 were in jail and 36 were under other forms of 
judicial control.
    German security services report that 720 Germans have left for 
Syria, and they estimate that 100 have been killed there, while another 
180 have returned to Germany. Last year, the Belgian Foreign Ministry 
released figures that up to 350 Belgians had left to fight in Syria. 
More than 700 British citizens have left for Syria, with about half 
estimated to have returned to the United Kingdom, according to British 
officials. In January, Australian Foreign Minister Julie Bishop placed 
the number of Australians fighting abroad at 180, with 20 having died 
in Syria.
    1. So who exactly are the estimated 4,500 Westerners who have been 
drawn to join ISIS and other militant groups in Syria? To provide some 
answers to that question, New America collected information about 466 
individuals from 25 Western countries who have been reported by 
credible news sources as having left their home countries to join ISIS 
or other Sunni jihadist groups in Syria or Iraq. The Western fighters 
drawn to Syria and Iraq represent a new demographic profile, quite 
different than that of other Western militants who fought in 
Afghanistan in the 1980s or Bosnia in the 1990s.
    First, women are represented in unprecedented numbers. One in 7 of 
the militants in New America's data set are women. Women were rarely, 
if at all, represented in previous jihadist conflicts. While Western 
women are not going to fight in the war in Syria, they are playing 
supporting roles, often marrying front-line fighters and sometimes 
working as a kind of police officer enforcing ISIS's draconian laws. 
They are women like Sally Jones, 44, from the United Kingdom, who took 
her 10-year-old son to Syria in 2013, and Emilie Konig, 31, one of the 
first women to leave for Syria, who left France and her 2 children 
behind in 2012 to join her husband there. The U.S. State Department 
says both women have encouraged terrorist attacks in their native 
countries, and it officially designated both of them terrorists in 
September.
    Second, the recruits are young. The average age of Western 
volunteers drawn to the Syrian jihad is 24. For female recruits, the 
average age is 21. Almost a fifth are teenagers, more than a third of 
whom are female. New America has documented an astonishing 80 cases of 
Western teenagers who have traveled to the war in Syria. More than a 
third of these teenagers are girls. Hans-Georg Maassen, the head of 
Germany's domestic security agency, said, for instance, in March that 9 
female German teens had left for Syria. That same month, ISIS released 
a video of a French boy shooting a Palestinian hostage in the forehead.
    Third, many have familial ties to jihadism. More than a quarter of 
Western fighters have a familial connection to jihad, whether through 
relatives who are also fighting in Syria and Iraq, through marriage or 
through some link to other jihads or terrorist attacks. For instance 
the father of British ISIS recruit Abdel-Majed Abdel Bary is Adel Abdel 
Bary, who was convicted in New York for his role in the 1998 U.S. 
embassy bombings in Kenya and Tanzania. Of those with a familial link, 
one-third are through marriage, many of them marriages between female 
recruits and male fighters conducted after they arrive in Syria. Three-
fifths of Western fighters with familial ties to jihad have a relative 
who has also left for Syria. For example, the Deghayes family in the 
United Kingdom had 3 sons, ages 16 to 20, fighting in Syria together.
    Fourth, the Americans drawn to the Syrian jihad--250 who have tried 
or have succeeded in getting to Syria--share the same profile as the 
Western fighters overall: Women are well-represented, and the 
volunteers are young, and many have family ties to jihad. One in 6 of 
the Americans drawn to the Syrian conflict are women. The average age 
of the American militants is 25, with a fifth still in their teens. 
Almost a fifth of the American militants have a familial connection to 
jihad. The American recruits are, perhaps unsurprisingly, particularly 
active on-line: Around 9 out of 10 American militants are active in on-
line jihadist circles.
    Fifth, for Western militants, the wars engulfing Syria and Iraq 
have often proved deadly. Almost half of the male fighters and 6% of 
the female recruits have been killed in Syria or Iraq.
    Sixth, few of the Western fighters who have traveled to Syria and 
Iraq are in government custody. Only one-fifth of Western fighters in 
New America's data set are in custody, and more than two-fifths of 
individuals are still at large. (As indicated above, around half the 
Western militants were killed in the conflicts in Syria or Iraq.)
    Seventh, the most popular route to Syria is through Turkey. Almost 
half of the Western foreign fighters made their way to Syria or Iraq 
via Turkey. Only one of the militants is documented as attempting to 
use an alternative route via Lebanon. For the rest of the Western 
militants, it's not clear from the public record how they arrived in 
Syria.
    Eighth, where an affiliation can be determined, the majority of the 
Western fighters have joined ISIS: Three-fifths have joined ISIS, while 
only a tenth have joined al-Qaeda's affiliate in Syria, known as al-
Nusra Front, and one-seventh have joined other smaller militant groups.
    2. How these Westerners are recruited: Propaganda and motivations. 
Who is inspiring these militants to give up their often-comfortable 
lives in the West for the rigors of the war zone in Syria? Based on 
court records and press reports, New America has identified several 
Western militants acting as on-line recruiters. Among them are a number 
of Americans. For instance, Abdi Nur, a 20-year-old from Minnesota, 
allegedly took on the role of on-line recruiter after leaving for Syria 
in the summer of 2014. A complaint filed in November that charged 6 
Minnesota men with trying to go to join ISIS accuses Nur of acting as 
an on-line recruiter and providing encouragement and advice to the men 
via Kik and other social media platforms from Syria. Another is Hoda 
Muthana, a 20-year-old American woman from Alabama, was identified by 
BuzzFeed as the individual behind the Twitter account Umm Jihad, which 
encouraged militants to leave for Syria.
    ISIS has disseminated 2 on-line guidebooks to encourage its Western 
recruits. In 2015, ISIS published its how-to guides Hijrah and ``How to 
Survive in the West.'' Hijrah provided potential fighters with detailed 
packing lists--advice on how to get to Turkey and dupe customs 
officials into issuing visas for the country; Twitter accounts of 
fighters living in Syria who can facilitate their travel; and even 
suggestions for recruits to assess their personality strengths and 
weaknesses before leaving home to prepare themselves better for jihad.
    ``How to Survive in the West'' is a guide on how to ``be a secret 
agent'' in a Western country, giving readers tips on the making of 
Molotov cocktails, bombs and cell phone detonators; hiding weapons in 
secret compartments of vehicles, in the same fashion as gangs; and how 
to identify and evade police surveillance, even suggesting that readers 
watch the Jason Bourne film series for tips on employing evasion 
tactics.
    What motivates many of these Western fighters to travel to a 
dangerous war zone with which most have no prior connection? A review 
of both ISIS propaganda and reporting on the individual cases in New 
America's data set suggests the answer is a mishmash of motivations 
that ISIS has picked up on as part of its recruiting strategy, 
including opposition to Syrian dictator Bashar al-Assad, religious 
invocations of the spiritual benefit of participating in jihad, the 
belief that religious duty requires living under ISIS's so-called 
caliphate, anger and alienation from Western society, and for some the 
``cool'' factor of participating in a war.
    Here are the rationales for joining ISIS that are provided by a 
couple of ISIS's alleged American recruits: Abdi Nur, the 20-year-old 
Minnesotan, tweeted: ``Jihad Is The Greatest Honor For Man So Come On 
And Join Dawla Ya Iqwa (you brothers of the Islamic State]).'' Nur 
later explained to his sister: ``If I didn't care I wouldn't have left 
but I want jannah (paradise) for all of us.'' Authorities say Chicago 
teen Hamzah Khan left a letter for his parents before attempting to 
travel to Syria in 2014, explaining that ``there is an obligation to 
`migrate' to the `Islamic State.' '' He was charged with material 
support of ISIS and has pleaded not guilty.
    3. Threat to the United States by ISIS's American recruits. Four 
years into the Syrian civil war, little evidence has emerged to support 
the notion that returning fighters from Syria pose a great threat to 
the United States. In the United States, there has only been one case 
of a fighter returning from Syria and allegedly plotting an attack. 
Abdirahman Sheik Mohamud, 22, of Columbus, Ohio, left for Syria in 
April 2014 and fought there before returning home around 2 months 
later. The government alleges that a cleric in Syria told Mohamud that 
he should return to the United States to conduct an act of terrorism 
and that he discussed some kind of plan (with an informant) to kill 
American soldiers at a military base in Texas. He has pleaded not 
guilty to a charge of providing material support to a terrorist group.
    Speaking at the Council on Foreign Relations in March, Director of 
National Intelligence James Clapper said that about 40 individuals had 
returned from Syria. ``We have since found they went for humanitarian 
purposes or some other reason that don't relate to plotting,'' he said.
    We identified 23 Americans who actually reached Syria, 46 
individuals who attempted or plotted to travel to Syria but were 
unsuccessful in doing so, and 14 who provided support to others 
fighting or seeking to fight in Syria.
    Instead of being a launch pad for attacks at home, Syria turned out 
to be a graveyard for the few Americans who made it to the war zone. Of 
the 23 individuals who reached Syria, 9 died there. For instance, 
Floridian Moner Abu Salha died conducting a suicide bombing in northern 
Syria last year, and Douglas McAuthur McCain was killed fighting for 
ISIS. Nine of the Americans who reached Syria remain at large, while 5 
American fighters who returned to the United States from Syria were 
taken into custody.
    Rather than being an easy target for ISIS recruits, the United 
States benefits from a series of layered defenses that make returning 
and plotting a sophisticated attack undetected quite difficult. It 
takes more than a plane ticket for a returning fighter to conduct a 
sophisticated attack: They also have to gather arms, conduct 
surveillance, and carry out the attack undetected. This is difficult as 
Muslim communities have often reported suspicious activity and law 
enforcement has instituted an aggressive effort using informants and 
other investigative tools to prevent such an occurrence. According to 
New America's data, Muslim communities and family members have provided 
tips in 28 percent of the 330 jihadist terrorism-related cases since 9/
11, and in about 8 percent of cases, other individuals have reported 
suspicious activity. Almost half of the 330 individuals accused of 
jihadist terrorism-related crimes since 9/11 have been monitored by an 
informant.\2\ Even in the case of Moner Abu Salha, which is certainly 
not a success story given his return undetected to the United States 
after training with the al-Qaeda affiliate in Syria, when he started to 
try to recruit Americans to go to Syria, a tip put him on the 
government's radar.\3\
---------------------------------------------------------------------------
    \2\ ``Homegrown Extremism 2001-2015.'' New America. http://
securitydata.newamerica.net/extremists/analysis.
    \3\ Sterman, David. ``The Traveling Terrorism Fallacy.'' Weekly 
Wonk. 9/4/2014. http://weeklywonk.newamerica.net/articles/traveling-
terrorism-fallacy/.
---------------------------------------------------------------------------
    In assessing the threat posed by returning American fighters, it is 
worth putting the current Syrian conflict into historical perspective. 
The historical comparison most people are aware of is the Afghan war 
against the Soviets and the ensuring civil war, which helped launch 
Osama bin Laden's al-Qaeda. Though an important cautionary tale, much 
has changed since then that makes it a weak comparison for how 
``blowback'' from Syria might affect the United States.\4\ For example, 
on 9/11, there were 16 people on the U.S. ``No-Fly'' list. Today, there 
are more than 48,000 people. In 2001, there were 32 Joint Terrorism 
Task Force ``fusion centers,'' where multiple law enforcement agencies 
work together to chase down leads and build terrorism cases. Now there 
are 104 centers.\5\ A decade ago, the U.S. Department of Homeland 
Security, National Counterterrorism Center, Transportation Security 
Administration, Northern Command, and Cyber Command didn't exist. In 
2014, all of these new post-9/11 institutions make it much harder for 
terrorists to operate in the United States. The U.S. intelligence 
budget also grew dramatically after 9/11, with Congress giving the 
Government substantial resources with which to improve its 
counterterrorism capabilities. In 2013, the United States allocated $72 
billion to intelligence collection and other covert activities.\6\ 
Before 9/11, the budget was around one-third of that figure: $26 
billion.
---------------------------------------------------------------------------
    \4\ The section below is drawn from Peter Bergen et al. ``2014 
Jihadist Terrorism and Other Conventional Threats,'' Bipartisan Policy 
Center, September 2014.
    \5\ Federal Bureau of Investigation. ``Protecting America from 
Terrorist Attack: Our Joint Terrorism Task Forces.'' Federal Bureau of 
Investigation. Accessed August 5, 2013. http://www.fbi.gov/about-us/
investigate/terrorism/terrorism_jttfs.
    \6\ Intelligence Resource Program. ``Intelligence Budget Data.'' 
Federation of American Scientists. Accessed August 25, 2014. http://
fas.org/irp/budget/.
---------------------------------------------------------------------------
    Perhaps of most relevance to the issue of returning fighters is 
that prior to 9/11, the U.S. law enforcement community demonstrated 
little interest in investigating or prosecuting individuals who 
traveled abroad to fight in an overseas jihad. Today, the U.S. 
Government considers such persons to be a serious concern and tracks 
their activities.
    A post-9/11 American fighter flow to jihadist groups abroad that 
sparked fears but turned out not to be a real threat to the United 
States was al-Shabaab's recruitment of American fighters to wage war in 
Somalia. According to a review by New America, no American fighter who 
fought in the conflict in Somalia returned to plot an attack in the 
United States. Instead, about one-third of the individuals known to 
have traveled to fight in Somalia died there, either as suicide bombers 
or on the battlefield, while others were taken into custody upon their 
return.\7\
---------------------------------------------------------------------------
    \7\ Bergen, Peter and David Sterman. ``ISIS Threat to U.S. Mostly 
Hype.'' CNN. 9/5/2014. http://edition.cnn.com/2014/09/05/opinion/
bergen-sterman-isis-threat-hype/.
---------------------------------------------------------------------------
    There are, however, worrisome cases of returning militants to the 
United States since 9/11 that attempted serious attacks. The United 
States' experience with Americans fighting or training in Afghanistan 
and Pakistan provides an illustration of what a more serious returnee 
threat might look like. Najibullah Zazi, Adis Medunjanin, and Zarein 
Ahmedzay, who all grew up in New York City, traveled to Pakistan, where 
they ended up receiving training from al-Qaeda, and were sent back to 
the United States where they were part of a serious plot to bomb the 
New York City subway in the fall of 2009. On May 1, 2010, Connecticut-
based Faisal Shahzad, who was trained in bomb-making techniques in 
Pakistan by the Pakistani Taliban, left a car bomb undetected in New 
York City's Times Square that failed to properly explode.
    Acts of violence by Americans inspired by, but with no direct 
connection to the terrorist groups in Syria, pose a more immediate 
challenge than attacks by returning fighters from Syria. As FBI 
Director James Comey noted in September 2014 while referring to the 
December 2013 arrest of Terry Loewen, who was accused of plotting an 
attack on Wichita Airport in Kansas after being radicalized on-line: 
``We have made it so hard for people to get into this country, bad 
guys, but they can enter as a photon and radicalize somebody in 
Wichita, Kansas.'' At the time, Comey also noted that ISIS lacked the 
capability for a sophisticated attack in the United States.\8\
---------------------------------------------------------------------------
    \8\ Kendall, Brent and Jay Solomon. ``FBI Cites Online Terror 
Recruiting, Training, Damps Subway-Plot Claim.'' Wall Street Journal. 
9/25/2014. http://www.wsj.com/articles/fbi-director-cites-online-
terror-recruiting-training-damps-subway-plot-claim-1411688762.
---------------------------------------------------------------------------
    On May 3, 2015, the United States saw its first actual attack 
inspired by ISIS along the lines of similar ISIS-inspired attacks in 
Ottawa, Copenhagen, and Paris. Two men were killed by police after 
opening fire at a contest to draw cartoons of the Prophet Mohammed in 
Garland, Texas, organized by the American Freedom Defense Initiative. 
The event featured right-wing Dutch politician Geert Wilders, who had 
been named on an al-Qaeda hit list. One of shooters, Elton Simpson, had 
previously been convicted of making a false statement to the FBI 
regarding plans to travel to Somalia. Before conducting the attack 
Simpson tweeted his allegiance to ISIS.\9\ Simpson, a 30-year-old 
resident of Phoenix, Arizona, who was born in Illinois and converted to 
Islam during his youth, was joined in the attack by his roommate Nadir 
Soofi, a 34-year-old who was born in Garland.
---------------------------------------------------------------------------
    \9\ Ahmed, Saeed, Ed Lavendera, and Joe Sutton. ``Garland, Texas, 
shooting suspect linked himself to ISIS in tweets'' CNN. 5/4/2015. 
http://www.cnn.com/2015/05/04/us/garland-mohammed-drawing-contest-
shooting/.
---------------------------------------------------------------------------
    The shooting in Texas is not a lone case. While the United States 
has seen only one possible case of a domestic attack plot by a returned 
fighter from Syria, it has seen a number of alleged Syria-related plots 
to conduct violence that were inspired by the propaganda put out by 
ISIS. For instance, in March, the United States unsealed charges 
against Hasan Edmonds, a 22-year-old member of the National Guard, and 
his cousin Jonas Edmonds, alleging that Hasan Edmonds had sought to 
travel to fight with ISIS and that they had plotted to have Jonas 
Edmonds conduct an attack against a military facility. The plot was 
monitored by an undercover officer.\10\ They have pleaded not guilty. 
In April, the United States charged John T. Booker and Alexander Blair 
with an alleged plot to bomb Fort Riley, in Kansas, in support of 
ISIS.\11\ The two men were monitored by an informant. They have pleaded 
not guilty. The same month, the United States charged two New York City 
women, Noelle Velentzas and Asia Siddiqui, in relation to a domestic 
attack plot in support of ISIS. The two women were monitored by an 
undercover officer. According to the complaint, Siddiqui had regular 
contact with members of al-Qaeda in the Arabian Peninsula. When FBI 
agents arrested Velentzas and Siddiqui in Queens, they seized propane 
tanks, soldering tools, a pressure cooker, fertilizer, and bomb-making 
instructions.\12\
---------------------------------------------------------------------------
    \10\ ``US Army National Guard Soldier and his Cousin Arrested for 
Conspiring to Support Terrorism (ISIL).'' Department of Justice. 3/26/
15. http://www.justice.gov/opa/pr/us-army-national-guard-soldier-and-
his-cousin-arrested-conspiring-support-terrorism-isil.
    \11\ ``Second Topeka Man Charged in Connection with Car Bomb 
Plot.'' U.S. Attorney's Office. 4/10/15. http://www.fbi.gov/kansascity/
press-releases/2015/second-topeka-man-charged-in-connection-with-car-
bomb-plot; Criminal Complaint, United States v. Blair, No. 15-mj-5040-
KGS (D. Kansas, Apr. 10, 2015).
    \12\ ``Two Queens Residents Charged with Conspiracy to Use a Weapon 
of Mass Destruction.'' U.S. Attorney's Office. 4/2/15. http://
www.fbi.gov/newyork/press-releases/2015/two-queens-residents-charged-
with-conspiracy-to-use-a-weapon-of-mass-destruction; Letter to Judge 
Pohorelsky at 2, United States v. Velentzas, No. 1:15-mj-00303-VVP 
(E.D.N.Y., Apr. 1, 2015); Complaint and Affidavit in Support of Arrest 
Warrant at 3, United States v. Velentzas, No. 1:15-mj-00303-VVP 
(E.D.N.Y., Apr. 1, 2015).
---------------------------------------------------------------------------
    4. Threats to the United States by non-American ISIS recruits. Many 
fighters from countries other than the United States have traveled to 
fight in Syria and could pose a potential threat to the United States. 
So far we have not seen a case of a foreign fighter from another 
country traveling to the United States to conduct an attack. However, 
the large number of foreign fighters traveling to fight in Syria from 
other countries magnifies the potential threat of an infiltration 
attack, especially given the high numbers of foreign fighters from 
countries that enjoy the Visa Waiver Program with the United States, 
such as Australia, Belgium, France, Germany, the Netherlands, and the 
United Kingdom.
    Tracking the many foreign fighters from Western countries who have 
gone to Syria and who have returned to the West poses a greater 
challenge, given their larger numbers, than tracking the handful of 
returning American fighters. With the large numbers of Europeans 
traveling to fight in Syria, nations such as France and Germany are 
reporting significant strain on their ability to monitor returnees 
effectively. In December, Germany's federal prosecutor general, Harald 
Range, said of the number of terrorism cases being prosecuted in his 
country, ``We are at the limits of our capacity,'' adding that new 
cases kept emerging. ``What worries me is the speed with which people 
are radicalizing, or being radicalized. We are facing a phenomenon 
which needs a broad strategy of prevention.''
    Each French individual placed under surveillance requires 25 agents 
to maintain round-the-clock monitoring, and the strain on resources 
produced by ever-increasing numbers of militants who need to be 
monitored was in part behind the failure to maintain surveillance of 
the Kouachi brothers, who conducted the attack on the Charlie Hebdo 
magazine in Paris earlier this year. It would take many thousands of 
agents to monitor each of the more than a 1,000 Frenchmen reportedly 
involved in the Syrian war, and France simply doesn't have that kind of 
manpower. The fact that a French prosecutor says that one of the Paris 
attackers on November 13 was a French national who was known to police 
is an indicator of how difficult tracking all of these militants has 
proven to be.
    5. ISIS expands it reach. ISIS controls territory in Syria and Iraq 
that by some estimates is the size of the United Kingdom, and it lords 
over millions of people in both countries. The group has also secured 
pledges of allegiance from 2 dozen militant organizations from around 
the Muslim world, including in the Sinai and Egypt's neighbor Libya, 
while around 10 other groups have declared some form of solidarity with 
ISIS. The key to ISIS's success is not the group's military strength--
ISIS in Syria and Iraq may number only about 20,000 to 30,000 
fighters--but the weaknesses of the regimes where the group is doing 
well.
    Think of the Sunni militant group ISIS as a pathogen that preys on 
weak hosts in the Muslim world. In fact, there something of a law: The 
weaker a Muslim state the stronger will be the presence of ISIS or 
like-minded groups.
    In 2014 ISIS seized huge swaths of Iraq, exploiting the fact that 
the country had been in a civil war for more than a decade and the 
Iraqi government had pursued a policy of excluding Sunnis from power. 
ISIS is one of the most powerful players in Syria because the country 
has been embroiled in a civil war since 2011 and the regime of Bashar 
al-Assad has imposed a reign of terror on its Sunni population, 
including the use of chemical weapons and wide-spread torture. For the 
moment, ISIS and the countries allied against it, including the United 
States, have come to something of a stalemate in Iraq and Syria.
    ISIS also has a significant foothold in Libya because the country 
is embroiled in a civil war, which was instigated by the U.S.-led 
overthrow of Libyan dictator Moammar Gadhafi 4 years ago. (This move 
may turn out to be the most significant foreign policy blunder of the 
Obama administration, as there was no serious American plan for what 
would follow Gadhafi--the same negligence that had characterized George 
W. Bush's overthrow of Iraqi dictator Saddam Hussein.) ISIS is growing 
in Egypt because a military dictator who seized power in a coup leads 
the country, and he has brutally quashed all forms of dissent, 
including criminalizing the Muslim Brotherhood, which has many millions 
of members in Egypt and had formed the previous government. It's 
fertile soil for ISIS, which had done particularly well in the Sinai, 
leading an insurgency there that has killed hundreds.
    When ISIS first gained significant ground in Iraq and Syria in 
2014, it focused almost entirely on its actions there and encouraged 
its overseas followers to join the jihad. Writing in the third issue of 
Dabiq, its English-language on-line magazine, an ISIS writer asserted, 
``This life of jihad is not possible until you pack and move to the 
Khilafah,'' meaning to leave your home and travel to ISIS's areas of 
control in Iraq and Syria.
    In the past weeks, ISIS has shifted its strategy, attacking on a 
large scale outside of Iraq and Syria. The group claimed responsibility 
for the downing of the Russian Metrojet carrying 224 passengers and 
crew on October 31 in the Sinai in Egypt. Although the investigation of 
the crash has not been completed, there is little reason to discount 
this claim. On November 12 ISIS suicide bombers killed 43 in a Shia-
dominated area of Beirut, the worst bombing since the Lebanese civil 
war ended in 1990. The very next day the team of ISIS militants 
attacked at multiple locations in Paris.
    At the same time, the U.S.-led coalition has scored two important 
tactical victories against ISIS. The first is the reported 
assassination of ``Jihadi John,'' the notorious British terrorist who 
starred in many of ISIS's beheading videos. U.S. officials now say they 
are ``reasonably certain'' that he was killed in a drone strike. An 
investigation by the Washington Post found that he was Mohammed Emwazi, 
Kuwait-born and London-raised. Jihadi John's death would mean justice 
for the man who presided over ISIS's most notorious kidnappings and 
murders, which included 4 Americans, 2 British citizens, and 2 Japanese 
hostages. It would also show that more than a year after the murder of 
American journalist James Foley----the first of Jihadi John's Western 
victims to appear in an ISIS video--U.S. intelligence is finally 
developing quite reliable intelligence inside Raqqa, ISIS's de facto 
capital in Syria, where Jihadi John was targeted in the American drone 
strike. However, there is no evidence suggesting that Jihadi John was 
an important spiritual leader of the group, as ISIS leader Abu Bakr al-
Baghdadi is, nor is there any evidence that he played any kind of 
important military role for ISIS. Therefore, while Jihadi John's death 
would surely be a psychological victory in the war against ISIS, it is 
nothing more than that.
    The second tactical victory against ISIS will likely have far 
greater significance: It is the seizure last week of the town of Sinjar 
in Iraq by Kurdish forces. Sinjar sits along the road that connects 
Raqqa with ISIS's de facto capital in Iraq, the city of Mosul. The 
seizure of Sinjar will help put pressure on ISIS in both Mosul and 
Raqqa, as ISIS forces in these cities can no longer easily reinforce 
each other.
    Neither of these tactical victories are, however, strategic 
victories such as would be the capture of Raqqa or of Mosul or of the 
other significant Iraqi city held by ISIS, Ramadi. President Obama told 
ABC News last week that ISIS is ``contained'' and has not gained ground 
in Iraq or Syria, and there has also been progress in stemming the flow 
of foreign recruits trying to join the group. The President 
acknowledged that the coalition hasn't been able to ``completely 
decapitate'' ISIS's leadership.
    Does this mean that the coalition against ISIS is locked in a 
stalemate with the terrorist army, or has the momentum of the military 
campaign started to shift against ISIS? In September, Gen. Martin 
Dempsey, the outgoing chairman of the Joint Chiefs of Staff, said that 
the war against ISIS was ``tactically stalemated.'' Indeed, during this 
past year ISIS has retreated from the town of Kobani on the Syrian-
Turkish border and it also lost the Iraqi city of Tikrit. Despite these 
losses, ISIS during the same time period captured the city of Ramadi in 
western Iraq as well as the town of Palmyra in Syria.
    As the President noted, the stream of ``foreign fighters'' from 
around the Muslim world, which has consistently replenished ISIS's 
ranks, has been somewhat reduced. An estimated 30,000 foreign fighter 
volunteers have joined ISIS, averaging about 1,000 a month. Turkey, 
which had long been criticized by Western countries for allowing 
foreign fighters to move through its territory on their way to Syria, 
has started to clamp down on that traffic into Syria. Those efforts by 
the Turks are paying off, according to ISIS itself. In early 2015, ISIS 
posted advice in one of its English-language on-line publications to 
would-be foreign fighters, saying, ``It is important to know that the 
Turkish intelligence agencies are in no way friends of the Islamic 
State [ISIS].'' Also, some 40 countries have also introduced new laws 
to prevent the recruitment of fighters to ISIS or have launched 
criminal investigations of militants who have joined the group. These 
developments are surely having some effect on ISIS's ability to recruit 
foreign fighters to its ranks.
    Although it has not enjoyed any of the kind of success that ISIS 
has, al-Qaeda is also benefiting from the crisis of governance that has 
gripped much of the Middle East since the Arab Spring in 2011. The 
civil war in Yemen precipitated by the Arab Spring has boosted al-Qaeda 
in the Arabian Peninsula, which is expanding its operations in southern 
Yemen. Al-Qaeda is also enjoying something of a comeback in the place 
from which it launched the 9/11 strikes: Southern Afghanistan. Earlier 
this month U.S. and Afghan forces in Kandahar province destroyed 
``probably the largest'' al-Qaeda training camp discovered during the 
14-year Afghan War, according to Gen. John Campbell, the U.S. commander 
in Afghanistan.
6. How to Defeat ISIS: Twelve Action Items
    1. Enlist defectors from ISIS to tell their stories publicly. 
        Nothing is more powerful than hearing from former members of 
        the group that ISIS is not creating an Islamist utopia in the 
        areas it controls, but a hell on earth. The flow of ``foreign 
        fighters'' to ISIS from around the Muslim world is estimated to 
        be about 1,000 a month. Reducing that flow is a key to reducing 
        ISIS manpower.
    2. Amplify voices such as that of the ISIS opposition group Raqqa 
        is Being Slaughtered Silently, which routinely posts photos on-
        line of bread lines in Raqqa, the de facto capital of ISIS in 
        northern Syria, and writes about electricity shortages in the 
        city. This will help to undercut ISIS propaganda that it is a 
        truly functioning state.
    3. Amplify the work of former jihadists like the Canadian Mubin 
        Shaikh, who intervenes directly with young people on-line who 
        he sees are being recruited virtually by ISIS.
    4. Support the work of clerics such as Imam Mohamed Magid of 
        Northern Virginia, who has personally convinced a number of 
        American Muslims seduced by ISIS that what the group is doing 
        is against Islam.
    5. Keep up pressure on social media companies such as Twitter to 
        enforce their own Terms of Use to take down any ISIS material 
        that encourages violence. Earlier this year, Twitter quietly 
        took down 2,000 accounts used by ISIS supporters, but the group 
        continues to use Twitter and other social media platforms to 
        propagate its message.
    6. Keep up the military campaign against ISIS. The less the ISIS 
        ``caliphate'' exists as a physical entity, the less the group 
        can claim it is the ``Islamic State'' that it purports to be. 
        That should involve more U.S. Special Forces on the ground 
        embedded with Iraqi and other coalition forces and more U.S. 
        forward air controllers calling in close air support strikes 
        for those forces.
    7. Applaud the work that the Turks have already done to tamp down 
        the foreign fighter flow through their country to ISIS in 
        neighboring Syria, and get them to do more.
    8. Provide ``off ramps'' to young ISIS recruits with no history of 
        violence, so that instead of serving long prison terms for 
        attempting to join ISIS--as they presently do in the United 
        States--they would instead serve long periods of supervised 
        probation. This will help families that presently face a hard 
        choice: If they suspect a young family member is radicalizing 
        and they go to the FBI, that person can end up in prison for up 
        to 15 years on charges of attempting to support ISIS; but if 
        they don't go to the authorities and their child ends up 
        traveling to Syria, he or she may well end up being killed 
        there. Providing off-ramps would offer families a way out of 
        this almost impossible choice.
    9. Educate Muslim-American parents about the seductive messages 
        that ISIS is propagating on-line.
    10. Relentlessly hammer home the message that ISIS positions itself 
        as the defender of Muslims, but its victims are overwhelmingly 
        fellow Muslims.
    11. Build a database of all the foreign fighters who have gone to 
        Syria to fight for ISIS and Nusra. This is one of the 
        recommendations of the House Homeland Security Committee's 
        September 2015 report on foreign fighters in Syria and it is a 
        very good one. How can you prevent an attack by returning 
        foreign fighters if you are not cognizant of their names and 
        links to ISIS? Right now INTERPOL has a list of some 5,000 
        foreign fighters, but that is simply dwarfed by the estimated 
        30,000 foreign fighters who have gone to fight in Syria.
    12. Stay in Afghanistan beyond 2016. One only has to look at the 
        debacle that has unfolded in Iraq after the withdrawal of U.S. 
        troops at the end of 2011 to have a preview of what could take 
        place in an Afghanistan without some kind of residual American 
        presence. Without American forces in the country, there is a 
        strong possibility Afghanistan could host a reinvigorated 
        Taliban allied to a reinvigorated al-Qaeda--not to mention 
        ISIS, which is also gaining a foothold in the region. This U.S. 
        military presence in Afghanistan doesn't have to be large, nor 
        does it need to play a combat role, but U.S. troops should 
        remain in Afghanistan to advise the Afghan army and provide 
        intelligence support past 2016.

    Chairman McCaul. Thank you, Mr. Bergen.
    Chair now recognizes himself for 5 minutes for questions.
    This was a foreign fighter event, the Paris attacks. ISIS 
now has demonstrated great capability beyond the caliphate. 
Before they were focused on the caliphate itself, now we have 
seen three external operations in just a matter of weeks. To 
me, it is very disturbing.
    The mastermind of the Paris attacks, Mr. Abaaoud, recently 
bragged about traveling to and from the conflict zone without 
getting caught. Recently he is quoted in Dabiq magazine, which 
is the ISIS publication, basically saying, ``I was able to 
leave and come despite being chased after--by so many 
intelligence agencies. My name and picture are all over the 
news, yet I was able to stay in their homeland, plan operations 
against them, and leave safely when doing so became 
necessary.''
    ISIS is blatantly seeking to exploit security gaps into the 
West. They are also looking at refugee routes as a pathway for 
the jihadists. In fact, ISIS in their own words stated that 
they will exploit the refugee process to infiltrate the West. 
Indeed, one of the Paris attackers, if not two, we now have 
found were exploiting the refugee process to get into Paris to 
perpetrate the devastating attacks.
    FBI Director Comey recently testified before my committee, 
basically saying that we can query our databases until the cows 
come home, but nothing will show up because we have no record 
of them.
    Yesterday, I introduced a bill that will put the brakes on 
this Syrian refugee program until the FBI director, the DNI, 
and Secretary of Homeland Security can demonstrate to us that 
these individuals can be properly vetted and that they do not 
pose a threat to this country.
    My question, first Mr. Olsen, we are a compassionate Nation 
but we also need to protect the lives of Americans. Do you 
agree that before any Syrian refugees are brought into this 
country that Congress and the American people must be assured 
that, first, they can be properly vetted, and, second, do not 
pose a National security risk to the United States?
    Mr. Olsen. Mr. Chairman, certainly, that proposition is 
accurate and true and I agree with it. In other words, the 
vetting process that is in place for any individual coming here 
through the refugee program needs to be as stringent as 
possible and all possible assurances need to be in place that 
the person doesn't pose a threat.
    I think the longer answer to your question, Mr. Chairman, 
is that any process is going to bear some--is going to include 
some risk. So it is impossible to eliminate all risk for every 
single person coming into this country; that is a fact of any 
process like this. But the process that is in place for these 
refugees is quite extensive and as you pointed out earlier 
during the opening statements, involves multiple layers.
    Chairman McCaul. Well, you know, in the briefings we have 
had, we have--if you don't have information on the individuals 
it is very--and you don't know who they are it is difficult to 
vet them. I think we would like better assurances.
    General Keane, do you have any thoughts on that?
    General Keane. I don't know how the United States of 
America can possibly say no to people who are pouring out of 
that country, given the horror of what has taken place and 
given our contribution to that horror, frankly. When we had 
significant opportunities to create some huge momentum against 
the Assad regime and for 4-plus years, he has been marauding 
over that population, killing 250,000, creating 11 million 
displaced. Some of those, obviously, have the opportunity to 
come here.
    I am absolutely convinced that you are doing the right 
thing by pausing and making certain that the Congress takes a 
look at the Executive branch's plans and make certain that 
there is some--it is reasonable what we are doing in terms of 
the vetting process.
    We have had 3 million people come here since the 1970s. We 
have had a million come here since 9/11, all seeking political 
asylum. This is who we are. We can manage this thing. Listen, 
some of the voices that are out there about this, are playing 
right into ISIS's hands.
    When we talk about, let's only take Christians. I mean, 
that is a horrific statement. That is playing right into--this 
is what ISIS wants. ISIS wants fragmentation between Muslims 
and non-Muslims. We have--that is an irresponsible statement to 
make. We are a country with Muslims in it.
    Why wouldn't we welcome Muslims and others from around the 
world like we have always done who are being persecuted? We 
didn't care about their religion or their nationality. What we 
cared about is they were humans running from suffering and 
death. There was a home for people like that in America.
    Come on. This is America. I mean, we can do this right. We 
are smart enough to figure out how to bring thousands of people 
into this country and make sure they are not going to hurt us. 
Anyway.
    Chairman McCaul. Well, yes. We will continue to have this 
refugee crisis until the root problem is resolved. That is the 
conflict in Syria. What are your thoughts, General, on the 
Article V invocation potential with France, whether--what the 
role of NATO could be with respect to Syria? Now with Russia, 
in the region, further complicating the issue, how do you see 
the path forward?
    General Keane. You asked that of me, Chairman?
    Chairman McCaul. Yes, sir.
    General Keane. Okay. I think the NATO issue is largely 
France's decision. I don't think we should have an advocacy for 
it except to support if they make the case for it.
    I mean, clearly, what we have looked at terrorism in the 
past and particularly in NATO countries in Europe, it has grown 
out of their own countries by their own citizens largely.
    What makes this different is that there is the Islamic 
State which is motivating, inspiring, and in this particular 
case as Dr. Olsen said, may in fact, have been directing it. 
That does change it I believe, in terms of Article V. They 
certainly have the right to invoke it.
    I don't expect much from the Europeans to be quite frank 
about this. I mean I think the Europeans have lost national 
will. Even the fight for themselves, much less for somebody 
else. I think the French will stand up and do what they need to 
do.
    Just our British friends for example. Just think about 
this. The Islamic State has declared itself and it is--the 
border between Syria and Iraq does not exist anymore and the 
Brits are attacking in Iraq but not attacking in Syria. I mean, 
what an absurdity that is. Not going after the enemy that has 
declared itself the Islamic State.
    I am not hopeful that NATO will do much of anything here, 
frankly.
    Chairman McCaul. Right. Quick question I have and a short 
answer. The administration seems to be taking its eye off the 
ball in Syria. Now we are in a mess right now. To what extent 
do you think the Iran negotiations had any influence on our 
inability to deal with Assad and the Syrian situation?
    General Keane. I think they have everything to do with 
perpetuating the civil war in Syria. I think it has always been 
the elephant in the room. One of the many of the moderate 
rebels came here in 2011. That is when they began, when the war 
began.
    They were seeking assistance and the administration was 
saying no. They have met, probably some of you. I mean, they 
even met with me. That is how desperate they were.
    Then in 2012, remember this. Clinton, Panetta, Petraeus, 
and Dempsey recommended to the administration, that we need to 
arm the Syrian moderate rebels robustly and train them. The 
President said no. That is a competent security team making 
that recommendation in my judgment.
    In 2013 as a result of crossing the chemical line, the 
chemical red line, we did not take the action which we--if we 
had taken it, we would have shut down Assad's airpower. What do 
we get for that?
    Syria still has chemical production capabilities. Syria 
still has chemical weapons. There is literally nothing on the 
scale that they did have, but we said, they would never get rid 
of all of that. I believe those decisions were largely driven 
by the Iranian nuclear deal that we did not want to disrupt it.
    It is still driving our policy in the Middle East. It is 
that decision that has lost the--our allies' confidence in the 
region in us. To this day, they are not convinced. Even right 
now, as we are speaking, they are not convinced that the United 
States of America is serious about going after ISIS. That is 
out of their mouths.
    That is what they believe. That we are not serious. What 
they have seen is the intensity of the U.S. effort for 3 years 
has been about trying to establish a strategic alliance with 
Iran. The vehicle to do that is a nuclear disarmament, a 
nuclear weapons deal.
    The price that has caused us is pretty significant.
    Chairman McCaul. Thank you, General.
    Chair recognizes Chairman Royce.
    Chairman Royce. But, General, I think there is another 
casualty in terms of that deference that the administration is 
given. Not just to Iran, but to the Shia-led government in 
Baghdad that is so heavily influenced by Iran.
    One of the great conundrums here has been our failure to 
arm our allies and whether that is the Sunni tribal leaders who 
meet with us and ask for that support from us. Or whether it is 
the Kurdish leaders, who had an opportunity, on 650-mile front, 
30 percent of their battalions are female as you know, fighting 
against ISIS.
    We have had their foreign minister here 3 times to request 
some modicum of ammunition and weaponry that would allow them 
in this face-off against ISIS, to have the advantage. Whether 
it's artillery, long-range mortars, and high-tech weapons.
    You have got women out there on the line in these Peshmerga 
units. You have got young Yazidis, without weapons, young men. 
We had a Yazidi girl testify before our committee that she was 
taken in combat. All the men were killed. They didn't have 
weapons. She said, why can't you arm some of the Kurds, some of 
the Yazidi men?
    She said she herself was taken captive and sold to an 
American who was recruited. He sold her 4 years ago to ISIS. He 
thought ISIS was invincible. He was watching ISIS on the 
internet. He was converted to ISIS's philosophy. He came there 
and now he subjects her as a Yazidi because he tells her, you 
are an apostate. It is my responsibility under my code to have 
you submit to me.
    So this is the life they are living in, in a situation 
where, as I said before, you went 12 full months while ISIS was 
on the march without the United States using that airpower. Now 
as the pilots come back to talk to us, they say, three-quarters 
of our ordinance.
    We can't drop. We can't get clearance, even when we have a 
clear target in front of us. I did not understand this strategy 
this all. Because this is what has allowed ISIS the advantage 
and the ability to recruit. So I wanted to ask you about that 
subject. Arming the Sunni tribesmen, giving the Kurds the 
ability, on the ground, they have 180,000 Peshmerga forces. 
They are good fighters.
    General Keane. Yes. Well, I obviously have strong feelings 
about all of that. It was in my statement. But, I mean, here is 
what was so fundamentally flawed in the strategy. I think the 
President's decision and his National security team, to work 
through local, indigenous forces in Iraq and what is in Syria, 
as the main ground force to go after ISIS and take their 
caliphate in Iraq and Syria away from them, is sound.
    That is a sound strategy. Most of us do not want U.S. 
combat brigades taking on that role.
    Chairman Royce. Then why not arm them and why not give them 
the effective air support?
    General Keane. That is what I am trying to answer. So, if 
you believe that is the strategy and you are trying to avoid 
the very thing that you don't want to do and that is eventually 
have to commit U.S. combat brigades. That is what you don't 
want do.
    But yet you know you have got to defeat ISIS for the sake 
of the American people and our interest, then why are we not 
all-in on supporting that weak hand that--we know they have a 
weak hand. We have got to strengthen that hand. Whatever it 
takes to strengthen that hand should have been the policy.
    In other words, all the equipment it takes and the best 
equipment that we can have to support them. All the weapons and 
ammunitions they need. Not 300 trainers, thousands of trainers 
to get the output you want. So we get not a few hundred 
trained, but tens of thousands trained is what we need as an 
effective ground force to deal with these guys.
    Certainly the whole bureaucratic nonsense of taking care of 
the Kurds and buying into this business of, well, you are going 
to have to pass it all through the Baghdad government. Just 
muscle the Baghdad government to get out of the way. That is 
what we should have done.
    The Iranians muscle them everyday and we certainly should 
have done that. Now, I have talked to two Kurdish officials 
recently. One, KDP and one PUK, all within the last 10 days, 
and there has been some improvement in this area. But believe 
me, it is still not where it should be.
    That is your point. The other thing is on the airpower. 
This has been an absurdity from the beginning. The President 
personally made a statement that has driven airpower from the 
inception. When we agreed that we were going to do airpower and 
the military said, this is how it would work, he said, no, I do 
not want any civilian causalities in the responses.
    But, there are always some civilian causalities. We have 
the best capability in the world to protect from civilian 
causalities. Better than any nation in the world and we have 
the results to prove it. He said, no, you don't understand. I 
want no civilian causalities, zero. So that has driven our so-
called rules of engagement to a degree that we have never had 
in any previous air campaign from Desert Storm to the present.
    That is why you made reference to 75 percent of the 
ordinance coming back was a CENTCOM revelation which I think 
surprised all of us to that degree, that that ordinance is not 
being used. Now, we have a new chairman of the Joint Chiefs of 
Staff. Smart, and he has got some spine. I think we are going 
to get some better results here. Because he is pushing.
    He is pushing for a more realistic air campaign and let's 
free up some of these restrictions. Believe me, the French are 
in there, not using the restrictions we have imposed on our 
pilots. The Russians, of course, whose value system is off the 
table, they don't care at all about civilians.
    So if there is an ISIS or a rebel target in the middle 
village, they will take the village down. That was their entire 
methodology in Afghanistan, and that is what they did in 
Chechnya, and so I am convinced that is what they are doing 
here.
    But we can do this, Mr. Chairman. We know how to do this. 
We can have a very effective devastating air campaign that will 
get us results. It will not win the war. But it can certainly 
keep ISIS in its holes, take away their tactical initiative, 
take away their defense and put them on the offense.
    Put so much pressure on them that they are not sending 
out--they are not hitting 20,000 media sites per day with 15 to 
20 new pictures per day. Why? Because they are worried about 
being bombed.
    Chairman Royce. General, if I could just respond to your 
one observation about the Kurds finally getting some of the 
weaponry. I think that is because we got the amendment that I 
worked on in the NDAA act, so that the administration is 
feeling the pressure on that. But it is still obviously not 
being done to the extent that would turn the tide of battle.
    Second I would just point out this point on the air 
campaign. To have gone 12 months without any ordinance being 
dropped on Fallujah, on Ramadi--now I am talking about open 
columns on the open desert in pickup trucks with black flags 
flying. The concern about not having collateral damage that we 
cannot hit those columns as they took 12 major cities across 
Syria and Iraq before we even begin after the fall of Mosul to 
do anything.
    This does not send the message from the administration that 
they intend to do anything except contain this problem. That 
has to be reversed. ISIS has to be defeated.
    General Keane. Listen, I agree with you, Mr. Chairman. But 
that is a slight exaggeration, what you just said. I just want 
to make a statement here for a second.
    Listen, months into this campaign we were not permitting 
convoys of ISIS with flags rolling down roads. We took those 
guys off the roads a long time before that. That was not 
happening.
    The attack on Ramadi, they brought--they came into Ramadi 
largely in civilian vehicles, not even in convoy. They made--
they came down the Euphrates River Valley outside--from Syria. 
Ramadi is in the Iraq version of the Euphrates River Valley, 
obviously. That is--they infiltrated is the military term we 
would use, to create the kind of combat power that they needed.
    There are no convoys of ISIS running around the battlefield 
today.
    Chairman Royce. Not today. But remember, until the Yazidis 
were on the mountainside and until they were attacked on that 
mountainside, that was the first effective use of airpower or 
commitment to use airpower that I saw in this entire endeavor, 
despite our efforts continuously to deploy it.
    But my time is expired. But thank you very much, general.
    Chairman McCaul. Chair recognizes Mr. Thompson.
    Mr. Thompson. Thank you very much.
    Mr. Olsen, in response to the Chairman's question, you made 
a statement that it is virtually impossible to eliminate all 
the risk in a refugee program. Can you talk a little bit about 
that?
    Mr. Olsen. Sure. Absolutely.
    I mean first of all I think the critical point here is that 
when it comes to the refugee program, the ones we have used in 
the past and certainly what we are applying with regard to 
Syrian refugees, there is really no program in the world as 
extensive as what the United States does in terms of looking at 
the background information, the intelligence, the biographic 
information.
    It includes interviews of each potential refugee. It 
includes biometric--gathering biometric information. The 
process itself takes 18 to 24 months all told. Then finally a 
decision will be made at that time before anyone is let in.
    In terms of the populations that are being considered, 
remember that it is the most vulnerable populations in Syria. 
It is the women, children, families. From what I have seen in 
terms of the individuals let in so far, it is only a very, very 
small percentage, a small fraction that are middle-aged--I mean 
military-aged men.
    I would fully endorse the remarks of General Keane in terms 
of who we are as a people and that we can do this in terms of 
managing this problem. But to answer your question directly, no 
process can eliminate 100 percent every bit of risk associated 
with----
    Mr. Thompson. Well, that is what I am trying to get to. So 
if I said that we would require the FBI director and the 
director of national intelligence to certify to Congress that 
each individual refugee to be admitted is not a threat to 
security of the United States, what would your response to that 
be?
    Mr. Olsen. Well, I think that any process needs to 
include--it needs to be reasonable. In other words, there needs 
to be some way of looking at any individual as policymakers and 
understand that the process can--must be reasonable in order to 
work. So it can't be unequivocal or absolute, it seems to me, 
to be an effective process.
    Mr. Thompson. General, you raised a point that I had 
actually made note of. You said that if we stop the opportunity 
of refugees from coming to this country that that would 
potentially play into the hands of ISIL. Can you talk a little 
bit about that?
    General Keane. Yes. ISIS in all their writings, I mean this 
has grown in to be a fairly sophisticated organization.
    It is actually amazing, just to give you one second on 
this. Baghdadi had a relatively small terrorist organization. 
He was trying to rebuild what we had defeated, the al-Qaeda in 
2008 in Iraq.
    Because of the Syrian civil war stalemate, he made the most 
significant strategic decision of his movement. That was to 
take his Iraqi-based, relatively small terrorist organization 
and go to northeast Syria. Because of the stalemated civil war, 
and build a terrorist army and be able to recruit and train.
    In accomplishment of that, build up supplies, et cetera. 
Have the time and introspection, not hiding in the shadows in 
Iraq trying to avoid government troops and police. Operating 
openly in a vast swath of territory and building a degree of 
sophistication. Publishing articles and eventually something 
like an annual report that we have seen, it is about that 
thick, in color with pictures and the rest of it.
    What he advocates is for them to be successful they must 
fragment and polarize Muslim and non-Muslims. It is a key 
objective for their success to grow the movement and also 
isolate Muslims in the world from non-Muslims. They believe 
that will leverage them so they can actually grow an enclave in 
Europe, as an example, out of that struggle that is taking 
place.
    So yes, if we make--if we had a policy here now that would 
shut down obviously Muslims who are running from the horror of 
what is taking place in Syria and shut them down because they 
are Muslims or because they may actually be a threat there, 
that plays right, right into his hands. They will use that.
    They are already--I guarantee you that they have picked up 
on some of the statements that have been made in this town in 
the last few days. Those things are running all over their 
social media nets because it is exactly what they want, the 
polarization and fragmentation between Muslims and non-Muslims.
    Mr. Thompson. Mr. Bergen, do you agree with the general's 
analysis of that?
    Mr. Bergen. Yes.
    Mr. Thompson. Thank you very much.
    Chairman McCaul. Chair recognizes Mr. Engel.
    Mr. Engel. Thank you, Mr. Chairman.
    General, I have long advocated years ago helping the Free 
Syria Army when that proposal was put forward. I supported it. 
I put in a bill 3 years ago to do it. I think the fact that we 
didn't do it was a major mistake. So I do agree with your 
analysis.
    But I wanted to ask you, you know reports have shown that 
ISIS wants to try to lure the United States into a ground war, 
into a war that they can fight. After our experience in Iraq I 
am not sure that we are ready for--to get bogged down into 
another ground war. It seems that every time we intervene 
things seem to wind up worse than they were before.
    I never thought we would long for the good old days of 
Saddam Hussein, and he was certainly a bad player. But you look 
at what is happening now, you wonder if this is any better. I 
would think it is not. You can say this thing about 
intervention in Libya and the places as well.
    So how can we be sure that we just don't get sucked in 
again and bogged down in another ground war like Iraq, which I 
don't think the American people really want or are ready for?
    General Keane. Well, I totally agree with you. I think most 
people do, that I am aware of. Those who are even critical of 
the administration, there are some, but most analysts are not 
calling for, you know, significant ground combat units to go 
back into Syria and to go back into Iraq.
    Yes, you are right, that would be a plus in terms of what 
ISIS would make out of that. They would probably move the 
remnants of their organization, you know, to Libya or someplace 
else.
    But yes, the reality is, is that I think if we are all-in 
in supporting the indigenous forces, and if we put the effort 
into the political situation with the same intensity and degree 
that we did in getting the nuclear deal for 3 years. I mean 
that was all-in political effort. If we make that kind of 
effort because the political situation in Syria and the 
political situation in Iraq actually drive the solutions that 
we need, not the military solution, not the military situation.
    Military situation is critical. But so is the political 
situation. We need to have that level of intensity and that 
level of effort to get the kind of political stability we need 
for the Sunnis to be able to step up in this fight.
    The second thing is, as I suggested in my testimony, our 
efforts to support these local indigenous forces has been, in 
my judgment, very inadequate. To avoid those ground combat 
brigades ever having been used, that is the answer. At least we 
have to try what that result gets.
    Then if we ever had to put combat brigades in there--as I 
said in my statement, I didn't ignore it--we would only do that 
in conjunction with an Arab--and if NATO is involved--
coalition, and we would not be the--I don't think we should be 
the majority of the force if that took place. It just certainly 
would be largely an Arab-Sunni force to be able to take back 
these Sunni lands, not the United States combat forces.
    They would probably like us to be there if it came to that 
situation with them. If there was no other alternative, this 
was the only way we could do it, then I would agree to doing 
that as a recommendation. But that is the thing that we truly 
want to avoid for all the reasons that you suggested. We want 
to avoid that. These other options are still available to us to 
help us avoid that reality.
    Mr. Engel. Thank you. I want to get back to the question 
about refugees, and I would like to make a statement, and then 
ask anyone to comment on it. I think it is important to point 
out that Syrian refugees are fleeing precisely the type of 
senseless violence that occurred in Paris.
    Slamming the door in the face of victims of terrorism I 
think would be a betrayal of our values. I believe that we are 
deeply committed to safeguarding the American public, just as 
we are committed to providing refuge to some of the world's 
most vulnerable people.
    I don't believe that these goals are mutually exclusive, or 
that either has to be pursued at the expense of the other. I 
would like anyone who cares to comment on it, please do so.
    Mr. Bergen. I couldn't agree with you more, sir. We looked 
at every jihadi terrorism case in the United States since 9/11, 
of which there are 330. In only two cases is it clear that 
refugees were involved, and they were Iraqi refugees who 
slipped through a process, which is nothing like the process 
that has been described by Director Olsen and Ranking Member 
Thompson, which is much, much more rigorous. Of course, we 
can't say we are going to just eliminate all risk, because we 
don't live in that kind of world.
    On the other hand, you know, imagine the argument when the 
great wave of Italian immigration came to this country, which 
there were millions of people, that we would take no Italians 
because there was a tiny, tiny chance that one of them was a 
member of the Mafia. This country would be substantially 
different. So I endorse everything you have had to say. I think 
your analogy about the St. Louis is right on point.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Chairman McCaul. The Chair recognizes Mr. King.
    Mr. King. Thank you, Mr. Chairman. I would just like to 
say, though, on the refugee issue, I am saying as somebody who, 
in 1993, visited Muslim refugee camps in the Balkans. I 
strongly supported the admission of Muslim refugees to this 
country at the time. This was not something we as a committee 
went looking for. We had the professionals in the field tell us 
the concern that they had, that they did not fear that the 
vetting was being done sufficiently.
    That, I think, is the issue the Chairman is raising, which 
I have raised, is that this was not something we went looking 
for. We were told by high-ranking people that they believe that 
the vetting process was not sufficient. Even though, for 
instance, it is more rigorous, as regard to Iraq, it is more 
rigorous in method.
    But there are far more materials to work with, as far as 
the refugees coming from Iraq. It has virtually no database or 
materials given with Syria. I think in the last 2 years of 
vetting, there has been a total of 2,000 refugees have been 
vetted. But the President calling for that number to be 
increased to 10,000 in a compressed period of time, if it took 
that long to vet 2,000, how can we get 10,000 or more done in a 
brief period of time?
    That is the concern we have. No one wants to shut the door 
on anyone. I understand the gentleman from New York, his 
concerns specifically with the United States at St. Louis, what 
happened, which was the stain on America's image and legacy. 
But having said that, I think there are real issues here.
    How they are raised is significant, but I will say that 
this is certainly from my perspective, is not in any anti-
Muslim or any anti-refugee issue, which the question of the 
extent of the vetting, and the fact that it appears that there 
is a rush to judgment by the administration to step up and 
advance the vetting process. Again, it was people--even just 
over comments of Director Comey, for instance, I think are 
significant enough.
    But what I would like to do--again, unless somebody wants 
to comment on it--I would just like to ask General Keane--let 
me thank all of you for your service. It is great to see Matt 
Olsen back. He was director of NCTC, it was an absolute 
privilege. I was Chairman of the committee at the time, and 
being able to work with you, cooperation was absolutely 
tremendous. I want to thank you for that. Peter Bergen, we 
always read and listen to what you have to say. General Keane, 
I just wish you were running the whole operation.
    But in any event, the day after the French became 
involved--this was Saturday, Sunday, when they carried out the 
first bombing mission--they took out a command-and-control 
center and a training camp. Why, after 15 months of U.S. 
bombing, were those two sites still available for the French to 
take out on Day 1?
    General Keane. Yes, that is a fascinating comment. I can 
only speculate. I haven't seen, you know, the targets 
themselves. But I would speculate that, don't think of the 
training camp being out someplace in the open desert, or don't 
think of the headquarters being a major facility with antennas 
that are on it. Those things are long gone.
    While I am critical of an air campaign, we cannot compare 
this air campaign to what we did with Saddam Hussein, who was a 
nation state, with all the infrastructure that supports a 
nation state, or what we did against Milosevic in the late 
1990s, because that was also a nation state with all that 
infrastructure.
    Islamic State, while they claim to be a nation state, they 
do not have the physical infrastructure of a nation state. So 
what they have done, and what makes targeting more challenging, 
but still doable, is every major node and critical function 
that they have, to include the training function, is all done 
in and around people, because they know, based on our rules of 
engagement, that we will not engage.
    While I have not seen the target, I would speculate that 
both of those functions, the critical command-and-control node, 
as well as the so-called training camp, quote/unquote, was in 
and around a fabric of civilian population. I know for a fact 
that the headquarters of this organization is decentralized, 
and is living in and among civilian populations.
    Mr. King. Okay. Accepting those facts, you mentioned before 
that CENTCOM reported that 75 percent of the planes return with 
their ordinance. If you could set the policy, what percentage 
would be coming back with ordinance?
    General Keane. Well, I think it would be a small percentage 
in my mind. You know, this is an area that gets so much 
scrutiny in terms of battle damage assessments. We have got 
very good people that do this, got years of experience at it.
    Just so everyone can understand, I mean, we have routinely 
taken out a target that may be in a facility someplace, and we 
don't want the windows to shatter across the street because of 
what is taking place in that function. We actually have the 
ability to do that.
    So we are excellent at this. But this frustration that we 
have, we also--not only the concern about civilian casualties 
has driven us to unrealistic targeting, is that we lose targets 
because the process of getting approval is so layered. You 
know, usually, the commanders who have control of the 
targeting--they have total release authority, and they delegate 
that down to the guys actually fighting the mission.
    Now, we have to request approval. So we have got a target 
on a road that is moving. We have got to request approval, and 
it goes up a couple of layers to shoot at it. If the guy who is 
driving this vehicle, or a couple of vehicles, recognizes that 
there is a fighter or a drone in the area, he is just going to 
drive next to a building someplace, and we are not going to 
shoot him. It is that simple.
    So we lose targets all the time because of the bureaucratic 
process to grant approval for those targets. This is all the 
stuff that is buried in a level of detail that appears somewhat 
bureaucratic, and it is to a certain degree. But it also 
produces the results that we are talking about, why 75 percent 
return with their ordinance, and not striking the targets.
    I know that General Dunford is pressing hard on this, and I 
think there is probably going to be some changes, at least I 
hope so.
    Mr. King. Thank you, General.
    Thank you, Mr. Chairman.
    Chairman McCaul. The Chair recognizes Mr. Sherman.
    Mr. Sherman. Thank you.
    Terrorists create fear. They seek a wild reaction. It is 
time for us to take a deep breath and evaluate all the threats, 
not just based on the last 24 hours, but looking at the last 
decade. ISIS is not the most dangerous threat, nor the most 
evil. I would argue that the Iran-led Shiite alliance is at 
least as evil, and is more dangerous.
    That alliance of Iran, Assad, Hezbollah, and the Houthi, 
they have killed far more Americans than ISIS, whether it be 
the Beirut bombing of our Marines decades ago, or the IEDs that 
were used against us in Iraq and Afghanistan. Iran and Syria 
have both had nuclear programs. Iran and Syria, that is to say 
Assad, have killed tens of thousands--well, hundreds of 
thousands of innocent people, while ISIS has killed tens of 
thousands.
    But ISIS has bad taste, and Assad has good taste. ISIS will 
glorify in the deaths of 50 people. Assad will barrel-bomb and 
kill 1,000 people, and then have a good taste to deny it. It is 
said that the enemy of your enemy is your friend. As Netanyahu 
mentioned when he spoke to us in the Middle East, ``The enemy 
of your enemy may be your enemy.''
    Part of our effort against ISIS and in the world is to show 
compassion, demonstrate that compassion to our friends in 
Europe and the Middle East. Ninety-nine percent of that 
compassion at least is helping refugees who are in the Middle 
East, where there are millions of people. We have been the most 
generous country.
    The solution to this problem is not to depopulate Syria of 
all but its 15 percent Alawite minority. The solution is to 
allow Syrians to live in a reasonable and peaceful country. 
While maybe one-tenth of 1 percent of the displaced will come 
here as refugees--and that is the big controversy--it is the 
rest of Syria that we need to focus on.
    Many of us in the Committee on Foreign Affairs have tried 
to help those Syrian moderates. For years the administration 
wouldn't do it. Then they failed at it.
    One element of that failure is that they insisted that 
those they arm, swear that they wouldn't wage war against 
Assad. What reasonable Syrian wouldn't wage war against Assad? 
If I was a Syrian, I would be waging war against Assad. So this 
vetting process has gone crazy and has failed.
    Of course we focus on the refugees. We may take a few 
hundred a month. Let's look at the risks and compare it to the 
other risks that we do take. Refugees, yes, have Syrian 
passports. Let's look at other passports.
    On 9/11 over 3,000 Americans were killed by people with 
Saudi passports. Governors around this country are recruiting 
Saudi businessmen to come visit and invest in their States. 
Since 9/11 the biggest terrorist attack in the United States 
was committed by Nadal Malik Hasan who killed 13 Americans. He 
was born in the United States and a major in the United States 
Army.
    In Paris most of those committing these crimes held 
European passports. They can come to the United States with a 
Visa Waiver Program. Those same Governors have tourist office 
in Europe showing them pictures of iconic sites in America they 
may want to come and visit.
    So we have 320 million Americans here who could be 
radicalized. We have got 13 million European visitors who come 
here with no vetting. We have a million Middle East, Greater 
Middle East visitors who come here with modest vetting. Then we 
have a few hundred people who come here after a 2-year vetting 
process. Which should we be most concerned about?
    General Keane, you pointed out we are not serious about 
this war. We are not. In World War II we bombed military 
targets. As you point out, we couldn't have a zero civilian 
casualty strategy. We bombed oilfields. We are not doing that 
to ISIS because we want to recover those oilfields in good 
shape. That is absurd.
    Certainly the Iraqi government is not serious. It is paying 
salaries to people in Mosul. I don't thing General De Gaulle 
was dropping money on occupied France to pay salaries of 
unemployed French teachers and civil servants.
    Of course when $500 million to $800 million of Iraqi 
currency was seized, they didn't print new currency because 
that would have inconvenienced corrupt politicians in Baghdad. 
The Iraqi government was installed by the United States. That 
doesn't mean it is not part of the problem. It is a tool of 
Iran and an oppressor of Sunnis that recruits for ISIS--that 
thereby recruits for ISIS.
    The Europeans aren't serious. The Danes have a policy that 
when fighters return they have a welcome and watch program. 
Obviously certainly because two NATO countries have been 
attacked, United States and France in different decades, 
Denmark and others ought to have a policy that if you fight for 
ISIS or you fight for al-Qaeda, that is a criminal offense.
    Finally, we do not study our enemy well, or our adversary 
and our potential friends well. We have a State Department with 
experts in every kind of law except Islamic law. We take a few 
courses at Princeton. We need people who would qualify as 
doctorates at Al-Azhar in Cairo. Until we have that kind of 
expertise, we will not understand what drives ISIS.
    I think I have expired--used up too much of my time. I will 
yield back.
    Chairman McCaul. Chair now recognizes Mr. Rohrabacher. I am 
sorry. I stand corrected, Mr. Smith of New Jersey.
    Mr. Smith of New Jersey. Thank you----
    Chairman McCaul. Then Mr. Rohrabacher.
    Mr. Smith of New Jersey. Thank you, Mr. Chairman. Thank you 
for your testimony and for your leadership all three of our 
distinguished witnesses.
    During the conflict in Kosovo I traveled to Stankovic 
refugee camp in Macedonia, and then was at McGuire Air Force 
Base to welcome some of the 4,400 people brought there from the 
United States as refugees.
    One of those refugees airlifted to McGuire was Agron 
Abdullahu, who was apprehended and sent to jail in 2008 for 
supplying guns and ammunitions to the Fort Dix Five, a group of 
terrorists who were also sent to prison for plotting to kill 
American soldiers at the Fort Dix military installation. This 
after being rescued, housed, fed, and welcomed as a refugee 
into my home State of New Jersey. Then he worked with these 
other radical Islamists.
    The 9/11 report, last year's report so ably and expertly 
run by Tom Kean and Lee Hamilton, noted, and I read it. 
``Today's Rising Terror Threat and the Danger to the United 
States'' points out that the United States remains 
unappreciative of emerging threats, and talks about how those 
threats have proliferated.
    Today in the U.K. Express, Aaron Brown writes a Syrian 
operative claims that more than 4,000 covert ISIS terrorists 
have already been smuggled into Western nations already, he 
says, hidden among the refugees. He also points out that this 
is the beginning, not the middle, not the end, the beginning of 
a larger plot to carry out attacks.
    First question, more than 4,000 covert ISIS terrorists 
embedded with refugees. Is that a credible number? Is it more? 
Less? What are your thoughts on that?
    Second, on October 20 I chaired a hearing on the crisis--I 
chair the Helsinki Commission--a very good hearing. We heard 
from experts, including the high commissioners, regional 
representative for the UNHCR who said the spike of Syrian 
refugees coming to Europe this year is mainly due to three 
factors, the long-term trends and then the trigger.
    One of the long-term trends is loss of hope that there will 
ever be an end to the war. Second, the fact that so many 
refugee resources have dwindled to next to nothing.
    But the trigger, he said, was the lack of humanitarian aid 
provided by the international community. And pointed out that 
the World Food Program had experienced a 30 percent cut, and 
the people then said they would give up. They have abandoned 
us. We are going into flight. Of course most of those are young 
men, predominantly young men that have left.
    In your opinion, is the trigger, was the trigger, does it 
continue to be the lack of humanitarian response? Has that been 
rectified? What do you think ought to be done to ensure that 
those resources are available?
    I yield back.
    Mr. Olsen. Congressman, on the second question and on the 
trigger, I mean certainly the scarcity of humanitarian aid must 
be one of the contributing factors. Consider the numbers that 
we are talking about. Nine million displaced persons in Syria, 
4 million refugees leaving that country. So the numbers are 
staggering. The scale of the humanitarian crisis is staggering.
    On your first question, the number that you cited of 4,000 
potentially embedded, I don't really have a sense of whether 
that is a credible number or not. What I would say is that as a 
general proposition, as much as we are focusing on the refugee 
issue, to me from my vantage point having served at the 
National Counterterrorism Center, the more important question 
is the foreign fighter one, especially when it comes to the 
United States.
    Again, we are talking about refugees that would come to the 
United States being an 18-month to 2-year proposition. When 
right now we know there are in excess of 4,000 Europeans--
Westerners who travel to Syria and who are in--have Western 
passports, have the ability to travel within Europe, have a 
capability to travel to the United States.
    The real risk is the foreign fighter population that Mr. 
Bergen talked about. I think that is where intelligence 
resources, law enforcement resources need to be placed because 
there is a greater degree given the nature of that population. 
Look, they went to Syria to fight, most of them with ISIS. That 
is where the greater risk is.
    Mr. Smith of New Jersey. I would add you know on the 
vetting issue, I am not sure how a database can be created for 
people that are coming from places, villages, towns throughout 
Syria that we have no way of checking their arguments, their 
statements. We know consular affairs people all over the world 
they have honed that skill to a remarkable degree of expertise. 
But it is still--we are talking about people that if--may be 
very well adept at lying, deceiving, and making their way here.
    The 4,000 number ought to put an exclamation point about 
the pause to make sure that if we are going to accept these 
individuals it is done in a way that is absolutely--you never 
can say absolute, but to the greatest extent practicable, 
ensuring that these people are not allowed into this country.
    I say that, Mr. Chairman, as an unabashed believer in 
refugee programs. I have written 2 laws to facilitate refugee 
protection, including my law created the T visa for trafficking 
victims. I do believe strongly, as do Members of my side of the 
aisle and both sides of the aisle, in refugee protection. The 
Lautenberg amendment was a great effort to ensure that 
Southeast Asians, Vietnamese in particular.
    Soviet jury was the first issue I worked on going back to 
the year 1981 when I first got elected. So my point is the 
pause is prudent. I do hope that we can get it right because 
again, our first priority is to protect Americans.
    Yield back.
    Chairman McCaul. Chair recognizes Mr. Meeks.
    Mr. Meeks. Thank you, Mr. Chairman.
    First let me just say as a Member of Congress my greatest 
concern is for the safety of Americans at home and abroad. The 
recent attacks in Paris have tragically highlighted the need 
for all free nations to not just be wary of attackers from 
outside our borders, but of course we need to be wary of 
attackers within our borders, those home-grown.
    Somehow in some of this debate it seems as though 
individuals because of the failure of intelligence in France by 
the French, by the way. But that is then put on as it is a 
failure in intelligence by the President of the United States. 
Thus far, knock on wood, the President of the United States has 
protected the people of the United States of America because we 
have not had that kind of an attack here.
    I am thankful to the French now for joining the fight that 
we have already been in for a long period of time. I wish they 
were doing that earlier. I am thankful and hope that the rest 
of our allies join in with us so that we can coordinate 
collectively to make sure that we fight our common enemy, ISIL.
    So it is not just the United States. I think the job of the 
President of the United States as far as leading this concern 
is to try to get those who are our allies to contribute their 
part to this also.
    One of the things that we know that shock and awe and 
getting something done and ending a war in 2 to 3 days as we 
thought we could do in Iraq does not work. So there is no 
short-term anything that we can do.
    Now, I have been pleased to be quite honest with you 
because I think--the wisdom of the witnesses that we have had 
before us and--I have learned a lot just listening to you this 
morning. So I want to thank our witnesses for your testimony.
    Now, one of the areas that I wanted to just to explore 
before I get into dealing with some of the refugees though is 
it seems to me as we get involved in this conflict, and this is 
why it is complicated because you do have to deal with--first 
thing, I think everybody admits that you cannot resolve this 
just by the military alone. Is that correct? Military is not 
just going to resolve this.
    So if we are going to get past the military, then we have 
also got to figure out how we do deal with Turkey and Turkey, 
of course, has a problem with what--the Kurds who are also 
involved in this and that is difficult. Russia who is so 
involved with Syria so in some kind of way they are not 
irrelevant. We have got to keep--and we have got to figure out 
how to deal with them.
    Iran since they are all part of that also if we are going 
to deal with the Syria crisis because we still have to deal 
with the Sunni-Shia issue also if we are going to really try to 
resolve the problem in Syria.
    The Gulf States, they are surely involved in this also, and 
they have to play a role. The European Union, they have to play 
a role, and we have got to get them all lined up with all of 
their various different interests in this area if we are going 
to resolve the conflict in Syria so that we could make sure 
that we wipe out the issue of ISIL, none of which can happen 
overnight. Which is why the President said I don't have time to 
deal with some of this other stuff because I have got to focus 
on these difficult issues of trying to figure how to pull this 
thing together.
    So I ask General Keane, with all of these outside--and, you 
know, an honest--America leading and we can't lead by--you 
know, we don't have anybody following so you have got to get 
the individuals to come and work with you, what roles and how 
do you see the Turks playing in this and the Russians playing 
in this and the Syrians playing in this and the Gulf States 
playing in this, as well as our E.U. partners who are all in 
the area and all where there is this immediate threat of ISIL?
    Then in the time that I have on this--on other, the other 
issue is dealing with, you know--we talk about what I would 
like to focus us, when you are talking about vetting because I 
understand that if we don't have and we can't vet someone they 
are not allowed here. But I think it is more important that the 
European Union need to make sure that they have a vetting 
process that works and they talk to one another.
    You know, we have got a situation here where--in the 
brothers in Belgium, the Belgians talked to them and didn't 
give the information to the French. So there was a 
miscommunication not with our communication and vetting, with 
theirs. So if you are talking about how we can help them do 
theirs, they not--we can talk about it and so, you know, that 
is something that we should be talking about.
    So I would like to get your opinion on that in the time 
that I have left.
    General Keane. Well, you know, when you look at the 
problems we are facing with ISIS and Syria and Iraq, and 
particularly in Syria, I mean, there can be very thoughtful 
arguments made on both sides of what to do with this thing. 
When you look at the whole spectrum of it, I mean, it makes 
your head hurt, frankly. It is very, very complicated 
situation. All that said, there are things that we can do and 
we have got to work on pieces of the problem with a sense of 
where the strategic outcome should be.
    By that I mean the issue really in Syria is the civil war 
which must be stopped so we can deal with ISIS. All the Sunnis 
that we need to deal with ISIS are fighting the civil war. That 
is why the Pentagon's program was so flawed in trying to get 
Sunnis to fight only for ISIS.
    The CIA program, arming and training the Syrian moderates 
which the President can't talk about because it is Classified, 
is a very successful program. I can say because reported in an 
open press, that the TOW missile systems that they have or have 
actually been decisive in stopping the counter offensive that 
the Iranians, the Syrians are using, supported by the Russians.
    Just as an editorial comment for everybody here, despite 
Russian airpower, despite Russian fighters, 34 fighters, 16 
helicopters, Russian artillery, Russian rocket artillery, 
Syrian regime on the ground, 2,000 to 3,000 Iranians actually 
in the fight and planning on leading the fight, that offensive 
has stalled. The reason they came to Syria is because they 
believe the regime was in a precarious situation.
    So what has to take place here is this civil war has got to 
stop and the leaders in the region have been telling us this 
for a long time, Turkey, Jordan, Saudi Arabia, UAE, they are 
all the players. They know that they cannot go after ISIS as 
long as that civil war is taking place.
    That is how we pull Turkey--they are going to be all-in if 
we get this civil war to stop. They have been telling us that 
for 3-plus years. That is our frustration in I think the--going 
back to the point we have made before that was brought up by a 
question that our preoccupation with the nuclear deal actually 
prevented us from bringing the help--bringing the civil war in 
Syria to a conclusion. That is behind us now.
    But the fact is, that is still the issue. So, yes, that is 
crucial to what we are doing here. Russia, I mean, we are about 
to make a strategic mistake and Putin is a master at this. 
Think of this, the only reason why this civil war has been able 
to go on for 4 years is because of Iranian support for it and 
the Russians' support for it. In the very beginning, many 
people in this town were predicting that the Assad regime was 
going to fall. Remember that? It was saying just a matter of 
weeks or months. What stopped that from happening? Two things.
    One, we didn't help the moderates with the weapons that 
they wanted so they can continue the momentum, but even more 
critical than that was that the Iranians were all-in with their 
IRGC, Revolutionary Guard Force of Quds force, Qassem Soleimani 
on the ground brought his generals in there; one of them got 
killed, put thousands of fighters in there, put Iraqi Shia 
militia in there, 3,000 to 5,000, 5,000 Hezbollah. They were 
all-in on that. That perpetuated the war. It continued the war.
    The Russians all-in perpetuating that war. So this killing 
that we are talking about, this horror that has been inflicted 
of 250,000 dead and 11 million people displaced, and refugees 
running around the world trying to find some escape, no longer 
waiting in refugee camps because of a sense of hopelessness 
that they have.
    The Russians have all that blood on their hands. They 
contributed to perpetuating this regime. We are about to get 
trapped by Putin. He is a smart guy. He is a thug and he is a 
killer but he is savvy. He is about to trap us. He is trapping 
us because of the offer of helping with ISIS; yet, he is 
responsible for this civil war.
    I told you why ISIS is in Syria. They are in Syria because 
of the strategic opportunity that the stalemated civil war gave 
them to move from a small terrorist organization to this modern 
evil thing that we are dealing with is a terrorist army.
    Putin made a direct contribution to that. Now, cleverly, he 
is trying to say to us, well, look it, I will help you with 
your ISIS problem. What he wants to do is have the pressure 
taken off of him so that the Alawite regime stays in power; 
that is his goal. If it takes--if I can help you with ISIS and 
you get off my back about that, that is the direction he is 
moving. We are about to get trapped by it.
    You know, we should--it is a moral absurdity to work with 
Putin over ISIS given that he and the Iranians provided a 
denominator for this war to be extended into its fifth year, 
and we should not do it and we should not fall prey to that 
trap.
    So those are some of the things that have to be considered 
in this complicated situation.
    Chairman McCaul. Chair recognizes Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    General, while I have deep respect for you and we have 
known each other for--over the years and paid attention to your 
testimony here on various issues, I couldn't disagree with you 
more and the number of things--points that you have made today.
    But first, let me just note, if ISIL is not being hit by 
the administration--I was in Erbil a week ago and I talked to 
people on the front lines and there are truckloads of military 
supplies on the freeway and are not being hit by the United 
States military, by our drones or by military aircraft. I don't 
know where you get your information but I can tell you that 
information came straight from people on the front lines.
    Also, we didn't--we haven't been helping--this 
administration also hasn't even been helping our friends. We 
haven't been directly supplying to Kurds. We have been hearing 
over and over again for the last year we have got to help the 
Kurds and this administration has been dragging its feet just 
like it dragged its feet try--even to get any type of help to 
General al-Sisi who saved his country from being taken over by 
the Muslim Brotherhood, and then we--our--this administration 
was angry with him for that and actually make Egypt vulnerable 
to being taken over by the radical Islamic forces that now 
threaten the entire region.
    So I don't believe that, no, we are not doing militarily 
what needs to be done. But where do we go in terms of what the 
issue is today? American citizens, first of all, we say--we 
ought to handle--there is a problem at home, there are some 
American citizens who have been engaged in terrorist activity 
joining these--that is the No. 1 issue that we have heard about 
today.
    Let us declare that any American citizen who joins any 
Islamic terrorist organization that when that person is 
arrested--of course, we--they should be arrested immediately 
when we find that out--that person should be tried for treason 
for joining that organization. Treason is when you join a 
company that is out to kill Americans. We need to try--put--
arrest and try any American who joins a terrorist organization 
as a traitor and, thus, he should be found guilty or not 
guilty, but if found guilty, he should be executed as a 
traitor.
    In terms of people that we want to bring into our country 
in terms of refugee camps, here again, General, I totally 
disagree with what you have to say. The bottom line is our 
policy should be based on what will make America the most 
secure from any type of terrorist attack. Our fellow Americans' 
lives are the No. 1 priority, not whether it is going to be 
sensitive or not to whether the--how the Islamic people or 
radicals or whoever they are in other parts of the world are 
going to think about the United States.
    Yes, Christians right now, for example, are being targeted 
throughout the Middle East, the targets of genocide. For us not 
to prioritize, would put us in the same spot that Mr. Eliot 
Engel was talking about, in pushing away Jews, because it might 
upset the Germans or somebody else if we left Jews in at a time 
when they were being targeted by Adolf Hitler.
    Well, your policy is well-known. Let's not prioritize these 
Christians because it might upset some Muslims some place, is 
very equivalent of pushing those Jews right into those death 
camps that Eliot Engel just talked about.
    If we are going to be serious here, let's No. 1, if 
Christians are these people who are the most targeted in that 
region and everybody I know says that. They are targeted for 
genocide. They should have the priority when we are trying to 
give safe haven to people. I don't care if that touches on 
somebody's sensitivities overseas.
    No. 2, we have to be concerned about the safety of the 
people of the United States. If we are going to bring in people 
here, at least these Christians wouldn't be potential 
terrorists in joining up groups that want to commit genocide 
against them.
    Finally, let's just say that when we do bring in these--if 
we bring in people, we have to be absolutely certain that 
nobody is going to be committing acts of violence against the 
people of the United States.
    I think by prioritizing and saying, ``We are going to put a 
hold on this for awhile''--and as far as I am concerned, your 
attitude earlier on, General, was frivolous about this--``We 
are going to put a hold on it for awhile,'' we are going to 
find out what we have to do to ensure that these people coming 
into our country don't commit the type of acts against 
Americans the way these terrorists did against the French just 
a week ago.
    That is No. 1. If it means prioritizing and making sure 
that we do differentiate and say the Christians who are now the 
most vulnerable are going to be the ones who have priority for 
safe haven here, let's go for it.
    So I am sorry general. I respect you and I know you are a 
patriot. I just disagree with you very strongly on these 
points.
    General Keane. Do I get a chance to respond?
    Mr. Rohrabacher. I hope so. Yes, sir.
    General Keane. Well, we have this conversation every time 
you and I talk here in full view of the American people. We 
always start out by, ``I respect you, but--'' and then we get 
it.
    [Laughter.]
    So this is a pattern of behavior between the two of us. 
That is okay.
    Mr. Rohrabacher. All right.
    General Keane. But listen, I am not defending the 
administration here. I am trying to present an alternative 
strategy that would be helpful.
    But I am saying that when it comes to the Kurds, things 
have been improved. Talking to them myself. Are they 
satisfactory? No, is what I said.
    I am saying that the convoys--those long convoys with flags 
waving in the air that we saw on all of our television screens 
at the beginning of the conflict, a lot of that has gone away.
    Has something possibly slipped through because of some 
mission that they--that did detect it or whatever? Sure. But as 
a pattern of behavior, that has improved. I am saying the air 
campaign is unsatisfactory. I have strong feelings about it.
    With the refugees. I don't think anyone of us is 
disagreeing with the Chairman's proposal at the outset, which 
was, let's bring the Executive branch in. Let's take a look at 
their plan and make certain that this plan is reasonable and 
will protect the American people.
    I think we are all in agreement on that. You are reacting 
to my emotion, and this is good, over the fact that we 
shouldn't be saying the only people we are going to take in are 
Christians.
    I mean, there are Christians here who are coming to America 
and I suggest they are--certainly, they are welcome. They are 
Muslims here, which will make up the majority of it because 
that is what the population pool is. Certainly, they should be 
welcome as well.
    I mean, when we really get down to it, you know, this 
process that is taking place that Matt laid out, is obviously 
colored by the fact that we know for a fact there could be 
terrorists in that group. So it is not like a normal asylum 
issue that is coming to the United States where we welcome, on 
average, as you know, that Congress sets the ceiling with the 
President, is about 70,000 a year.
    So is this influx of refugees different from all those 
others? Yes. I think we are all saying that. Yes it is. If it 
actually got down to it, I think we know women and children and 
families probably are less likely to be terrorists if they are 
undocumented.
    If you have got an undocumented 22-year-old standing in 
front of you and you don't have--you don't know who he is or 
where he is from, why would you let him in? Just because he 
wants to come in? I would assume the process would say, that he 
is at risk. We are not going to accept that risk.
    Mr. Rohrabacher. But nobody is saying to hold all the 
Muslims back.
    Mrs. Miller [presiding]. Time has expired.
    Mr. Rohrabacher. Nobody is saying that.
    If the Christians deserve priority, if they are the ones 
who are most vulnerable and under genocidal threat and to give 
them priority, to say we shouldn't do that--those women and 
children, if they are--if they happen to be Christians who we 
know are targeted, then we can't give--take that into 
consideration? That is being, frankly, heartless towards 
Christians in order to curry favor with Muslims, and that is 
wrong.
    Mrs. Miller. Okay. I thank the gentleman.
    We are going to move to the next, the gentleman--the Chair 
recognizes the gentleman from Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you, Madam Chair.
    I want to thank our witnesses for your testimony here 
today. You have raised some incredibly important points about 
how we start to develop a better strategy for confronting ISIL 
going forward.
    Clearly it is a significant National security threat and 
challenge and we have got our work cut out for us to turn this 
situation around because right now I don't assess we are 
winning this war against ISIL and we have got to develop a much 
more effective strategy than what we have right now. My fear is 
it is going to get worse before it gets better.
    General Keane, in your testimony, you referenced that one 
of ISIL's major thrusts is the far abroad, enclosed. However, 
until very recently, ISIL seemed content to focus on inspiring 
attacks rather than directing them.
    So, for the panel, why the change? Is this the result of 
the maturing of ISIL? The end of the beginning as Mr. Bergen 
had described it? Or is it a response to external pressures 
like ISIL's stalled efforts at expansion in the whole knot?
    General Keane. All of this they have written about from the 
beginning in terms of their intent in the far abroad to 
fragment and polarize the population there by acts of terror. 
Act of violence. They certainly--they actually welcome an over-
reaction by police forces. That will certainly aggravate and 
alienate the Muslim population even more.
    As you know, in some of these countries, Muslims lived in 
enclaves and they are not assimilated into society the way they 
are in the United States in America just based on meritocracy.
    This has always been part of the plan. ISIS is still a 
young organization. I mean, Baghdadi moved into Syria in 2012. 
He spent most of that year consolidating the territory that he 
had and recruiting and training an organization.
    Then in 2014, he devoted a large part of his effort to the 
invasion into Iraq. He had 2 years to build that force and did 
that very successfully. And he has consolidated that territory 
in Iraq and also in Syria, largely on the Sunni lands. He 
surrendered the territory that the Kurds owned. Mainly because 
the Kurds had the where with all to take it back from him and 
he is not making any moves to retake that territory.
    Because the territory that he does have in both of those 
countries gives him the base that he needs to grow the 
organization and these affiliates that he has. In some of these 
countries, he is providing direct resources, he is providing 
training assistance in those countries, something he couldn't 
do give the invasion in Iraq and the other activities that it 
was--surrounding, building his organization.
    So I think it--yes, it has to do as you suggested, with the 
maturing of the organization. It is--I think it should be 
revealing to all of us, despite the fact that we may have taken 
a town in Iraq like a Tikrit or like Baiji or Sinjar or we took 
a town in Syria like Kobani.
    It is not that strategically important to ISIS for them to 
be able to do what? To expand into that orange area and to be 
very disruptive in that yellow area which is where we are now 
with this organization. So they are defending in Iraq and 
Syria. I believe, successfully, although they have surrendered 
territory.
    But now, they are making an expansion of ISIS and it is 
growing. That is done because they are comfortable. They are 
comfortable with this caliphate and--that they have and they 
are comfortable with the base of their operations in Syria to 
be able to project that kind of power.
    So we have ISIS right in the face of us, is growing as a 
global organization. It has a global strategy and we are seeing 
the execution of it. They have a lot more plans than what we 
are seeing.
    I think also, the comment about the French intelligence. I 
just wanted to--the challenge is that, you know, Peter and Matt 
bring out here, is real. We saw that with the French. Think of 
this. I mean, they knew there was an attack coming. They have 
had three attacks this year. Charlie Hebdo, the train attack, 
and now this one.
    They were ready. They weren't in a defense crouch. They 
were in an offensive crouch. They were looking for everything. 
They have intelligence reach that many of our intelligence 
agencies do not have in terms of trampling on civil liberties a 
bit. They have a more aggressive policy in doing that.
    So, even with that, even with knowing something else was 
coming, ISIS was able to man what we call in the military 
operational security. They were able to plan that operation, 
put the logistics in place to support it, do the reconnaissance 
necessary to put that operation together.
    Not a large organization to be sure, but build a cell that 
has the capability to do that and execute the operation.
    I mean, they did fail. Their two primary targets were, No. 
1, the concert, No. 2, the stadium. They wanted to get in the 
stadium with three bombers, and the security system did not let 
that happen, so they blew themselves up outside. Thank God that 
didn't happen. That was the only failure I think they had.
    But that--it just shows you how difficult this is when 
there is not a lot of communication from al-Qaeda central to a 
decentralized organization, like we have had in the past. I 
don't believe we are going to find, when the French unravels 
all of this, that there was a lot of communication with ISIS 
central in Raqqa and this network cell. They were able to 
maintain that kind of operational security.
    I don't think--when we unravel it, probably the French did 
about as well as they could under the circumstances. They were 
all-in watching for this thing, and still could not detect it. 
We should learn something from that. I am sure Director Comey 
is taking notes on all of it. He obviously has a lot of 
concerns about it.
    Mr. Langevin. That operational security is very troubling. 
I hope as we peel back the onion in doing the investigation, 
that we are going to find out how we missed this, or they 
missed that, and how we can learn from that going forward.
    I am troubled, of course, by the technological challenges 
of going dark, that Director Comey has spoken about, with 
encryption technology. We have clearly got to get that right 
balancing privacy and civil liberties. But when you have 
probable cause with a court order, how do we gain access to 
those indications so we can better protect ourselves going 
forward? I know my time is expired.
    Mrs. Miller. Thank the gentleman.
    First of all--and the Chair will now recognize herself, my 
turn in the queue here.
    But first of all, just to comment about the truck convoys, 
particularly those that are coming out of Eastern Syria, taking 
the crude oil out, talking about the money for the terrorists, 
just on Sunday, there was an attack, a very effective attack on 
some of those truck convoys.
    I would just point out, because the Air Force has been 
misguided, in my opinion, on trying to retire the A-10 
aircraft--attack aircraft. There have been a number of us that 
have been pushing back very hard on that. We have been 
successful so far. I would just point out that the aircraft is 
being utilized very effectively in theater, are A-10s that are 
taking those truck convoys out.
    I also would like to make a comment. I don't know that I 
have a question, but--I do have a question, but not on this 
issue, in regards to the refugees. Because I have sat here this 
morning, I have listened to a lot of comments about American 
compassion, and how we need to be more compassionate, and we 
can't possibly put a pause on this program.
    I would just remind, talking about American compassion, the 
story of two brothers that came to this country, refugees. They 
came with their families to escape their homeland, the ravages 
of their homeland. Cute little boys, just darling little boys. 
They couldn't have possibly been a threat to the United States. 
They couldn't be anybody that would, you know, would look at 
radicalization, or what have you. They were here, they were 
reaping the awards at the American taxpayer dollars. They were 
here as we were supporting them.
    They were here due to the compassion, taking advantage of 
the compassion of the American people. How did they repay us 
for those dollars and that support and that compassion? They 
placed two pressure-cooker bombs at the end of the Boston 
Marathon, and blew up innocents there, including an 8-year-old 
boy who was blown to bits. So I would just mention that, 
talking about American compassion.
    I also think, regarding the refugees, as we look, I was 
very interested to hear about the average age of the fighters, 
foreign fighters, et cetera. But really, as I sort-of look at 
the media, looking at all of these refugees who are leaving 
Syria--and believe me, I have compassion--but for the young 
people that are leaving their homeland, literally, isn't 
America enabling what should be there, an age group, a 
demographic that should be in Syria, hopefully in a safe area, 
a safe zone, paid for by compassionate countries, including the 
Saudis and the Gulf states, et cetera, to leave them there?
    That is the demographic that should be in that country to 
help protect their own homeland. Instead of that, we are 
helping to get them to leave that. So I think that we certainly 
should have a pause on the refugee program. I also will just 
make one other note on that.
    Back in January, myself, Chairman McCaul, and Peter King, 
sent a letter to Susan Rice, in which we said--I will just read 
one--we said, ``The resettlement of a high number--such a high 
number of Syrian refugees raises serious National security 
concerns.'' We said, ``We are concerned about the possibility 
of groups like ISIS and ISIL exploiting the refugee 
resettlement process to mask the deployment of operatives into 
the West.''
    Then we got a response in February from the administration 
basically patting us on the head saying, ``Don't worry about 
that. We have got it covered. We have a very extensive rigorous 
system,'' they said, ``multilayered, biometric, and biographic 
screening,'' which is obviously impossible. I don't know how 
you are going to have biographic and biometric screening 
available to do. Without objection, I will place those 2 
letters into the record.
    [The information follows:]
       Letter Submitted for the Record by Hon. Candice S. Miller
                                  January 28, 2015.
The Honorable Susan Rice,
Assistant to the President for National Security Affairs, The White 
        House.
    Dear Dr. Rice: It is our understanding that the State Department 
plans to accelerate its efforts to admit Syrian refugees into the 
United States. In December, Assistant Secretary of State Anne Richard 
stated that she expected admissions from Syria ``to surge in 2015 and 
beyond,'' and we have since received reports that the Department is 
planning to accept tens of thousands of Syrian refugees by the end of 
2016.
    The resettlement of such a high number of Syrian refugees raises 
serious National security concerns. The United States has a proud 
history of welcoming refugees from all over the world; however, the 
Syrian conflict is a special case. Syria is currently home to the 
largest convergence of Islamist terrorists in world history, surpassing 
even the Afghanistan conflict in the 1980s. The country has become a 
safe haven for tens of thousands of extremist fighters, including more 
than 20,000 foreign fighters who have flocked to the region. Many of 
these militant fanatics are committed to attacking the United States 
and its allies and have declared their intent to do so.
    Screening these refugees is not a task to be taken lightly. As we 
saw with previous Iraqi refugees--some of whom were initially admitted 
to the United States and subsequently found to have ties to al-Qaeda--
the lack of a thorough security screening process can result in 
individuals with terrorist ties exploiting the refugee program to 
resettle in the U.S. homeland. Such failures in the initial vetting 
process ultimately become a substantial burden to our law enforcement 
agencies, which are then responsible for ensuring admitted individuals 
do not pose a threat to our country.
    We are concerned about the possibility of groups like the Islamic 
State of Iraq and Syria (ISIS) exploiting the refugee resettlement 
process to mask the deployment of operatives into the West. Already we 
have seen signs that extremists may be working to take advantage of 
refugee routes into Europe and elsewhere, and we must assiduously avoid 
exposing ourselves to the same vulnerabilities. The continued civil war 
and destabilization in Syria undeniably make it more difficult to 
acquire the information needed to conduct reliable threat assessments 
on specific refugees, which is why extra caution is necessary.
    The United States has historically taken a leading role in refugee 
resettlement and humanitarian protections. But we cannot allow the 
refugee process to become a backdoor for jihadists. Accordingly, our 
Committee wants to make sure the Administration is weighing the Syrian 
resettlement question with the utmost concern for the safety of the 
American people and the long-term security of the U.S. Homeland. Please 
provide the Committee with a detailed description of the number of 
Syrian refugees the United States expects to resettle, the timeline for 
resettlement over the next two years, and an overview of how the 
interagency will enhance security measures within the vetting process. 
We fmiher request that you direct the relevant interagency parties 
involved with this issue, including those copied on this letter, to 
brief the Committee and its Members at their earliest availability.
    Thank you for your attention to this matter.
            Sincerely,
                                         Michael T. McCaul,
                                                          Chairman.
                                             Peter T. King,
        Chairman, Subcommitee on Counterterrorism and Intelligence.
                                         Candice S. Miller,
            Chairman, Subcommittee on Border and Maritime Security.
                                 ______
                                 
       Letter Submitted for the Record by Hon. Candice S. Miller
                                 February 24, 2015.
The Honorable Michael T. McCaul,
Chairman, Committee on Homeland Security, House of Representatives, 
        United States Department of State, Washington, DC.
    Dear Mr. Chairman: Thank you for your letter of January 28 to 
National Security Advisor Susan Rice regarding the Administration's 
program to admit Syrian refugees to the United States. We have been 
asked to reply on her behalf.
    First, we appreciate your recognition of our nation's proud history 
of welcoming refugees from all over the world. The U.S. Refugee 
Admissions Program has historically enjoyed broad bipartisan 
Congressional support and your leadership will be vital to continuing 
this record.
    For decades, U.S. communities have welcomed refugees fleeing the 
world's most dangerous and desperate situations. The U.S. Refugee 
Admissions Program has provided a new start to more than three million 
vulnerable refugees in the period since 1975, unlocking human potential 
that might otherwise have been squandered. President Obama and 
Secretary of State Kerry are determined to ensure that this life-saving 
and life-changing program meets the highest security standards, 
including in the admission of Syrian refugees.
    Reports of the intended admission of tens of thousands of Syrian 
refugees by the end of 2016 are incorrect. The United States 
anticipates admitting 1,000-2,000 Syrian refugees for permanent 
resettlement in Fiscal Year 2015 and a somewhat higher number, though 
still in the low thousands, in Fiscal Year 2016. Throughout, our 
emphasis will be on the most vulnerable--particularly female-headed 
households, children, survivors of torture, and those with severe 
medical conditions.
    In light of the nearly four million Syrian refugees currently 
hosted in neighboring countries, these figures represent a very modest 
but still important contribution to the global effort to address this 
crisis. The refugee population we focus on often has special needs, 
which can heighten the burden on host countries. U.S. leadership has 
also been instrumental in securing commitments from 25 other states to 
consider resettling Syrian refugees.
    As Administration officials have testified before yours and other 
Congressional committees, the security screening of refugee applicants 
for U.S. admissions is an utmost priority. Every refugee under 
consideration for U.S. admission undergoes rigorous, multi-layered 
biometric and biographic screening involving multiple intelligence, 
security and law enforcement agencies, including the National 
Counterterrorism Center, FBI's Terrorist Screening Center, Department 
of Homeland Security and Department of Defense, to ensure that those 
admitted are not known to pose a threat to our country. Indeed, 
applicants to the U.S. Refugee Admissions Program are currently subject 
to more security checks than any other category of traveler to the 
United <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="396a4d584d5c4a1779">[email&#160;protected]</a>
    The Administration has taken a number of steps in recent years to 
further intensify refugee screening, significantly informed by the 
long-standing program for Iraqi refugees, as discussed in your letter. 
Our Syrian screening effort has greatly benefited from the lessons of 
the Iraqi admissions experience and, mindful of the particular 
conditions of the Syria crisis, Syrians will undergo additional 
screenings, the details of which we are happy to share in a classified 
setting.
    Since 2009, the Administration has provided numerous refugee 
security screening briefings and we stand ready to provide additional 
briefings at your convenience.
    Thank you for your leadership on this matter, which is both vital 
to the security of the homeland as well as instrumental to our nation's 
continued humanitarian leadership.
            Sincerely,
                                            Julia Frifield,
                          Assistant Secretary, Legislative Affairs.

    Mrs. Miller. My question to the witnesses is regarding the 
Visa Waiver Program, of which I have a bill, and I am hopeful 
that we are going to take that up as soon as we can. I actually 
chair the Subcommittee on Border and Maritime Security. We have 
had numerous hearings about the Visa Waiver Program, and 
whether or not, with the 38 countries that are currently 
participating, and if they are not to our comfort zone and our 
degree of confidence, really giving us, through the information 
protocols, the information, the traveler information that we 
think we need, then we can think about who these countries are.
    We set it up in 1986 because we wanted to expedite tourism. 
Well, this is not 1986. As you think really about the outer 
ring of border security now, and the kinds of things we should 
be doing, whether that is preclearance, or certainly with Visa 
Waiver, 38 countries--France, Germany, Belgium, et cetera--I 
mean, that in my mind is even a bigger concern, way bigger 
concern, than the refugees, really, because you see that you 
have a huge--a much higher proportion of foreign fighters that 
are coming back into these countries in Europe before they come 
into America.
    So I just would like to ask the witnesses what they think 
about our current Visa Waiver Program, and what we need to 
secure America.
    Mr. Olsen. So absolutely, this is an area for Congressional 
oversight. How does this program work? Is the information being 
shared under the program as it was intended to be? I agree with 
you wholeheartedly, as I said earlier.
    The issue, from the perspective, I think, of U.S. National 
security and homeland security, should be more focused on the 
foreign fighter population than on the refugee. The foreign 
fighter population, they have already demonstrated a 
commitment, right, to go to Syria and fight, 4,000-plus from 
Western Europe, or at least from the West. Many of those from 
these Visa Waiver countries.
    Now, I think it is important to find out, as you know, the 
Visa Waiver Program is not a free pass. There is an information 
vetting that takes place. The question is, are the protocols, 
as you point out, followed? Is that information being shared 
between the United States and these countries? So it is a 
potential vulnerability, and I think an appropriate area for 
the oversight of your committee.
    Mrs. Miller. Thank you. Anyone else before we----
    General Keane. I agree with Matt. I mean, times have 
changed. We need to review. It makes sense for the Congress to 
dig into it.
    Mrs. Miller. Thank you.
    The Chair recognizes the gentleman from Massachusetts, Mr. 
Keating.
    Mr. Keating. Thank you, Madam Chair.
    I am a member, a co-chair of the French Caucus, and I want 
to use this opportunity to again underscore the heartbreak all 
of us have with their losses. It is just made us more resolute, 
these committees, to move forward, and also say that the spirit 
of Boston strong--is Paris strong right here in this Congress.
    I am also Members of both of these, I am a Member of both 
of these committees, and have seen that the work we do, the 
bipartisan work that we do in both committees, has been 
constructed in the past, and will be constructed in the future. 
I saw in the wake of the Boston Marathon bombing that the work 
this committee did resulted in changes that have made our 
country more secure.
    Along those lines, a small group of us did go to look at 
the issue of foreign terrorist fighters and their travel just a 
few months ago. We went to France, we met with the officials 
there who are indeed very well-skilled and aggressive. But we 
met with Belgian officials, we met with NATO officials, we met 
with people from Berlin, and we met with officials from the 
Istanbul airport, as well as going to Iraq.
    We released the report today along those lines that I think 
is very important. But I am going to focus on one area of that 
report, because of the time limits of this hearing. You know, 
we are looking at so many issues that are daunting, seemingly 
overwhelming in this fight against terrorism and ISIS.
    But there is one area that I think that we can move on 
immediately, and have immediate safeguards, not just globally, 
but here in the United States as well, and that is the issue 
that is highlighted in the report, the series of issues. I will 
just name a few of them. But one of them clearly is the delay 
in dealing with the issue of air safety and air travel. 
Passenger name records, this has been languishing in the 
European Union now for a couple of years.
    What we do routinely to cross-reference lists of passengers 
against potential terrorists, they are not doing in a 
comprehensive way at all in Europe, where there is such an open 
portal. The report even states its most alarming failure of 
European states is to screen their own citizens against 
terrorist watch lists.
    Another area is their lack of information sharing that we 
saw that really is another weakness, not just globally, but 
back here at home. It was termed as ad hoc, intermittent, 
incomplete. It detailed a weak and patchwork system that 
exists, dealing with Interpol, sharing that information that is 
so vital.
    Then dealing with their border issues, which is another 
issue that came about, has been highlighted in the tragedy of 
Paris, is the lack of external border security in Europe, and 
how they are not dealing with that. It reveals border guards 
reportedly screen only 30 percent of E.U. passports for fraud 
when citizens go in and go out of the Schengen zone.
    So looking at these issues, and looking at the lack of 
security there, and things that can be corrected, things we do 
here in the United States and other countries, I want you to 
talk, if you could, about the risk that these gaps really 
present, not only to Europe, not only globally, but here in the 
United States as well, if you could.
    Mr. Olsen. Well, I really couldn't agree more. I haven't 
had a chance to review the committee's report, but those issues 
that you identified--the air safety, information sharing, 
external border control--these are issues that we have dealt 
with in the United States, certainly since 9/11. Huge 
investment in all these areas. Coming from the National 
Counterterrorism Center, our jobs largely revolved around 
pulling data together. Sharing that information. Enabling the 
watchlisting to take place with regard to transportation safety 
and airline safety.
    We have worked closely, I know over the last several years, 
with our European partners to try to instill the importance of 
adopting some of these best practices. I think there is still 
lagging behind as you suggest. I also would suggest that this 
does create a vulnerability. Not just obviously in Europe but 
also here in the United States because of the ease of travel 
between Europe and the United States. So it is something that 
we need to redouble our efforts on in working with our European 
allies.
    Mr. Keating. Yes, Mr. Bergen.
    Mr. Bergen. Another kind is, what happened to Sharm el-
Sheikh? I mean, clearly it was an airport worker who got the 
bomb on the plane and there are 200 airports around the world 
where there are U.S.-bound flights. You know, the people 
working these airports are not being screened appropriately. I 
will give you one concrete example.
    A British Airways employee was in touch with Anwar al-
Awlaki, the leader of al-Qaeda in Yemen, in 2011 was planning 
to get a bomb on an American plane. Luckily he was arrested. 
But you can assume that there are other cases out there, 
airport employees in some of these 200 airports who have some 
animus against the United States or could be bribed or in 
someway induced to put a bomb on a plane.
    So Sharm el-Sheikh demonstrates a huge gap that needs to be 
closed.
    Mr. Keating. General.
    General Keane. It is really beyond my expertise Mr. 
Congressman. I am not dodging the question. I just--all I have 
been giving you is opinion.
    Mr. Keating. Yes. I think honestly, I will close with what 
you are saying. I don't think you need a great deal of 
expertise on these series of issues. It is common sense. These 
delays and lack of moving forward presents great risks here at 
home as well. If we are going to work as a coalition we have to 
work together.
    There are, to be fair, there are European countries, like 
France, that are sharing information, dealing with this. But we 
are only strong as our weakest link. I yield back.
    Mrs. Miller. Chair recognizes the gentleman from 
Pennsylvania, Mr. Marino.
    Mr. Marino. Thank you. Mr. Olsen. In 2011, Chairman King 
held a series of hearings on the radicalization of Muslim 
Americans. The committee released several findings, including, 
``There is a need to confront the Islamist ideology driving 
radicalization. There is not enough Muslim-American community 
cooperation with law enforcement. The terrorist threat to 
military is on the rise. Political correctness continues to 
stifle the military's ability to counter the threat.''
    What steps, if any, has the administration taken in regards 
to these findings and in your opinion, are these issues still 
evident today in the radicalization of Americans?
    Mr. Olsen. The challenge that we face with ISIS now, in 
terms of its propaganda and its really unprecedented use of 
social media platforms to mobilize, recruit, radicalize young 
people in the United States. It highlights the challenge that 
you identify in your question. How does the United States--what 
has the United States been able to do to help counter that 
message in order to really----
    Mr. Marino. But has the administration?
    Mr. Olsen. Absolutely. So, over the last several years, and 
we were part of this effort at the National Counterterrorism 
Center, working closely with the FBI, working with the 
Department of Homeland Security and the State Department, 
taking a number of steps to counter this message.
    But, one of the key parts of it is to work closely with 
neighborhoods and communities to make sure that they have the 
information to inform their own families about the way--about 
the dangers of on-line radicalization.
    Train police officers to identify the signs of 
radicalization so when they see an individual who may be moving 
in that direction, these local police departments. Remember, 
out of--in the United States the vast majority of our people on 
the front line are not the FBI agents but the local police 
departments and firefighters are going to be the first to see 
someone going down as fast as--putting money into training 
these individuals.
    But the problem, more to your question, is one that is 
ultimately is going to require neighborhoods, communities to 
solve, right? We are talking about working with Muslim 
communities, not making them part of the problem. So that has 
to be a big part of the solution.
    Mr. Marino. I agree with you on all that but is the 
administration doing that?
    Mr. Olsen. Yes.
    Mr. Marino. Is it doing it to an efficient level?
    Mr. Olsen. I think it--I think part of the--I think it is--
I think it could do more and I think part of the problem is 
resources.
    Mr. Marino. All right. General, I am going to skip right to 
the ``but'' part, okay? Let's cut to the chase here. The 
President does not want to be responsible for civilian deaths. 
He has had opportunities to arm Iraqis and Syrian men but chose 
not to.
    He constantly says ISIS is contained. Now, unless I am not 
grasping something here, the President has turned his back on 
this disaster. Do you truly believe that one person, i.e. the 
chairman of the Joint Chiefs, can influence the President to 
change his position and reverse his policies when his inept 
foreign policy advisers have controlled the President since Day 
1?
    General Keane. I honestly don't know. Obviously we have 
been frustrated with this policy and dealing with ISIS from the 
outset. I am absolutely convinced that the decision was made to 
provide the minimum amount of resources. I think that the 
President and the team around him was making a bet that this 
thing would not really get worse. They never used the word 
contain. They used the word degrade and then destroy and they 
changed that to defeat which is a better military term than 
destroy.
    I think they were just hoping that their minimal policies 
of involvement here would keep a lid on this thing.
    Mr. Marino. Okay.
    General Keane. But it hasn't and that is the reality of it. 
Now, your question is: Given what has taken place, will the 
President make substantive change to get a decisive result? I 
doubt it, to be frank.
    Mr. Marino. I do too. I am going to get to my next question 
here on state really. I agree with Chairman McCaul on stopping 
the refugees from coming into the country at this point. But 
nevertheless and I agree with the Chairwoman wholeheartedly. If 
that comes to be, why would we not stop men, physically healthy 
men, from 18 years of age to 50, to say, you go back. You 
defend your country. Now, we have to make some changes as far 
as what we suppply them with before we have Americans do it. 
Can you give me a response?
    Anyone on that? Do you have an opinion about that?
    General Keane. Well, I do believe that, at least when it 
pertains to Syria, when I saw a lot of the--who was part of the 
migration. I am assuming a certain percentage of that is 
Syrian. You know, all the films that we have all seen. I think 
the expats who were trying to determine what that pool is. I 
think Syrians represent about a 30 percent of it. There are a 
lot of young people there.
    I do know for a fact because we tracked the Syrian 
military. The Syrian military used to be about 220,000. Now, it 
is about a 100,000. They have a high desertion rate. They have 
low morale. Their equipment isn't very good. So, some of those 
young people are--don't want to join the Syrian military and 
they are leaving because they want a better way of life.
    I would rather have them join the Syrian opposition for us 
to deal with that. Going back to the basic question, we have 
said this before. I mean, if we have a documented youngster in 
front of us and he is part of this pool that we are looking at 
and we have no evidence that would assure us that he is not 
involved somehow, then I don't know why we would take him.
    I mean, I will leave that up to the experts that are 
dealing with it. But on the surface of it, just using some 
common sense, I think that is the kind of common sense we have 
to have in working through this thing.
    Mr. Marino. Yes, but times have changed at this point. We 
just cannot have our doors open under these circumstances. I 
would rather protect Americans before anybody else. With that, 
I yield back.
    Thank you Chairman.
    Mrs. Miller. Chair recognizes the gentleman from Rhode 
Island, Mr. Cicilline.
    Mr. Cicilline. Thank you Madam Chair and thank the Chairman 
and the Ranking Members for calling this very timely hearing. I 
thank the witnesses for their very useful testimony.
    I want to begin with--you know, I think, I appreciate the 
witnesses and in particular your attention to our refugee 
policy and how it reflects our values and frankly what a change 
in that policy would mean in terms of ISIS's ability to recruit 
and to continue to engage in terror around the world.
    So I want to first ask whether or not any of the witnesses 
think there are improvements or adjustments that should be made 
to the existing, sort-of new policy that you mentioned Mr. 
Olsen.
    Are there things that we should do in addition to this very 
comprehensive vetting, multi-agency, multi-layered process that 
you think are worth considering at this point?
    Mr. Olsen. You know, I don't know of anything off-hand to 
be perfectly frank. I--you know, I think--I assume that the 
professionals that are responsible for this program are doing 
everything that they think is prudent.
    The one issue and this has been highlighted before and it 
actually cuts against the program, which is the lack of 
intelligence in some case, about these individuals. That is an 
issue. As you look at somebody, if you don't have good 
intelligence coming out of Syria, it is going to be harder to 
make some of these judgments.
    So, the one thing I would say in response to your question 
is, if we--the more we can do to collect intelligence, the 
better our vetting process is going to be.
    Mr. Cicilline. Anyone else?
    Mr. Bergen. Yes. I mean, an observation here. We have taken 
2,200 refugees. I have seen reports that 2 percent of them were 
military aged males, so that is 44 people. Given the far how 
desperate these people are, could you imagine a situation where 
you gave people who did come in some form of probationary 
release and some sort of supervised level of supervision that 
most refugees don't have.
    I mean, I think people are desperate to come here and they 
would basically agree to that if that was something that was 
seen as desirable. But the point is that very few military-aged 
males are being lead in under this program.
    By the way, when there has been a deadly jihadist terrorist 
attack in the United States, it is by an American citizen or 
resident. The Soni brothers came to this country as refugees 14 
years before they did the attack and they were--one was an 
American citizen and one was an American resident. So we should 
keep that in perspective.
    Mr. Cicilline. Thank you.
    General Keane. I don't have anything to add to that.
    Mr. Cicilline. Thank you, general. In part of the briefing 
materials that we received from the committee, it reveals that 
there are 40 Americans that have returned home to the United 
States after traveling to Syria and engaging with or pledging 
allegiance to jihadist groups. But that only 5 had been 
arrested.
    I am curious to hear. If you could give us some assessments 
to why that is. Is simply engaging with a jihadist group. 
Shouldn't that, if it is not already, be a crime? If it is 
sufficient to DOJ, the additional authority. Does Congress need 
to take some action? Why is that those individuals that have 
gone to Syria returned after engaging or pledging allegiance to 
jihadist groups are not?
    Mr. Bergen. That is a slight misunderstanding, sir. The 40 
that have returned, as Director Clapper said in March publicly, 
that many of them had gone for humanitarian purposes. Anybody 
that has been determined to be associated with a jihadi group, 
and that includes groups other than ISIS, has been arrested.
    Mr. Cicilline. All of them?
    Mr. Bergen. Except in one exception. There was one--there 
was a Floridian, a guy called Mohammad Abu-Salha. He worked for 
al-Qaeda. He came here. He lived in this country. He went back 
to Syria and conducted a suicide attack.
    There is one other person associated with ISIS who had some 
plot potentially to attack a military base in Texas. He has 
also been arrested.
    So the 40 number is people who came back, most of whom were 
just there for humanitarian purposes.
    Mr. Cicilline. I think people would be very interested to 
hear, as we learn that these individuals in France were at 
least identified, or some of them were known or identified to 
authorities there, but either were lost or were not tracked. 
Can you in this sort of a setting provide some assurance as to 
what individuals who come back from Syria that are of interest 
to the U.S. Government are either tracked or closely monitored 
in the way that maybe did not occur in France?
    Mr. Olsen. My understanding is that the FBI, and I have 
seen this first-hand, devotes an enormous amount of resources 
to tracking an individual they can identify who has traveled, 
tracking them through surveillance, through electronic 
surveillance, through other means.
    What I think has--and the French are quite good at 
counterterrorism. The difference really is numbers. The 
European services are essentially overwhelmed by the numbers. 
They don't have the level of resources placed into their 
counterterrorism efforts as we do in the United States.
    But the number of foreign fighters returning when you think 
of is just a different scale. It is a different order of 
magnitude. Four thousand plus versus 200 or so here who have 
left. So that just creates a very different situation.
    Mr. Cicilline. General, I just have a couple of seconds 
left. If you could just expand a little bit upon the argument 
you made about our refusal--our change in policy with respect 
to refugees fleeing the violence in the Syrian civil war, how 
that might actually advance the cause of ISIS and provide them 
with an opportunity to recruit and to use that on social media. 
Could you explain a little bit of that?
    General Keane. Yes. You mean the--I mean if we just 
summarily rejected them?
    Mr. Cicilline. Yes.
    General Keane. Yes. Certainly.
    What that does is provides them--it falls right into their 
sweet spot in terms of the argument that they are making that 
Muslims are being alienated, that they have just grievances 
against the host countries that they are living in. These are 
the people that they are seeking to bring to the movement, to 
radicalize them, to provide them with some inspiration to, as 
mostly second-generation youngsters, to do something about 
their life, to have a sense of purpose, to address the 
grievances in a radicalized, violent way.
    These things will happen without--whether we say yes or no 
to this policy change or not. But all it would do, in my mind, 
because it is America and everything we say and do gets known 
pretty quickly around the world, that they would just--they 
would exploit it. They would say see, even America, they have 
this problem you know with Muslims.
    I am pretty confident that that is not what we are going to 
do. The people in this room that I think are on the right path 
you know to let's take a look and make sure, given we have a 
change in the circumstance, that we do believe that people may 
in fact be infiltrating the refugees. Let's put together a 
program that is prudent and reasonable to safeguard the 
American people. I think we can do that.
    Mrs. Miller. I thank the gentleman.
    Mr. Cicilline. Thank the Chair and I yield back.
    Mrs. Miller. The Chair now recognizes the gentleman from 
Arizona, Mr. Salmon.
    Mr. Salmon. Thank you.
    Mr. Olsen, in your opinion, why is Saudi Arabia not taking 
any of these refugees?
    Mr. Olsen. I don't have a view on that. I don't know----
    Mr. Salmon. Anybody?
    Mr. Olsen. I don't know that they are or not----
    Mr. Salmon. I think it is just quite odd, given the fact 
that they have so much vested interest in the outcome of this 
conflict that they are refusing to take any refugees. Does 
anybody have an opinion on that?
    General Keane. Yes. I agree with you. I mean just in asking 
the question you are troubled by it. I think all of us are 
troubled by it.
    Here is one of the things that has happened. I mean the 4 
million refugees that currently exist in the region, they are 
in Lebanon. They are in Turkey and they are in Jordan. Those 
countries are all burdened by this.
    Mr. Salmon. Agree.
    General Keane. One of the things we can do is leverage 
Saudi Arabia and other countries to at a minimum to help 
increase the support, the financial support for that.
    What has happened and I think you can appreciate this. I 
mean, many here have been to refugee camps and you understand 
the challenge of living in a refugee camp. When it gets to be 
4-plus years and you don't see an end to the conflict that is 
in your country, there is this sense of hopelessness.
    I think once it was established that there really was an 
alternative life someplace else, not a temporary one, a 
complete life reversal. They realized that when some 
exfiltrated into Europe then those floodgates opened.
    We have lost a lot of our influence with our Sunni allies 
in the region over this nuclear deal. We have two issues. No. 
1, what that did. No. 2, in terms of losing leverage with them. 
Second, they don't believe that we are prosecuting this war 
properly.
    Mr. Salmon. Right.
    General Keane. That is the second reason.
    Let me give you another example of how far this has gone. 
There are four countries that are buying arms from Russia now. 
I talked to 2 of the officials in those 4 countries.
    This is Saudi Arabia, Kuwait, the UAE, and Egypt. In Egypt 
the Russians actually have training assisters working against 
ISIS helping them do it, a role that we have traditionally had 
for now for 30 years.
    So I asked the officials, why are you buying Russian 
equipment? Do you have some fascination about Russian 
equipment? I sort-of knew what the answer was, but I wanted him 
to tell me.
    He said no, we normally buy American. We normally buy 
selected European equipment. We are buying Russian equipment 
not because we want the equipment, but because we want the 
relationship.
    Mr. Salmon. You know I agree----
    General Keane. So that is what has happened to us. This, 
the influence we had in that region among those Sunni states 
was considerable. They do not find us reliable.
    They actually do not trust us, and that is a difficult word 
to say. But that is a word that they use. We don't have the 
leverage to do some of the things that we want them to do 
humanitarian-wise.
    Mr. Salmon. I agree that I think a lot of it is because we 
bungled this thing from the get-go in the region with ISIS. I 
have 3 questions, general. I am going to address them all to 
you and I am going to get them out there.
    First of all, by not going all-in, as you have suggested--
and by the way, I agree exactly with you that the Congress 
needs to weigh in a lot more on this issue and that we should 
address an AUMF. I agree with you on both counts.
    By not going all-in to win, are we making the 50 troops 
that are committed to the region more vulnerable? That is my 
first question.
    The second one, are you convinced that the administration 
is utilizing senior military leaders' best advice on this 
strategy?
    Then finally, are we losing a valuable asset by bombing 
ISIS individuals and targets instead of capturing ISIS 
leadership in order to gain intelligence?
    Those are my 3 questions.
    General Keane. Yes. In terms of our soft guys you are 
talking about in Syria, no, I think they will be fine. Not to--
not a risk associated with that.
    I don't know what is happening and why we made this 
announcement. These guys have been there doing this kind of 
work for some time. Maybe we just want to take credit for 
something that in the past had been Classified, but obviously 
it is no longer.
    They have had some impact on the Syrian Kurds and on the 
small group of Sunni Arabs that are in that area. They were 
instrumental in helping to take back that territory.
    If I had a map here, if you look at the border from the 
Euphrates River Valley where it enters from Turkey into Syria 
all the way to the Iraq border, that border is now cleaned of 
ISIS. That is obviously Kurdish territory.
    Our people that were there helped to facilitate that and 
the planning in how to do that, and also facilitated the use of 
air power. That air power is much more effective.
    They are very good at taking care of themselves and I am 
confident they will be okay. What we need is a lot more. 
Obviously that number is a very small number, regardless of 
what the mission is.
    In terms of capturing, this is something we did routinely 
in Iraq and Afghanistan. You know the night that bin Laden went 
down in Pakistan I think we had 8 to 9 hits that night in 
Pakistan, which were usually routine, to go in and first and 
foremost always in Afghanistan, and we do the same thing in 
Iraq, is to try to capture.
    If we couldn't capture then because there was a threat you 
know to the people that were conducting the attack, then they 
had to kill. But in most of those operations we got so good at 
it that on 85 percent of those operations in the last couple of 
years of it no shots were ever fired because we were able to 
achieve so much surprise.
    What that does for us, it was an explosion of intelligence 
value because you are talking about leaders. They have huge 
value. What they have on them, but more importantly what we can 
get from their head when we start talking to them. It was 
incredibly valuable to us.
    Largely we are not doing that here. I think it is the--I 
think they have some of the--we got to take the gloves off of 
it. I think they are shackled because of the increased risk of 
the operation, et cetera.
    But that is a very important part of what our--what we 
should be dealing with. High-value targets, is the term that we 
use to describe that. We should get back to capturing more than 
we kill.
    The problem we have here, and I think you know it, is the 
administration has held back our Special Operation Forces from 
doing operations where they are on the ground routinely doing 
these kind of missions. So to capture somebody you got to be in 
the building to capture them.
    If you know there are bad guys in a building then you can 
use a drone to kill them. That is what we are doing. Or if they 
are in a car, we are hitting them with a drone. That has become 
the preferable way to deal with a high-value target in Syria or 
Iraq. That was not the preferable way we dealt with it in 
Afghanistan or Iraq when we were there the first time. The way 
we dealt with it is to try to capture them. That should change.
    Mrs. Miller. Thank you. The Chair recognizes the gentleman 
from California, Mr. Bera.
    Mr. Bera. Thank you, Madam Chairwoman. As with everyone on 
this committee, and throughout the country, our thoughts and 
prayers go to the victims of these heinous attacks in Paris. 
But it is that reminder that we are in this long conflict and 
war against terror. This is--make no underestimation--this is a 
long haul fighting against these terrorists who want to hurt us 
and want to kill us.
    My question is going to be directed to Mr. Bergen. You 
know, this is much more than just a traditional ground war, 
ground operation. This is counterintelligence, 
counterterrorism. We can, and have been, successful killing 
ISIS fighters in Syria. I believe the number is we have killed 
over 10,000 fighters.
    But the problem is we are losing the recruitment war. We 
are losing the propaganda war. It is my belief--and I brought 
this up in committee previously--that they are using the tools 
of the internet, social media, et cetera, to recruit foreigners 
to continue to replace these individuals. If we don't win that 
battle on the front, we can kill them in Syria, but if they can 
continue to replace these fighters, that is a bigger threat. 
Because once they are there, if they are U.S. citizens, if they 
are European citizens, it is a very time-consuming, difficult 
task to prevent them from coming back.
    Mr. Bergen, what would your recommendations be, your 
assessment on that propaganda war, on whether we are doing 
enough on the front end to prevent these recruits, so we don't 
have to fight them on the back end?
    Mr. Bergen. I agree with that assessment, because estimates 
of 10,000 fighters being killed, and the estimates of 1,000 
foreign fighters coming in every month, I mean, sort of a 
stalemate in terms of recruitment.
    You know, I think one thing that is useful is social 
pressure on social media companies. So every social media 
company--a lot of these immature companies, recently born, they 
tend to have--they don't want the Government telling them what 
to do, kind of an ideological frame.
    We have seen the Facebook was quite effective in enforcing 
its own terms of use. The terms of use of these companies are--
you can't put material on your site that solicits for acts of 
violence. So all they have to do is enforce their own terms of 
use. We saw Twitter was initially reluctant, and now is 
beginning to do that.
    So, you know, it is not just the government by fiat saying 
you have got to do that, it is also just sort of social 
pressure. That will be pretty effective, because if the violent 
and Jihadi content doesn't exist, then it is not going to 
incite people to be recruited. So I think there is something to 
be said. Hearings like this, does it make this kind of clear 
that this is something that these companies should be doing?
    Then there--then it becomes a harder issue with this 
question. ISIS is telling people to use TOR, which is the 
darknet. It is instructing people to use Android phones, which 
are the most secure phones. It is instructing the U.K.--
WhatsApp and these other encrypted anonymized applications.
    How do you deal with that? I just don't know. It is such an 
observation, but it is happening. Once we have identified the 
problem, then we can start having a conversation about what to 
do with it. But even if the United States Government said all 
these companies should basically allow a back door, that 
doesn't--there is an application called Telegram which is based 
in Germany. ISIS is using that very heavily.
    So even if we do say to all tech companies, ``You have to 
put a back door in,'' that doesn't prevent other companies 
around the world from just going ahead and doing their own 
thing.
    Mr. Bera. Well, Mr. Bergen, you have identified some of the 
challenges that we have. So we know what we are facing, we know 
the challenges, and we know places where we are losing, and 
they are winning on this recruitment war. We have to double 
down. There is an urgency of now, because we can fight them 
over there, and we should fight them over there, and kill them 
over there, and keep them over there in Syria.
    But they are also using these tools of communication to 
recruit individuals who want to harm us right here. If we are 
not using everything with our means to prevent that, we are 
going to be attacked, and that is a problem. That is a concern 
I have with the administration, that we are not doing enough on 
that front.
    General Keane, you would agree with the assessment that 
this is a long-term engagement. This is a long-term battle 
against terror that is not a traditional ground campaign. 
Anyone who thinks this is a traditional ground war, where we 
are going to send 50,000 troops in, is mistaken.
    General Keane. I agree with this. I mean, I think we are 
involved in a multigenerational struggle with radical Islam. I 
think it dominates--it will dominate the first half of this 
century, much like communist ideology dominated the latter part 
of the 20th Century.
    You know, what is sad, in my judgment, is that--and 
frustrating--you know, we are 14 years from 9/11, and we have 
never had a comprehensive strategy to deal with the entire 
rubric of what radical Islam is. It is far too long after 9/11 
to still, through two Presidents, a Republican and Democratic 
one, that we have not formed the kind of political and military 
alliances that we did to deal with communist ideology. We 
should have regional global alliances to deal with this.
    In terms of the long-term nature of radical Islam, its 
ideology, et cetera, this is not something we can do from 
America. This is the people who are dealing with this directly 
have to be a part of all of that. ISIS, however, and what it 
represents in Syria and Iraq, that is a problem we can handle 
much more in the near term.
    There will be another ISIS to be sure if we don't do the 
big issue. But that is something that we can deal with, and 
should deal with, and move with a sense of urgency, and a sense 
of resolve and commitment to do that. Don't get trapped into 
the fact that--and I believe this is an error the President has 
made--that, well, this is going to take multi-years to solve.
    The fact of the matter, think of it this way: ISIS is--what 
differentiates ISIS from any other terrorist organization we 
have dealt with, is that they own territory. From that 
territory, they are able to do all these other things that we 
are concerned about. But the fact that they own territory is 
also their greatest vulnerability. Owning territory for ISIS is 
no different than Germans owning territory, the Japanese, the 
Koreans. You can physically take it away from them.
    Mrs. Miller. Thank you. The Chair will advise, before I 
recognize the next Member, we are going to be voting in about 
10 minutes, and we still have several people to ask questions 
here, so if we could stay to the 5-minute rule as closely as we 
can. The Chair would recognize the gentleman from Pennsylvania, 
Mr. Barletta.
    Mr. Barletta. Thank you, Madam Chair. The 9/11 Commission 
report, which I talk about often, usually carry it with me to 
Homeland Security meetings, that report, and those 
recommendations, the Congress, they made it very clear. By the 
way, Congress passed those recommendations, and the President 
signed them. I think we have ignored a lot of those 
recommendations that were in there.
    But it made it very clear that terrorists want two things; 
they want to enter the United States, and they want to be able 
to remain there until they carry out their mission. They are 
not going to hesitate to take advantage of any distinct 
weaknesses that we have in our immigration system to get here, 
which is why I have always called for a full implementation of 
the biometric entry and exit, which was a recommendation in 
that report, so that we know not only who came into the 
country, but we know whether or not they have left or not.
    This committee and Homeland, we have heard from National 
security experts who have testified that we have no ability to 
screen individuals in Syria. We have no credible partners. 
There is no system in place to gather credible evidence.
    We also have to look into fixing our Visa Waiver Program. 
There are 38 countries that are members of the Visa Waiver 
Program. Citizens of those 38 countries can visit for up to 90 
days. They don't have to obtain a visa. They don't have to 
undergo an in-person interview. Again, remembering that 
terrorists want to enter, and then they want to be able to 
stay.
    Couple this with the visa overstay situation. I see that we 
have a real problem. Nearly 50 percent of people who are in the 
country illegally, they can cross a border illegally. They come 
on a visa and disappear. We can't find them.
    The Islamic State has promised to attack us. They said 
American blood is the best blood, and that they will taste it 
soon. I believe them. So given that we don't know who they are, 
we can't screen them properly, we know that one of the Paris 
attackers came in as a refugee, so we believe, and that the 
President is insisting on admitting 10,000 more Syrian 
refugees, I would like each of you to answer, how can we be 
assured and assure the American people that there won't be ISIS 
fighters hidden among the refugees coming into this country? 
How do we separate salt from sugar?
    I understand the refugee program is a great program to 
bring people here. But how do we separate the salt from the 
sugar? How do we reassure the American people, without a 
screening process in place in Syria? General Keane.
    General Keane. Well, I think Director Olsen gave us the 
best explanation of that entire process. You may not have been 
here for that, but he took us through what that is; an 18-month 
process of screening, which gives you, I think, reasonable 
assurances that someone is not here for the wrong reason, but 
doesn't give you perfect assurances. That, I think, is likely 
impossible.
    Mr. Barletta. Excuse me. But isn't it different in Syria 
than it is in other--where are the records? Assad is not going 
to share any information with us. So the screening process in 
Syria, I wasn't here for that, so maybe you can enlighten me. 
Would the process be the same in Syria as it is somewhere else, 
when we don't have a credible system in place? We don't have a 
partner in place to share information. Where would we be 
getting the records from?
    Mr. Olsen. Yes. Well, the process is the same. In fact, the 
process has been augmented since--over the last several years. 
We have learned a lot from the process of vetting Iraqi 
refugees. So the process now does include all the database 
checks from the intelligence community, the FBI, the Department 
of Defense. It includes interviews, actual in-person 
interviews. It includes the collection of biometric----
    Mr. Barletta. Nobody is going to admit in an interview that 
they are associated with ISIS. So that is not----
    Mr. Olsen. Some of the--you know, from what I have seen, 
some of the best trained State Department and Homeland Security 
professionals are involved exactly in this program. So they are 
trained to really make a discerning judgment about somebody 
based on the answers they give. As General Keane said, 
certainly, somebody who has got no background, no records, no 
documentation----
    Mr. Barletta. If they committed a crime there in Syria, 
where would those--where would we get the records from?
    Mr. Olsen. So there is--one--I mean obviously you do raise 
a point about the challenge of underlying information. So there 
isn't as much information, for example, about someone seeking 
refugee status out of Syria than from any other country.
    Mr. Barletta. So it is much too risky. It is much more--
there is much more risk because we have had 4 National security 
experts, two from the FBI, tell us that we don't have a system 
in place there. It is very difficult to get information, 
records, and to really know who these people are.
    So my question goes back to how do you separate the salt 
from the sugar? I don't doubt that many of the people that we 
are going to let in are going to be good people. But I am 
worried about the salt part.
    Mr. Olsen. Yes. Well, the way you do that is through a very 
rigorous process, the process that I laid out----
    Mr. Barletta. But if the process is flawed, how do we 
assure the American people that they don't have to worry?
    Mr. Olsen. You know, I think as General Keane said, and as 
I said earlier, there is no process that is going to be 100% 
guaranteed. So there is always going to be some degree of risk. 
What you want to do is adopt a process that mitigates that risk 
to the extent that it is practicable.
    Again, it is an area, obviously with appropriate 
oversight----
    Mr. Barletta. I think until we fix that process there I 
think the American people right now aren't comfortable. They 
are not comfortable with hearing well, we are pretty good, but 
we don't have all the information.
    We are asking them to trust us that we are not going to see 
here in America what they saw in Paris. Quite honestly, I don't 
feel good myself. Thank you.
    Mrs. Miller. I thank the gentleman. The Chair now 
recognizes the gentleman from Pennsylvania, Mr. Boyle.
    Mr. Boyle. Thank you, Madam Chair. I have 3 questions. I 
think that it would make most sense to direct these to Peter 
Bergen since some of it is drawn from his testimony, or having 
read his written statement.
    First is I find it ironic that not just here at this 
hearing, but in the mass media, for instance Friday, so much 
focus has been on the 2,200 refugees that were coming from 
Syria when actually it seems to me that the much more acute 
problem is the problem of home-grown terrorism in Europe. These 
are in the overwhelming majority.
    While we don't have all the evidence, the overwhelming 
majority of those who perpetrated the attacks in Paris were 
European passport holders, primarily French and Belgian. This 
is not the first time.
    This is it seems to me, an acute problem that I don't know 
what the answer is when you are talking about citizens who have 
the full rights of citizenship of Euro countries. Yet because 
of either ancestry or familial ties, feel the compulsion to go 
down the direction they have had.
    So I would just ask Mr. Bergen what your recommendations 
are on how we deal with this problem. Then I will transition 
more to how it affects the United States in a moment.
    Mr. Bergen. I think your assessment of the problem is 
correct. I mean you only have to think back to Richard Reid, 
the so-called shoe bomber, who was a British citizen, who tried 
to blow up an American plane flying between Paris and Miami a 
few months after 9/11.
    So you know I mean I am not an expert on the Visa Waiver 
Program. I know that DHS has tightened up the requirements for 
people who are in the Visa Waiver Program, and there is a lot 
more porting of information. But clearly that is a potential 
problem.
    But on the other hand, you don't--you know we benefit, we, 
the United States, benefit tremendously from having tourists 
from around the West coming here and business people coming 
here and being able to travel easily ourselves to these 
countries without ourselves encountering a very elaborate visa 
kind of process.
    Mr. Boyle. Your answer reflects the same sort of tension 
and challenge that I find within myself in trying to deal with 
this enormous problem.
    The second is, and it is related to this. We have also 
focused, and I say we, not just Congress, but as a society we 
have focused a great deal on the challenge of those who have 
left America, become radicalized, gone to Syria to fight and 
might come back to our shores. Again, I find that the much more 
challenging issue.
    I think the FBI Director Comey even has talked about this. 
I think the much more, again, acute problem is those who are 
loosely affiliated with jihadi groups who become self-
radicalized here in the United States and then go about and 
act.
    I read--to quote specifically from your testimony, ``acts 
of violence by Americans inspired by both no direct connection 
to the terrorist groups in Syria pose a more immediate 
challenge than attacks by returning fighters from Syria.'' So I 
was wondering if you could expand upon that.
    Mr. Bergen. I am not going to abjure my own testimony. But 
you know I mean--you know it is useful to look at the Somali-
Americans who went to Somalia. They are mostly from Minnesota.
    There was a great concern they would come back and they 
would do something in the United States, and none of them did. 
The reason for that is half of them got killed over there 
because a very dangerous war, and some of them committed 
suicide and suicide attacks.
    So I think your--we should--the focus in fact is--I mean we 
saw in Garland, Texas people who were inspired by ISIS who had 
some direct communication over Twitter with ISIS fighters. We 
have seen you know a number of these cases. There were some--
they also have a natural ceiling because they tend to be lone 
wolves. Lone wolves have--you know it is not a huge network as 
we saw in Paris.
    Mr. Boyle. Right.
    Mr. Bergen. You know, there is a certain kind of ceiling to 
what they can do. But it is a real concern.
    Mr. Boyle. Then finally having--while being one of the 
younger Members of Congress, I am old enough that have very 
vivid memories from being here and working in the private 
sector during 
9/11, and also being here the following year when we had the 
D.C. sniper.
    While 9/11 had the, obviously the psychological impact and 
is still remembered vividly today, in terms of changing the 
behavior of ordinary Americans' lives, actually the D.C. 
sniper, just two individuals with a truck and a shotgun, ended 
up affecting the normal lives of suburban residents of this 
area to a much greater extent than 9/11 did. So my primary 
worry continues to be these soft targets that are essentially 
low-tech, low-imagination, but much more difficult to protect.
    With that, I will yield back.
    Mrs. Miller. We thank the gentleman for his question. The 
witnesses can answer for the record. In the interest of time, 
since the vote has been called, the Chair now recognizes the 
gentleman from Georgia, Mr. Loudermilk.
    Mr. Loudermilk. Thank you, Madam Chair.
    General, I appreciate the map here. It is very informative. 
From the map it doesn't appear like we have ISIS contained very 
much.
    Quickly--a couple of quick questions. I will stay within 
our time period. What type of planning, logistics, 
communications, C3I would it have taken to plan and execute the 
Paris attack for ISIS?
    It appears to me it is much more than just a lone-wolf 
attack that we usually see from like a CVE radicalization 
locally. I mean how much logistics and planning and training 
did that attack, in your opinion, take?
    General Keane. Yes. Well, certainly it begins with somebody 
who is in charge. Then target selection based on 
reconnaissance. How much time is it that they--do they want to 
incur, certainly. There is obviously also some training 
involved. People have to know how to use the weapons that they 
have.
    Most significantly I think what was--what we saw there for 
the first time was the introduction of suicide vests. I mean I 
think the French police will determine you know how that was 
done, who made those bombs that turned that into a suicide 
vest, which is a skill set all of its own.
    So obviously there is a lot of planning that took place in 
here and coordination. They tried to do these attacks you know 
near simultaneous. That is a level of detail also to do 
something like that.
    It is, as I mentioned before, very significant that they 
were able to maintain operational superior OPSEC, as we call 
it. Particularly when they--you knew the French police and 
intelligence services were expecting something at the two 
previous attacks.
    Mr. Loudermilk. So there was an element of command and 
control, training, logistic----
    General Keane. All of that. All of the elements of actually 
a much larger campaign are there in a very small way, but all 
in a very critical way to be able to do that.
    All of these people, I mean they obviously have lives that 
they are trying to live as well. I would assume some of them 
had jobs or whatever. They had you know connections to others. 
The operational security that they are maintaining and doing is 
a very big thing, the biggest thing they are ever going to do 
in their life, which is going to be the end of their life.
    Mr. Loudermilk. So you--really----
    General Keane. Yet they didn't--if they shared it with 
somebody, they also were part of the operational security. So 
they had a certain amount of discipline about themselves to be 
able to do this.
    You know a Major Hasan is one thing at, you know at Fort 
Hood. And----
    Mr. Loudermilk. More of a lone wolf, radicalized local----
    General Keane. This is a----
    Mr. Loudermilk [continuing]. On himself.
    General Keane. This is a cell----
    Mr. Loudermilk [continuing]. Right.
    General Keane [continuing]. That worked together as a team 
that I am sure some members had various functions that they had 
to perform, and put together you know a complex operation which 
is what this was.
    Mr. Loudermilk. It took operatives in country that were 
skilled, trained----
    General Keane. I don't know where they got their training. 
We will leave that to the French intelligence services. I am 
sure they will get all of this at some point. It will be 
revealed to us in terms--because they have captured some 
people.
    Mr. Loudermilk. Right.
    General Keane. I think we will understand a lot more about 
it than we know today. But the basic elements had to be there 
for this operation to be successful.
    Mr. Loudermilk. But the question I want to get to is 
because of the resources it took, the command-and-control 
element, the training, the coordination, and everything.
    You go back to the onset of World War II, we saw an 
expansion by Japan until Jimmy Doolittle went in and he bombed 
Tokyo, which caused the Japanese to be concerned about their 
own territory. They were retracted. They weren't able to link 
up with the Nazis.
    Would we see the same thing happen if we were causing ISIS 
to be busy defending its own territory, would we see a 
retraction to where they have to realign their resources to 
take care of their own back home?
    General Keane. Well, I mean the logic of that is 
compelling. I would say yes, that is true.
    I mean to do that I think our strategy gave--has bought 
time for ISIS. I think that is why that map is revealing in 
terms of that has always been there, now they are executing it. 
Despite the fact that we said we were going--we intended to 
defeat them.
    The other thing is, and it is an important point to 
understand, the United States and the powers of the world are 
standing up against this organization and saying we are going 
to defeat it. They are standing right there in the face of all 
of that and defying it and are successfully executing their 
global strategy out of defiance in the face of that.
    What that gets in terms of additional recruiting is 
significant because of this sense of invincibility they are 
portraying to the world, and the sense of destiny that they 
have about themselves. That the people who already are having 
identity problems and grievance issues and a sense of isolation 
and wanting to do something purposeful and meaningful in their 
life, albeit as misguided as they are, are attracted to 
something like this.
    They can communicate with it on a regular basis. They can 
understand what it is thinking, what it is trying to accomplish 
almost daily.
    Every single day they put out 15 to 20 graphic photos that 
are very well done. This is daily. Plus all the narrative that 
goes with what they are trying to do. If you are plugged into 
ISIS or have some interest in it, you can--you get a daily 
pollution of what it is about.
    Mr. Loudermilk. Thank you, Madam Chair. Yield back.
    Mrs. Miller. Thank you.
    Because a vote has been called, and it is my understanding 
it is only 1 vote, we are going to take a brief recess. 
Chairman McCaul will be returning, as well as the witnesses, 
probably in about 20-30 minutes at the outside.
    So it is my understanding, as I say, a vote has been called 
on the House floor. Without objection, the committee stands in 
recess subject to the call of the Chair.
    [Recess.]
    Mr. Katko [presiding]. The committees will now come to 
order and we will now hear from Mr. Deutch, from Florida.
    Mr. Deutch. Thank you Mr. Chairman and thanks to our 
witnesses for being here and committing such a good part of the 
day to this important work. I am--I haven't been here for the 
whole hearing, but I want to walk through some concerns I have 
based on what I have heard today.
    The vile attacks that struck Paris cause us--the immediate 
reaction to these terror attacks is fear. It is appropriate and 
it makes sense. When my constituents call the office and their 
immediate reaction is, to want to know what the Government is 
doing to keep us safe, they are right to feel that way.
    When they know that there are--that one of the people 
involved, one of the attackers, one of the terrorists looks 
like he may have been a Syrian refugee, I understand that their 
initial thought is that we--is that that same thing could 
happen here.
    I understand why there would be a need to want to 
reevaluate the program and we should. But we have to be 
thoughtful about this. So much of what has gone on in this 
debate is not up to what Congress should be doing.
    The fact is, when we are trying to look at a program, a 
refugee program that--I know some of this we have gone through 
already, where the U.N. High Commission for Refugees refers 
people to the United States. If it is in the United States, 
then they are vetted by the Counterterrorism Center and the 
FBI's Terrorist Screening Center and State and Defense and 
Homeland Security and fingerprints and biometrics and all the 
rest.
    It is a very extensive process, but people are right if 
they are concerned, that they want to be sure that it is 
perfect. So, yes, I think it is appropriate for us to pause. 
But, here is what we should remember. Here is what seemingly 
missing from this whole debate.
    The fact is, we have heard it takes 18 to 24 months. So, 
what is it that we should be looking at? The United States has 
admitted 1,800 Syrian refugees. The administration says that 
half of those are children. A quarter are adults over 60. Two 
percent are single males of combat age.
    So, instead of trying to score political points and filing 
bills that would shut down our country to refugees, which is 
inconsistent with the values of the nation that we live in and 
we have heard that from both sides. Instead of moving forward 
and engaging in a big political debate about legislation and 
how to do this.
    Let's acknowledge that there is a system in place. Let's 
acknowledge that it is exhausted. Let's also acknowledge that 
it deserves to be reviewed. So, let's start by taking the 2 
percent of the single males of combat age and look at every one 
of those cases and let us have the benefit of the input from 
all the people who have done the screening to determine whether 
it has been done correctly instead of saying--that some of the 
things that have been said that are so inconsistent with who we 
are.
    Look, the fact is, it doesn't matter for the Syrians in 
Syria who are fleeing their country because they are either the 
victims of--or they fear being the victims of barrel bombs or 
chlorine gas from Assad or they fear being raped or murdered by 
ISIS.
    In either case, they are refugees and we have always opened 
our country to people who are fleeing. So let's figure out how 
to do this in a rational way.
    Let's acknowledge that people are afraid but then let's not 
make this a political point. Let's figure out how to do 
something that is actually consistent with who we are as 
Americans. All we keep hearing is, there is no database, there 
is no database.
    That is true. There is not going to be a database in Syria. 
So does that mean that we stop taking refugees forever if they 
come from--if they are fleeing Syria? Cause that is what--that 
seems to be the only solution that I have heard from so many of 
my friends on the other side.
    One of my colleagues said that these are people--excuse 
me--that the interviews are fine, except these are people who 
are adept at lying and deceiving. Well you know what? Let's 
start again by looking at single males that we are worried 
about.
    But let's acknowledge that a 5-year-old kid and his mother 
who are fleeing, perhaps having lost their father, that we are 
not going to go into that thinking, ``Well, unless there is a 
database that can show that this innocent child isn't somehow 
involved with terrorism, they can't come into our country.'' 
That is absurd.
    Let's figure out what we can do together, and let's stop 
making this the huge political battle that has been developing 
since Paris. We owe more than that, I think, to the American 
people.
    I would just ask our witnesses if--since we have already 
heard--I think all three of you have talked about what happens 
when fear wins. There was a quote in my local newspaper. When 
we allow ourselves to be frightened to the point of wanting to 
seal our borders, rejecting compassion, turning away vulnerable 
children whose homes have been destroyed, then the terrorists 
are succeeding because we are letting them.
    So what steps should we be taking now to both acknowledge 
that people are afraid, understandably, but that the answer is 
not to shut down our borders. Finally, when we talk about 
focusing on Syrian refugees, let's remember that if we really 
want to shut down our borders, the only way to do that, if we 
are going to go after the same people who committed these 
attacks in Paris, then that means closed--stopping flights from 
Brussels, and Paris, and London, and other places where foreign 
nationals have gone off to Syria and returned. Of course, we 
are not going to do that.
    Is there--and I am almost out of time, but can someone 
speak to the problem that Congress seems to have, where this 
has become this huge partisan fight, when it is really about 
keeping us safe, and being true to our values, both of which we 
are able to do simultaneously?
    General Keane. Well, I will take a stab. I mean, I clearly 
think obviously, most of us believe we are facing a crisis 
dealing with ISIS. I have always found dealing with any kind of 
crisis, that you need people around you that have good 
judgment, tempered, they are measured, but they also have a 
sense of trying to get the best results in a crisis.
    When you are dealing with something like this, there is 
such a tendency to overreact to it. A huge overreaction would 
be start sending combat brigades into Syria or Iraq. That is a 
significant overreaction, but some people will reach for that, 
because they are confident that will truly make a difference. 
So you try to find something that is going to make a 
difference.
    Then ISIS actually wants an overreaction. That is another 
thing. They want it in Europe, and they will take it any place 
they can get it; particularly, anything that will fragment the 
Muslim and non-Muslim population, and polarize it.
    Then the other thing is you have a tendency to get 
defensive. We close in. We don't want to over-police and 
trample people's civil liberties. We don't want to all of a 
sudden start shutting down our borders in ways that don't make 
any sense for America. We certainly want to continue a refugee 
program that makes sense to us for decades. But given the 
circumstances here, I think the Congress appears, in my 
judgment, to be taking prudent measures to look at that, and to 
put in place a process to sort of make some sense.
    At the end of the day, I think you have got it about right. 
I mean, we have got a 19-, 22-year-old youngster standing in 
front of us in that process, and we have no evidence one way or 
the other to support anybody's conclusion. It is likely that 
youngster probably doesn't get in. That is the reality of it.
    Mr. Katko. Thank you. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. Thank you, gentlemen, 
for your endurance today as we are addressing this really 
important topic. I was in the military for 26 years, flew the 
A-10, and been on all ends of the targeting process. Let me 
just say, and that includes from my own airplane, commanding a 
squadron, but also in leadership positions in the initial air 
war in Afghanistan, and then Iraq in 2003.
    I have been very critical, General Keane, as you, of the 
anemic air campaign we have been doing, and the rules of 
engagement, and tying our pilots' hands, where we are not 
allowing them to hit a target because there may be one civilian 
casualty, when we are clearly in compliance with the law of 
armed conflict. Then we go back with our bombs, and then we 
allow ISIS to reign terror on tens of thousands of civilians. 
That doesn't make any sense.
    We are just now starting to hit the fuel trucks, with A-
10s, by the way, the airplane that the administration was 
trying to mothball. But we are dropping leaflets first, because 
we are concerned the truck drivers might get hurt. But a 
million dollars a day are coming to fund their terrorist 
activities on civilian people. This has just turned all logic 
on its head.
    So I have been very critical, like you. We need to step up 
the air campaign. We have got to unleash American airpower, and 
we have got to kick their--we have got to destroy and defeat 
ISIS in Iraq and Syria. That was just my first comment.
    I have been serving on the task force that Chairman McCaul 
designated. Mr. Katko was our Chair. We worked over 6 months. 
We identified 32 findings, 50 recommendations across the board. 
This is a very complex issue. The risks are very high, and much 
of your testimony identified them.
    They are very broad. We have got the risk of people that 
would be flowing from Visa Waiver countries, 4,500 or so 
potentially coming easily into America to potentially be a 
threat. We have got the threat of the home-grown extremists. We 
have got investigations of 50 States because of the very 
sophisticated social media campaign.
    We have got the potential for individuals to come through 
illegally with fraudulent documents, you know, that are ISIS 
operatives, or potentially over our border. We also have 
potential for them to infiltrate the refugee program. These are 
just a few of the ways that they could reach out and really 
attack on American soil.
    So given those broad categories, could we just hear from 
all of your perspectives, which do you think is the most urgent 
and high-risk threat to us in the homeland of all those 
categories right now, starting with General Keane?
    General Keane. I don't think it is the infiltration of the 
refugee program. I clearly believe it is ISIS motivating and 
inspiring people in our country to take action against our 
country. I think the evidence of what has happened in the past 
already supports that.
    Ms. McSally. Great, thanks. Mr. Olsen.
    Mr. Olsen. I agree with General Keane. In fact, if there is 
one risk of the focus on the refugee program, is it takes the 
eye off the more significant risk, which is inspired attacks 
here, which we have seen, and the possibility of more 
significant attacks, like what we saw in Paris, occurring here, 
because potentially an operative is able to get here and--but 
these attacks, as coordinated and synchronized, and to a 
degree, complex as Paris was, it is not that hard, particularly 
when you--conduct--particularly when you consider the 
vulnerability of the targets----
    Ms. McSally. Mr. Bergen, any additions?
    Mr. Bergen. I concur. I think the insider threat, I mean, 
if you want to kill a lot of people, the best way to do that is 
put a bomb on a plane. So that is a vulnerability factor.
    Ms. McSally. I agree. Thanks for, you know, concurring with 
that. I think we as a body need to be addressing all of these 
threats. You know, we are addressing maybe one of them this 
week. But this is--we have got to address all of these threats, 
because countering that violent extremism, and making sure we 
are closing other gaps and loopholes is very important, in 
addition to our military campaign.
    My next question is, if we do step up our air campaign in 
Iraq and Syria, if we do actually squeeze ISIS in the territory 
that they own, as we look at their near area of influence in 
the rest of the region, what areas do you think--I mean, I 
think Sinai and potentially Libya would become their next 
destination of choice for expanding their operations and 
training individuals. That is my perspective. But I really want 
to hear from all of you where you think the next threat may be.
    General Keane. In my view, it would clearly be Libya. They 
have three different organizations, all ISIS-affiliated 
organizations in Libya. There is also not really an effective 
host country security situation in Libya. I mean, while at 
Sinai obviously had tremendous impact in being able to blow up 
a Russian airliner, there is an effective security force in 
Egypt that is pushing against that, that capability.
    In Libya, there is nobody pushing against ISIS's 
capability. So I think that is really fertile ground. They have 
put people on the ground there to assist them because of that 
potential.
    Ms. McSally. Great, thanks. Mr. Olsen, I assume you concur?
    Mr. Olsen. I agree. You can really map the growth of ISIS 
to those areas where there is a lack of governance. The four 
countries which are essentially failed states--Syria, Iraq, 
Yemen, and Libya--are places where we have seen ISIS make--and 
other groups----
    Ms. McSally. Great, thanks. My time is over, but I do want 
to say, Mr. Bergen, I look forward to talking to you off-line 
about the recruitment of girls and women. I appreciate the 
statistics in your report related to this unprecedented 
phenomena. We have young girls and women that are somehow--
think they are going to go find the men of their dreams, and 
instead, they are subjected to seventh-century sharia, Allah, 
sexual slavery, gang rape, and everything that goes with that. 
It is very much something I want to continue to figure out how 
we can try and stop here. So I appreciate your comments on 
that, and we will talk more off-line. Thanks, Mr. Chairman.
    Mr. Katko. Thank you, Ms. McSally. We are all shocked to 
hear you mention A-10 in your questioning here today. The Chair 
now will hear from Ms. Torres.
    Mrs. Torres. Thank you, Mr. Chairman. Thank you to the 
panel for your patience today. I know it has been a long 
morning, and lack of food, and a little bit of stress. I very 
much appreciate you sharing your knowledge with all of us.
    I would like to get your input, General Keane. As you know, 
the United States has joined the French in bombing ISIS in 
Syria. In your opinion, is an air campaign like this an 
effective strategy for dealing with the threats that we have?
    General Keane. Air campaign clearly has a role to play. 
Normally what an air campaign to do, if it is effective and you 
are able to have good targeting, you begin to contain an 
adversary. You begin to take DIF. We call it in the military, 
``freedom of movement.'' You begin to take away their tactical 
and operational initiative. But you can't defeat them with 
that.
    Mrs. Torres. Do you think U.S. ground forces are necessary 
in order to----
    General Keane. I don't think U.S. ground combat brigades 
are necessary at this point. There may be at some future point, 
and I hope it doesn't come to that. But I do think we need U.S. 
training and advisors, air controllers on the ground, and I do 
believe there is an absolute role, a critical role for special 
operation forces on a limited basis to conduct some large-scale 
raids where they have good intelligence.
    This would be combat, but it would be very limited combat. 
It would be in and out, lasting maybe a few hours at the most, 
maybe a day.
    Mrs. Torres. Thank you, general. Time is--I do have one 
more question. I would like for you to comment. Recent incident 
in Afghanistan in October, where U.S. forces unfortunately hit 
a hospital that was run by Doctors Without Borders.
    Is that collateral damage? Is that something that could be 
avoided? Just your opinion, sir, on that.
    General Keane. Well, we have got to wait for the 
investigation. But clearly it is a significant mistake. We 
don't target hospitals. But obviously somebody targeted that 
building, whether they knew it was a hospital or not. There was 
some potential justification for it.
    We don't know the answer to that. But that, in my judgment, 
was a significant mistake. We will get to the bottom of it. The 
American people will know about it. Certainly the organization 
itself deserves to get all the truth, as do the Afghan people.
    We have made mistakes like this before in Afghanistan where 
we have hit the wrong target. We have always, and I have 
watched this closely, been very transparent in getting to the 
bottom of it and revealing exactly what we did right and what 
we did wrong in this case. And----
    Mrs. Torres. Is that lack of intelligence on the ground?
    General Keane. Say it again?
    Mrs. Torres. Is that due to a lack of intelligence on the 
ground?
    General Keane. No. It was a--it is more complicated than 
that. This is a very dynamic situation. They were in firefights 
for hours dealing with that. Radio transmissions are going back 
and forth, where are they, what are we going to do about it? 
People are making very quick, dynamic decisions on what to deal 
with it.
    So it is not a case where people are sitting back trying to 
figure out what is the intelligence. These are people who are 
actually in a fight----
    Mrs. Torres. I apologize for interrupting you again----
    General Keane. That is okay.
    Mrs. Torres. I have a question for Mr. Olsen.
    Secretary Johnson and other National security leaders are 
very concerned about the possibility of an attack by someone in 
the United States. I am more concerned about the copycat 
individual that is out there.
    Our local law enforcement work very closely with our 
communities, and are truly the first responders and our first 
line of defense when it comes to protecting us from a domestic 
attack. How does the NCTC, which is the primary organization in 
the Federal Government for integrating and analyzing terrorism 
intelligence, work with our local law enforcement to make sure 
that they get the intelligence, Classified intelligence that 
they need to protect us?
    Mr. Olsen. Okay. So there are a number of ways in which the 
Federal Government, NCTC being a key component, but including 
the FBI and DHS work with local law enforcement. Much of those 
relationships are relationships that the FBI and DHS are on the 
front lines of working with police departments around the 
country.
    But one way is fusion centers. Fusion centers that can 
handle Classified information that are in many cities around 
the country that have both Federal law enforcement also local 
law enforcement as part of those fusion centers.
    There are products that are put out that are Classified 
that are designed specifically for local law enforcement. So 
they identify issues that local law enforcement particularly 
will confront. Then there are Unclassified products as well 
that NCTC puts out.
    So there are number of ways. It is a continuing challenge 
to make sure that local law enforcement has the information 
tools to understand information that is typically coming from 
overseas and is often Classified. So it is a continuing 
challenge.
    Mrs. Torres. It is a continuing challenge, and is equally 
important for the people in the intelligence community to 
understand our diverse communities.
    Thank you all very much. I am out of time. I will yield 
back my time.
    Mr. Katko. Chair recognizes Mr. Yoho.
    Mr. Yoho. Thank you, Mr. Chairman.
    Gentlemen, I appreciate your persistence.
    I have got two short narratives. One is to build on what 
Chairman Royce said about the procession or the convoy of the 
trucks that we saw on the news over and over again.
    I just hope if we see that again the immediate picture 
after that. This is dependent on the media, is a scorched line 
there where they are not moving with our vehicles. I think that 
would do well for the American people to see that.
    The other thing is the talk about keeping Muslims out. This 
is not about keeping Muslims out. It is about keeping 
terrorists out.
    You know being in a Constitutional free republic like we 
have, we respect religious freedom. That is something we always 
have to you know, remind the homeland, that if we believe in 
our Constitution, we believe in freedom of religion. We just 
want to make sure the people coming over here are who they say 
they are.
    With that, have any of you seen any coordination yet of any 
of the groups like al-Qaeda, al-Nusra, ISIS, all ganging up 
together or coming together as a single force? Or do you 
anticipate that? Gen. Keane?
    General Keane. Clearly there is--certainly is potential for 
that.
    What has happened certainly is this fundamental 
disagreement between al-Qaeda and ISIS. It centers around 
actually how they deal with people.
    Jabhat al-Nusra, who is a Syrian-based al-Qaeda 
organization, is fighting in Syria actually, largely has the 
support of the people that in the area that they are fighting 
because of their reach-out programs to that. You know they are 
not brutalizing, terrorizing, intimidating the people as ISIS 
does. That was part of the reason for the breakup.
    But listen, they are both radical Islamist organizations. 
We always have to be concerned and have a watchful eye about 
it. They do have common objectives. Certainly it is within 
anybody's reason that at certain times they could get together 
for near-term objectives.
    Certainly ISIS is opposed to the Assad regime and is 
fighting it at times. So is Jabhat al-Nusra.
    Mr. Yoho. Right.
    General Keane. They have a common objective there. But they 
are not fighting and coordinating their activities together.
    Mr. Yoho. Well, I just see this as it escalates that they 
come together because they say you know what, we don't have 
anything to lose and we need to join forces.
    Mr. Olsen, you were saying how that so many of the 
recruiting tools are over the internet. What can be done to 
shut down their social media in those areas? I mean if we know 
they are doing that, can we shut it down?
    Can we pinpoint where it is coming from and just say I--if 
we shut this down I know they are going to go round and find 
somewhere else. But if we can keep pinpointing stuff like that, 
is that a possibility?
    Mr. Olsen. I think there are probably 2 things to consider. 
One is really going after the source of the information, so 
going after the communication centers that are in places like 
Syria, in Raqqa, for example, where the media is produced.
    So, airstrikes, military action to take out those 
locations, take out the individuals who are responsible for the 
media. That is probably the most direct way.
    The other mechanism Mr. Bergen talked about of going to the 
companies that are these platforms and asking them to enforce 
their terms of service.
    Mr. Yoho. Do you need any assistance from us in that to 
where we can put more pressure on them?
    Mr. Olsen. I think that is largely a matter of just the 
outreach that needs to take place.
    Now, I would say that what we have seen over the last 
couple years since the Snowden leaks is that we have seen less 
cooperation and less dialogue and collaboration between the 
Federal Government and our technology community. I suspect, 
from what I am hearing, that that inhibits some of that sort of 
interaction that would lead to a more effective response.
    Mr. Yoho. Okay. Thank you.
    General Keane, you were talking about marginalizing Russia 
and Syria. Without going to war, how do we do that? Through 
diplomacy, or how would you marginalize them?
    General Keane. Well, the reality is first of all, don't get 
trapped by them in terms of the negotiations that they are 
making right now. No. 2, we should not be pushed around by 
them. I mean----
    Mr. Yoho. I agree.
    General Keane [continuing]. Quite frankly Russia is sitting 
there with an inferior military by comparison to us that 
brought very selective capability with them, which is very 
good. They are getting a lot out of a little. But right from 
the beginning we should have told them look, we are going to 
fly wherever we want, when we want. You want to avoid 
confrontation, stay out of our way.
    The first time they bombed Syrian moderates who our Central 
Intelligence Agency trained, and they are carrying our 
weapons----
    Mr. Yoho. Right.
    General Keane [continuing]. We should have cratered that 
airfield with those--where those----
    Mr. Yoho. I agree. I think it was a bad misstep on our end.
    General Keane. I mean this is--these are the kind of 
things, some of these are relics from the Cold War to be 
certain. Not cratering an airfield, but you know being muscular 
with the Russians certainly is.
    I think we just take the wrong approach with them from the 
beginning. I believed for a long time that Mr. Putin is inside 
our President's head. I think he believes the President is 
fearful of escalation and confrontation. Most of the time will 
back away as a result of it.
    Mr. Yoho. I am out of time. I appreciate your indulgence. 
Thank you.
    Mr. Katko. Chair recognizes Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you. I thank the respective Chairs 
and Ranking Members for holding this hearing. I thank the 
witnesses for the important contribution that you have made.
    I am reminded of a long ago phrase used by Franklin Delano 
Roosevelt that the only thing that we have to fear is fear 
itself. Without taking that in a strictly interpretive view for 
the 21st Century, recognizing and being empathetic to where we 
are today for many Americans and others around the world who 
are frightened by this phenomenon called Daesh, ISIL, or ISIS. 
I do think that we have the responsibility to act swiftly and 
forcibly without fear that garners recklessness in our 
determination.
    So I would like to pose a series of questions. I would like 
to make this statement. All of the witnesses I have great 
respect for.
    I think just as there were many of us who disagreed with 
the Iraq War and its value, there are those who disagree with 
President Obama's approach. But respectfully I would say that 
we are again dealing with a crisis and a phenomenon that has 
not been dealt with in decades before. Wars have been fought 
with nations.
    So I think that the President has taken what he has been 
given and his view of protecting the American people, and has 
done it well. Can we now look into the future and build upon 
it? Yes we can. My forms of question will be along those lines.
    Mr. Bergen, let me thank you for your constant presence and 
information. I would simply ask with respect to the Daesh 
whether or not this rounded perspective, something that I am 
very concerned about, foreign fighters is part of stopping 
this. Having anyone from our country, 250 have already left, 
blocking that. Cut off access to the financing.
    Disrupt and expose the messaging of ISIS. I didn't know I 
was ever going to applaud hackers, but I understand we have got 
a group that is out trying to expose them. I applaud them. 
Stabilize the vulnerable communities that have been liberated 
by ISIL.
    What do you think about those elements complementing, 
taking the fight to ISIS?
    Mr. Bergen. I mean, those are all very good approaches 
because the military--I mean as we have discussed already, ISIS 
is one of the big messages we are victorious and impacting them 
militarily is very important. But if you don't impact the 
foreign fighter flow going into Syria, if you don't impact the 
radicalization of people inside the United States who never go 
to Syria, who are simply radicalized by ISIS propaganda, you 
are only addressing half the problem.
    Ms. Jackson Lee. We can do that collaboratively. If France 
has called for a National effort to take the fight to them, we 
can also work with our allies on the foreign fighters, the 
finance, et cetera.
    Let me ask General Keane, if you would, I think I heard 
that you offered a commentary on this question of refugees. 
Frankly, we have got 55 million--or 55, the number that was 
here that I just saw, we have a horrific global refugee crisis, 
60 million people displaced across the globe.
    What does this say about America if we begin to 
precipitously, without thought, block refugees, in particular, 
Syria, that mostly are women and children, and the vulnerable, 
does that give ISIS another message about the United States, 
and counters our own values of being strong, taking the fight 
to them, and maybe daring them to do as they are doing?
    General Keane. Well, yes. If that was the action we were 
taking, you know, we would be playing right into ISIS's hands. 
They want to polarize Muslims and non-Muslims, and take 
advantage of that, and increase people's sense of alienation. 
That is certainly what they are about.
    But all of us--I don't want to speak for them--but we have 
said it multiple times here, that we do support the action that 
the Chairman is speaking of, and that is because of the 
uniqueness of what has taken place here, and the possible 
danger of infiltration with these refugees that are coming to 
us, we are not saying they shouldn't come, we are saying we 
should make certain that we put in place a process that will 
ensure us as best we can that there is no legitimate 
infiltration there, knowing full well that the best process we 
put in place could never be perfect.
    Ms. Jackson Lee. We also know that it takes 18 to 24 months 
before they come in under the present process, and it is 
certainly something we should review. Can I just ask you this 
question, can ISIS be destroyed?
    General Keane. Oh, yes, most definitely. Radical Islam, as 
a movement, is probably going to be generational, but we don't 
have a comprehensive strategy to deal with that, or an 
appropriate alliance, I think, to meet the challenge.
    But in the near term, dealing with ISIS, yes, most 
definitely. The greatest vulnerability they have is the fact 
that they own territory. When you start taking that territory 
away from them, you start to break down these other things that 
they are doing, in terms of their affiliations, and also what 
they are doing in Europe, and their desire to come to the 
United States to undermine the governments that are supporting 
the effort against them, and also to polarize the populations.
    You start to take all that capability and messaging away 
from them, by taking away the territory which, in a sense, is 
destroying them, militarily, we prefer the term ``defeat.'' It 
is a better term than ``destroy,'' because ISIS likely will 
never go away in the sense that they can--they started from a 
relatively small terrorist organization inside Iraq operating 
in the shadows. If we take their territory away from them, and 
break down their infrastructure, they would likely return to 
something like that, which is considerably more manageable, 
frankly.
    Ms. Jackson Lee. We can do that with the collaboration of 
our European neighbors, who I think themselves have awakened to 
the heinousness of what ISIS is all about; France, for example, 
doing the air war that my colleague talked about intensely, 
obviously, because they have been penetrated on their own soil.
    But I do believe you are saying that you take the fight to 
them, but you are not saying boots on the ground.
    General Keane. I am not saying we need to have conventional 
combat brigades on the ground. We could eventually need that, 
as well as Arab units to participate as well. But I don't see 
that in the near term. I think we have to be all-in to support 
the local indigenous forces in a way that we have not been all-
in, frankly, and that is largely what my testimony was about.
    Now is the time to be all-in supporting them. There is 
significant capability that we can provide them that we are not 
providing them now, that we believe will make a difference. We 
don't know for sure, but we believe it will make a difference. 
We never truly exercised that option to the degree that many of 
us felt it should have been.
    Ms. Jackson Lee. Mr. Chairman, I would be--I thank you for 
the testimony. I would like to offer these items into the 
record at this time, and let me thank you for this hearing. The 
point that I want to make is I submit this testimony--these 
statements, rather--is that I really think that these should be 
on-going discussions.
    We can't have on-going hearings, but I think our committees 
should continue to have on-going discussions, because I think 
we should be on alert, on point, and continue to find a 
solution for what seems to be a growing epidemic of terrorism 
attacking innocent civilians around the world, and it must be 
stopped.
    Let me submit to the record resettling refugees and 
maintaining security are not mutually exclusive. This includes 
the statement about 60 million displaced persons, and then the 
statement from the Syrian-American Council, I am asking 
unanimous consent; and a statement from the Coalition of 
Syrian-American Humanitarian organization, and a statement from 
the RAND Corporation.* Ask unanimous consent, put these in the 
record.
---------------------------------------------------------------------------
    * The RAND document has been retained in committee files and is 
available at http://www.rand.org/pubs/testimonies/CT443.html.
---------------------------------------------------------------------------
    Mr. Katko. Without objection, so ordered.
    [The information follows:]
        Submitted For the Record by Honorable Sheila Jackson Lee
resettling refugees and maintaining security are not mutually exclusive
By Mark Hetfield, HIAS, November 12, 2015.
    http://thehill.com/blogs/congress-blog/foreign-policy/259864-
resettling-refugees-and-maintaining-security-are-not

    We are now confronting the most horrific global refugee crisis 
since the Second World War, with 60 million people displaced across the 
globe. In October alone, almost 219,000 people arrived in Europe in 
search of safety--roughly the same number for all of last year. Twenty 
percent of those displaced are Syrian, fleeing a conflict that has 
already taken more than 240,000 lives. Although the U.S. has provided 
$4.5 billion in assistance since the crisis began, it has underutilized 
the Refugees Admissions Program as a tool to respond to the most 
vulnerable victims of the conflict.
    This program was originally intended to serve as a rescue 
mechanism, to bring refugees out of danger to a place where they can 
live in freedom with dignity. Today, however, it generally takes over 
18 months for a refugee to be resettled to the U.S. once he or she is 
accepted for processing. In particular, the length of the security 
clearance process has limited the United States' ability to use 
resettlement, a key humanitarian tool, to respond to this crisis 
effectively. Rather than showing leadership in resolving this crisis, 
the United States has essentially told Germany, Sweden, Lebanon, 
Turkey, and Jordan that the problem is theirs to solve.
    Additionally, some policy makers in Washington have become fixated 
on protecting America by offering resettlement to even fewer refugees. 
Some assert that the clearance process for refugees, particularly 
Syrians, is inadequate and risks admitting terrorists. This belief 
lacks a fundamental understanding of the current system, which subjects 
every refugee applicant to extensive security checks, rechecks, and 
intensive interviewing by Homeland Security officers, often stranding 
very vulnerable refugees who pose no threat at all to the United States 
in the process.
    It doesn't have to be this way. Over the years, the United States 
has admitted millions of refugees who came from countries with 
governments or powerful opposition groups that were ideologically 
opposed to the American way of life. As is the case with today's 
refugee crisis, the refugees considered for resettlement then were not 
terrorists--in fact, they were fleeing terror. Refugees fleeing Syria 
today are leaving Syria for the most part because they refused to fight 
for Assad or join ISIS.
    In order to confirm this on a case-by-case basis, the United States 
has extensive security measures in place to distinguish between those 
fleeing violence and those seeking to commit it. Before refugees arrive 
in the United States, they must pass multiple security screenings. 
United Nations and U.S. government staff interview refugee applicants 
multiple times, in person. Refugee applicants are fingerprinted and 
photographed, and their biometric data and biographic details are 
processed through the systems of several U.S. government agencies.
    If the refugee clears all safety checks, trained immigration 
officers from the Department of Homeland Security travel abroad to 
conduct detailed, in-person interviews. DHS also has the power of 
discretionary denial, which means that even if a case clears all 
security checks, the interviewing officer can deny the case based on 
the interview alone. Additionally, refugees must be medically cleared 
to travel so they do not pose a health risk to U.S. citizens.
    I have been working in the refugee resettlement field for more than 
20 years, and the process today is more intense than I have ever seen 
it. Refugees are subjected to far more scrutiny than any other 
population entering the U.S., such as the millions of tourists, 
business people and students who enter the country each year. As U.N. 
High Commissioner for Refugees Antonio Guterres recently noted, if 
someone wanted to do the U.S. harm, ``the most stupid thing would be to 
apply for resettlement,'' because the verification process is so 
incredibly thorough.
    Security is something the program has always taken seriously, and 
rightly so. What is too often lost in the rhetoric around refugees 
these days, however, is that safety isn't only a concern for those of 
us who already live here. Less than 1 percent of all refugees are ever 
resettled to third countries like the U.S. and Canada. The vast 
majority will spend their lives in the countries and camps to which 
they initially fled. Only the most vulnerable are even considered for a 
shot at permanent resettlement.
    When refugees are referred to the U.S., it is because they are not 
safe where they are. Our government has designated these individuals as 
the most desperately in need of protection. It is a cruel irony that 
these same people are also the ones being falsely cited by some 
political leaders as the people we need to be protected from. If we 
abandon our proud tradition of welcoming refugees now, we are 
abandoning not only a legacy of moral leadership but real human beings 
who are seeking safety and protection.
    The goal of our refugee resettlement program is to offer refuge to 
those seeking freedom from terror and tyranny. Security is an important 
part of the process, but so is compassion. We need both, in equal 
measure.
                                 ______
                                 
        Submitted For the Record by Honorable Sheila Jackson Lee
                Statement of the Syrian American Council
                              May 21, 2015
    Chairman King, Ranking Member Higgins, and Members of the 
Subcommittee: The Syrian American Council is the largest and oldest 
Syrian American community organization in the United States. Founded in 
2005 in Burr Ridge, Illinois, SAC is a multi-ethnic, multi-
confessional, nonpartisan organization that incorporates all segments 
of the Syrian American community. Our activities include community 
organizing, youth empowerment, media outreach, advocacy, and support 
for prodemocracy activists in Syria. SAC has 23 local chapters Nation-
wide.
    SAC is honored to submit this statement for the record to the 
Subcommittee on Counterterrorism and Intelligence. Significant 
communities of Syrian Americans exist in many areas of the United 
States, including New York, Texas, Iowa, Florida, Ohio, Pennsylvania, 
Michigan, and Ohio. Their income levels are above the median for 
American citizens and many of them provide jobs and livelihoods for 
other Americans in their locale. Older community members have found in 
America a democratic haven from political persecution, while our youth 
have grown up here and consider American culture their own.
    As a young Christian growing up in Damascus, I personally was 
blessed to have experienced the wonders and beauty of the holiday 
season in my beloved Syria. The memories of festivities throughout the 
Damascus old city, the carolers, the beautifully lit Christmas trees, 
the nativity mangers, and the churches filled with celebrants will stay 
with me forever. Each year, I take the time to describe my experience 
to friends and family in my home town of Orlando, Florida so they will 
understand the inherent tolerance and diversity of the Syrian people. 
That inherent tolerance and diversity is now under attack.
    The Syrian American community shares your dismay at the rise of the 
so-called Islamic State of Iraq and Syria (ISIS) and at the urgent 
home-grown terror threat that has resulted from this rise. We are also 
painfully aware that ISIS has exploited the crisis in Syria to turn our 
ancestral homeland into a locus for recruitment. ISIS has severely 
impeded our ability to get help to ordinary Syrians in need. At times, 
Syrian Americans have been forced into hasty exits from their 
humanitarian work inside Syria after finding out that ISIS had marked 
them for death.
    We consider ISIS our enemies, and as such, we are keen to help 
Congress and the U.S. Government as they work to stop these extremists. 
SAC has already partnered with the Office for Civil Rights and Civil 
Liberties at the Department of Homeland Security to organize community 
briefings for Syrian Americans. In addition, staff members of the SAC 
have briefed senior White House officials on ISIS activities inside 
Syria. We encourage a robust Congressional debate on how ISIS can be 
stopped both at home and abroad.
    Along these lines, it is important to note that Syrian immigrants 
to the United States are in no way the leading demographic of foreign 
fighters joining ISIS. Out of over 150 U.S. nationals who have 
successfully joined or attempted to join ISIS in Syria and Iraq, we 
know of only 1 potential case involving a Syrian American (who is not 
charged with having joined ISIS). By contrast, many U.S.-born citizens 
have joined ISIS, including citizens with no ancestry from majority-
Muslim countries. Clearly, barring vulnerable Syrian refugees from 
entering America will not address this vast majority of cases.
    America is a Nation of immigrants and always has been. Each year, 
the United States admits some 70,000 refugees as new citizens, and the 
Syrian refugee crisis is far and away the worst refugee crisis in the 
world today. United Nations High Commissioner for Refugees Antonio 
Guterres has referred to the Syrian refugee crisis as ``the worst 
humanitarian disaster since the end of the Cold War.'' Furthermore, the 
majority of Syrian refugees up for resettlement are not fighting-age 
males, but innocent women and children seeking to flee the vicious 
conflict. They live in horrible conditions, and every winter, multiple 
child refugees die for lack of heating and winter clothing. Many 
refugees even have family members or close friends and associates 
within the Syrian American community who are ready to care for them.
    To bar Syrian refugees from resettlement in the United States now, 
when their need is so great and when there is no real evidence that 
they are a terror threat, would be to actively and explicitly 
discriminate against them--against us--simply for being Syrian. We as 
Syrian Americans encourage our Congress Members to support the fight 
against ISIS and defend our country against home-grown terrorism 
without contributing to the demonization of the entire Syrian 
community.
                                 ______
                                 
        Submitted For the Record by Honorable Sheila Jackson Lee
    Statement of the Syrian Community Network (Chicago, IL); Syrian 
     American Medical Society; Karam Foundation; Syria Relief and 
 Development; Syrian Expatriates Organization; Watan USA; Rahma Relief 
                       Foundation; Hope for Syria
    We write to you as a group of non-political Syrian American-led 
humanitarian organizations that provide multi-sector relief inside of 
Syria, to refugees and host countries in the region, and to Syrian 
refugees in the United States. Our efforts together help millions of 
Syrians, both those who remain in Syria and those displaced as 
refugees. Our programs cover the full range of humanitarian sectors, 
including community services, education, food and non-food items, 
health, protection, water/sanitation/hygiene, and women's empowerment. 
In addition to emergency relief, our organizations have established 
development projects that promote sustainable living and lay the 
groundwork for voluntary refugee return, such as building schools, 
facilitating jobs and skills training, and helping to establish 
bakeries and flour mills. Together, we support over 100 health 
facilities and almost 1,000 medical staff inside of Syria who operate 
under the principle of medical neutrality and risk their lives to save 
others. Our organizations prioritize education, psychosocial support, 
and community healing. We've been fortunate to have leading 
Congressional officials visit our field programs to see their impact on 
Syrian refugees, and we've had the opportunity to advocate for 
humanitarian support for Syria and Syrian refugees at the highest 
levels of U.S. Government, from President Obama to Secretary Jeh 
Johnson to leaders of the House and Senate.
    We further represent a constituency of Syrian Americans, 
humanitarian allies, and local volunteers throughout the United States, 
from Texas to New York. As the crisis has become increasingly 
protracted, our organizations have begun to work with local resettled 
Syrian refugees in the United States, coordinating with volunteers, 
refugee agencies, and civic and religious organizations to ensure that 
Syrian refugees are welcomed and assisted in their transition. Our 
built-in networks of Syrian American and partner communities have been 
invaluable in these transitions.
    We are humbled to submit this statement to the House Homeland 
Security Subcommittee on Counterterrorism and Intelligence on admitting 
Syrian refugees. As you know, the United Nations estimates that about 4 
million people have fled Syria and 7.6 million others are internally 
displaced. Over 230,000 Syrians have been killed since 2011. As Mr. 
Antonio Guterres, the United Nations High Commissioner for Refugees, 
said recently: ``The Syrian war unleashed the worst humanitarian crisis 
of our time.''
    The enormous flow of refugees has created a strain on host 
countries in the region, which are forced to deal with extreme economic 
pressures, overcrowded hospitals, shortages of basic public services, 
and growing resentment among host communities. The regional dynamics of 
Lebanon, Jordan, and Turkey, which have taken on the majority of the 
refugee burden, have been altered over the last few years. The conflict 
in Syria has led to a regional crisis, and the sheer numbers of 
refugees and lack of support for host communities threaten the 
stability of these countries. However, as Anne Richard, the Assistant 
Secretary for the Bureau of Population, Refugees, and Migration at the 
Department of State, said: `` . . . These very real burdens must pale 
in comparison to the daily struggles of Syrians themselves. Imagine 
losing practically everything--your loved ones, your home, your 
profession, and your dignity.''
    We commend the United States Government for taking a leadership 
role to stand for these vulnerable refugees and to offer them a glimpse 
of hope. Throughout history, the United States has always taken a 
leadership role in assisting vulnerable refugees. The United States has 
accepted the majority of all UNHCR referrals from around the world. In 
2013, United States reached its goal of resettling nearly 70,000 
refugees from nearly 70 countries. Now, the United States has put forth 
invaluable efforts to resettle vulnerable Syrian refugees.
    We have worked closely with our partners at the U.S. Refugee 
Admissions Program, coordinated by the Bureau of Population, Refugees, 
and Migration at the Department of State and the Department of Homeland 
Security, along the way. We commend their meticulous and exemplary 
work. All Syrian refugee profiles being actively considered for 
resettlement are reviewed thoroughly by the U.S. Refugee Admissions 
Program with support and leadership from the White House and security 
vetting agencies. These Syrians go through extensive security 
background checks. The majority of Syrian refugees being considered for 
resettlement are among the most vulnerable populations of women and 
children seeking to flee the effects of conflict. With assistance from 
the International Organization for Migration, they are provided with 
medical exams and logistics for transportation before coming to the 
United States.
    Once Syrian refugees arrive, our groups work alongside a network of 
resettlement agencies, non-profits, churches and mosques, civic 
organizations, and local volunteers to welcome them. These U.S. groups 
work in 180 communities across the country to ensure refugees have 
access to work, education, opportunities to improve their English, and 
what they and their families need to be comfortable and have a happy 
and healthy future.
    The Syrian Community Network is a prime example of a volunteer-led 
organization working closely with resettled Syrian families to ease 
their transition, focusing particularly on the Chicago area. The Syrian 
Community Network works with 10 families that have been resettled 
through various agencies. One family in particular stands out as an 
upcoming success story. Resettled in Chicago in January of 2015, Mayada 
is a single mother with 6 children ranging between the ages of 4 and 
19. Her 2 oldest children, Zeyd and Zeynab, hold steady jobs and help 
to pay rent, all while they attend ESL classes at the local community 
college. The 4 younger children--Wedad, Zakaria, Shahed, and Shaima--
have been performing remarkably in school, exceeding expectations. They 
all dream of graduating college and becoming doctors, teachers, 
computer engineers, and so much more. The youngest daughter, Shaima, 
decided that she wants to be a photojournalist after a Chicago 
journalist interviewed her. Just recently, Wedad, who will be in ninth 
grade in the fall, was accepted into the ``Girl Forward'' summer 
program designed for bright adolescent refugee girls in the city of 
Chicago. Syrians are known to have an entrepreneurial spirit and, given 
the opportunity, Syrian refugees will become the next American success 
story.
    We strongly urge the Homeland Security Subcommittee on 
Counterterrorism and Intelligence to support their counterparts at the 
Department of State and Department of Homeland Security as they work to 
further increase resettlement numbers for vulnerable Syrian refugees in 
2015 and beyond. The families and individuals being considered for 
resettlement face dire protection challenges and often need specialized 
care. Among those being considered are victims of torture, women at 
risk, persons with disabilities, LGBTQ persons facing risk, women-
headed households, and those facing acute security threats. To prohibit 
Syrian refugees from the option of U.S. resettlement because of the 
presence of ISIL and other extremist groups in Syria, and not based on 
thorough U.S.-led security checks and humanitarian needs assessments, 
discounts the commendable work of the Department of Homeland Security 
and Department of State and amounts to blatant discrimination based on 
nationality. The Homeland Security Subcommittee on Counterterrorism and 
Intelligence should work to further ensure sufficient staffing and 
capacity for security vetting agencies to increase their ability to 
conduct thorough and quick security checks.
    Our organizations function as implementing partners for many of the 
major INGOs and UN agencies in Syria and coordinate with the U.S. 
agencies taking the lead refugee resettlement here at home. Our 
talented staff and volunteers have been the backbone of crisis relief 
for Syria and have a comprehensive understanding of the changing 
situation on the ground. From seeing the trends of displacement in 
Syria and the region first-hand, we think that it is essential for the 
United States to take a leading role in Syrian refugee resettlement for 
the protection of Syria's vulnerable refugees, for the stability and 
security of the region, and for the relevance of the United States as a 
humanitarian and global leader. We strongly encourage the Homeland 
Security Subcommittee on Counterterrorism and Intelligence to work with 
relevant U.S. departments and the administration to ensure that 
vulnerable Syrian refugees continue to have the hope of resettlement 
and a brighter future.
    Ms. Jackson Lee. I yield back.
    Mr. Katko. The Chair recognizes Mr. Carter.
    Mr. Carter. Thank you, Mr. Chairman. Thank all three of you 
for being here. You have been very kind to stay as long as you 
have, and your endurance is to be admired.
    I am one who believes, as I think most of us do, that the 
No. 1 responsibility of our Federal Government is to protect 
our citizens. I want to ask each of you, at this point in the 
vetting process that we have, do you feel that that process is 
at a point, because of the deterioration between the 
communication in Syria and in America right now, that that 
vetting process is at a point where we can feel comfortable 
that refugees who are coming into this country are not coming 
in here to hurt us or to harm us? General.
    General Keane. Well, I don't know all the details of the 
vetting process. I am not trying to dodge the question. I rely 
on Director Olsen, who knows a lot more about it than I do, and 
I respect his judgment. I am comfortable with the agencies that 
are involved in this, and the spotlight it has, certainly the 
Congressional concern, the concern of Governors, the concern of 
American people. I think the attention on this will be 
considerable.
    So I am pretty comfortable that no one is going to enter 
the country without getting huge scrutiny. Certainly, any young 
male that is coming into this country as a result of this 
process is likely coming with some pretty good documentation 
and references that he is who he says he is. So yes.
    As we have said, all of us have said more than once, no 
system is perfect, and we can never guarantee that is not going 
to be the case, that there could possibly be some infiltration. 
Maybe the infiltration is actually a woman. But yes, overall, I 
am comfortable in the direction that we are--and I think the 
Congress is doing the right thing, asking the Executive branch, 
``Bring this thing up here, and let us take a close look at it. 
Make us comfortable.''
    Mr. Carter. Absolutely. That is the point I want to make. 
You spoke just a little while ago about crisis management, and 
how we had to be prudent, and how we had to use caution, but to 
take action as well.
    That is why I do believe that a pause at this time to make 
sure that our vetting process is the best that it can possibly 
be, especially after the fact that we know that one of the 
attackers in Paris got through as a refugee. We know that ISIL 
has said, made clear, ``We are going to try to do that. We are 
going to try to go through the refugee process and get into 
America, and infiltrate America.''
    I think it would be wrong of us, and I think we would be 
falling down on our duty if we did not at least look at this, 
and if we did not pause, and make sure that we had the best 
process in place that we could possibly have in place. Mr. 
Olsen, any comments on that?
    Mr. Olsen. No, I am comfortable with the level of effort 
put behind this process, and the way it is set up. It is as 
good as it can be, practicably. Again, as we have said a number 
of times, obviously not perfect, but it also--you know, not 
allowing refugees in has its own risks, right. So there is 
always going to be a balancing here that needs to take place. 
So obviously, it is an area of more appropriate oversight by 
the committee.
    Mr. Carter. Right. Mr. Bergen.
    Mr. Bergen. I don't have anything to add to what has 
already been said. I think it is a very robust process.
    Mr. Carter. Well, again, we are a Nation of immigrants. We 
are a humanitarian Nation. We understand our position in the 
world, the leadership position. But at the same time, our No. 1 
priority is to take care of our citizens, and we have to keep 
that in mind.
    That is why I am supportive of what the Majority party in 
the House is trying to put forward right now, and that is to 
have a pause, and to make sure that we have the very best 
process in place that we can, for the vetting process in place 
that we can at this time.
    So I thank all of you again for your service, and for being 
here today. Mr. Chairman, I yield back.
    Mr. Katko. Thank you. Chair recognizes Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. Thank you to the 
panel for being so patient with our schedule today. This is a 
very thought-provoking conversation. Let me just start by 
saying, General Keane, thank you for the words you shared 
earlier in this hearing, reminding us all about what it means 
to be an American, what that is we have, and the need to resist 
simple answers, especially the simple answer of bigotry.
    It seems to me that if you want to help ISIS recruit, some 
of the statements that have been attributed to some candidates 
for the National office are the perfect advertisement for that 
recruitment; ``Muslims, don't let any of them in,'' ``We have 
got to close all the mosques,'' ``This is a clash of 
cultures.''
    My God. Why not write copy ads for ISIS while you are at 
it? What a recruiting assist those inflammatory and incendiary 
words are. In my opinion, they do not represent the values of 
America.
    You know, we had a sad and tragic episode in our history, 
and it was in response to something that happened in our 
country, Pearl Harbor. It is almost universally seen in 
retrospect as one of the most shameful episodes in American 
history, when our reaction to the sneak attack by the Japanese 
government on Pearl Harbor was to intern Japanese-Americans in 
camps, because they could not be trusted. They were a fifth 
column. The Supreme Court upheld it shamefully and regretfully, 
but only in retrospect.
    We didn't live up to our values. We didn't live up to our 
own ideals as a country, even though the risk was real, it was 
demonstrable. There were spotters in Hawaii. There probably 
were some fifth columnists. But the reaction was not something 
commensurate with the threat, and certainly not something 
consistent with our values.
    It is easy right now to pander. It is easy right now to 
play to fears. You want to have a pause on refugees. People 
fleeing the very violence we are trying to stop.
    Well, why stop there? Why not--let's have a pause on all 
immigration because who knows who might be in their numbers, 
much bigger than refugee numbers.
    While we are at it, student visas, tourists. God only knows 
how many people could sneak in as tourists. Let's pause on all 
of that.
    You could make a case for it. Wouldn't be very consistent 
with who we are as an open society. I am not sure it is a 
practical solution to a very real problem and a set of real 
concerns and fears.
    We as elected officials, it seems to me, have a 
responsibility to calm fears. To call Americans to confidence 
and to the values Gen. Keane referred to earlier in this 
hearing. Not to exploit those fears. Not to build upon them. 
Not to demonize any group of human beings, however popular it 
might be at the moment to do so.
    I wanted to say that, Mr. Chairman, because you know we all 
look for easy answers. All of us, I guess, are open to the 
temptation to exploit something at the moment. But it doesn't 
serve us well. That is not our finest moment. That is not, as 
Lincoln said, appealing to the better angels of our Nation.
    Any of you are welcome to comment.
    Mr. Olsen. One comment I would add, and I think follows up 
on your remarks, as counterterrorism professionals you look for 
opportunities to align your limited resources on targeted ways 
of going after individuals, not sort of broadly precluding, for 
example, all refugees or the examples you gave.
    One example, and I know the committee has previously 
considered this, is that there are fewer than 1,000 Americans 
on the No-Fly List that can't get on an airplane. There is no 
restriction now in law for those individuals to purchase guns.
    The gun laws preclude people who are prior felons and other 
categories of people to not be able to buy guns. But somebody 
who is on the No-Fly List can be stopped from getting on an 
airplane, turn around and go buy a gun. Stopped from getting on 
an airplane because they are believed, known, or suspected to 
be a terrorist, and they can buy a gun.
    So this is an area that it would be more targeted to 
consider looking at individuals who can be--who can do 
something about who are already on a watch list, already on the 
highest level of watch listing, that is the No-Fly List. So as 
you look at opportunities to take steps that would be more 
targeted and would be better at going after people we already 
know or suspect are terrorists, that would be one thing I would 
recommend.
    Mr. Bergen. I think that is a brilliant point.
    General Keane. I agree with the sentiments that are here. I 
mean I always said to myself you know after what happened to 
the French if I was running the meeting in the White House I 
would have said listen, I want us to look through the prism. 
This is 127 dead Americans and 300 wounded.
    Then how do we approach this crisis and do what is 
necessary to fix our strategy in terms of what is working and 
what is not working? Also let's remind ourselves that we are 
not going to overreact and we are not going to hunker down in 
this country and get defensive.
    I really think that is what leadership does. It helps to 
face coldly a crisis that needs action applied to it. At the 
same time, it takes people's fear away.
    So we are right in the middle of this in trying to support 
our strategy. I think we are trying to be honest that there is 
really some significant shortfalls that need to be fixed. At 
the same time we have to stay true to our values in America and 
what this great country stands for.
    Mr. Connolly. Well said, general. Thank you.
    I yield back, Mr. Chairman.
    Chairman McCaul [presiding]. If I can just say to Mr. 
Connolly as well, this committee had a bipartisan task force 
report that I am very proud of. We worked on it in a bipartisan 
way. Mr. Katko chaired it.
    We came up with 25 key recommendations and findings, 
including legislative recommendations that the Speaker's 
National Security Task Force I serve on, we intend, when we 
come back after Thanksgiving, to move that legislation forward 
that addresses security gaps both here and in Europe.
    The idea that the Europeans, if you are an E.U. citizen 
will not screen you past a watch list to me really opens--
Europe is wide open until they close that gap. I think we can 
all agree as Republicans and Democrats.
    I think the European parliament agrees they just need to 
change that because 8 individuals were arrested at the Istanbul 
airport today that could have flown in if they were French 
national citizens.
    So anyway, I appreciate the gentleman's remarks. Just want 
to let him know that there is still some bipartisanship left in 
this Congress.
    With that, I recognize Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman, for holding this 
important hearing. I appreciate all the witnesses being here.
    Last night I had the opportunity to hold a telephone town 
hall with the people of the Fourth Congressional District of 
Texas, which I am privileged to represent. Now, I had over 
8,000 people on the call at one point in time. Of that 8,000 I 
had more than 300 people submit questions in the queue that 
they wanted to ask me.
    None of that was out of the ordinary. I have done a number 
of these town hall meetings before and the participation level 
and folks submitting questions is something that I am used to.
    But what was not typical was the uniformity of the 
questions that I received last night and the lack of diversity 
with respect to those questions. Because for the first time out 
of those more than 300 questions, not a single person wanted to 
ask me a question about Obamacare or about $18 trillion of debt 
or about Government overreach and the EPA or climate change.
    I had 300 questions about ISIS and Syrian refugees, and 
only ISIS and Syrian refugees. There is no hyperbole in that 
statement at all because trust me, I wanted to answer questions 
about Obamacare.
    But I really think that that speaks to and highlights the 
depth and the gravity of the concern that Americans have about 
what we are facing right now. So many of the folks that I 
talked with really expressed a fear that maybe we were in some 
sort of a tipping point in American history, so many expressed 
that they felt a tremendous void in leadership from our 
President on this issue.
    You know I had to agree with them because as you all know 
sitting here that my constituents know and you know that this 
was a President that mocked ISIS as the junior varsity that 
then told us they were on the run. Then told us or admitted 
that he had no strategy. Then told us right before the Paris 
attacks that they were contained, and now most recently is 
lecturing all of us that this is simply a setback and that a 
change in strategy here would be a mistake.
    Bottom line is my constituents don't believe in the 
leadership that the President is providing. They don't trust 
him to provide it. In that void they are asking me and other 
Members of Congress to lead on this issue. So I want to talk 
about how we can do that.
    I want to start with you, General Keane. In your remarks 
you talk about ISIS having three major thrusts: Defending Syria 
and Iraq. They want to use their headquarters in Syria to 
expand the near abroad. They want to use their influence in the 
far abroad.
    So, I wanted to talk to you about how we can limit their 
success in those regards. I know one of the things that you 
have talked about today is to step up our military activities 
in Syria.
    But if we have a President that won't act, I don't know--
maybe I am missing--passing an AUMF, if a President won't use 
it, how is that going to help us? What can we do in the absence 
of a President that won't go along with the coalition in this 
regard?
    General Keane. Well, the President is the commander-in-
chief and foreign policy is largely his lane. He doesn't need 
much legislative approval to do what he wants to do, and that 
is the trust that we have in the President of the United 
States. I think it has served us well you know since the 
development of the republic itself.
    So I don't have any problems with the powers that the 
President has. I just happen to disagree with him on this, as 
do others.
    I think we will probably see some more incremental change. 
Some modest improvement to what we already have been doing. We 
have been watching this for 15-odd months now, this incremental 
change that will take place. But I don't think that in and of 
itself is likely to be decisive because it is probably still 
going to be something far removed from being sufficient. I 
think that is the path that I believe we are on.
    So I am not optimistic that given what happened in Paris 
and given its implications to the United States, and even given 
the denominator that I suggested, that we look at it through 
the prism this happened to us. What actions would we take as a 
result of it happening to us is the prism that I think we 
should use.
    So I am not optimistic that we are going to get the kind of 
resources and commitment on the military side. Nor am I 
optimistic on the political side, which is every bit as 
important as the military side here in terms of Sunni 
participation in Iraq and ending the civil war in Syria.
    Being in bed with the Russians is not going to end the 
civil war because the Russians will insist, as will the 
Iranians on an Alawite regime staying in power. As long as 
there is an Alawite regime, regardless of Assad, put him aside, 
then you are going to have the rebels fighting.
    They will continue to fight because they are not, after 
250,000 dead and most of their communities and neighborhoods 
destroyed, going to take a deal like that and leave those 
butchers in power. So that permeates the civil war.
    We need the kind of intensity on this--on both of these 
issues in Iraq politically and also in Syria that we had for 
the nuclear development deal. That kind of political and 
diplomatic intensity, that kind of commitment and resolve to 
getting an answer, to getting a solution here, and I frankly 
don't see that.
    Mr. Ratcliffe. Thank you, General. My time is expired, but 
if the Chairman will indulge me, I would like to follow up on--
from a military standpoint. Don't misunderstand me. I am not 
advocating that we commit U.S. combat brigades. I know that you 
are not either because that is what your testimony says. But 
you do say--but if necessary at some future date, it should be 
part of a regional Arab and NATO coalition.
    I want to ask you, what would be the signs to you that we 
have reached that point?
    General Keane. Answer that now? Yes. Well, the sign that we 
have reached that point is we have not disrupted ISIS in terms 
of their global strategy. They are still executing that global 
strategy. People in different cities are being killed as a 
result of it, possibly God forbid an attack in the United 
States. That strategy is unfolding right before our eyes.
    Then I think that the nations of the world would recognize 
that we are going to have to do something here because what we 
are doing is not satisfactory. But I actually believe, with no 
degree of certainty, but if we actually put the right 
resources, both military and politically, behind what is taking 
place in Iraq and Syria, there is a chance for this strategy to 
actually work without having to commit U.S. brigade combat 
organizations to do that on any sizable scale.
    Most people who look at this problem are not suggesting 
that we should do any repeat of what we have done in Iraq, or 
even what we have done in Afghanistan. Even those who believe 
that now is the time to commit some form of combat brigades to 
it, are all advocating something modest. I am not in that 
position yet, but I could get there.
    I just want to see us give the current strategy a chance to 
work, but with all the resources applied to it. We have never 
done that.
    Mr. Ratcliffe. Thank you, general.
    Director Olsen and Mr. Bergen, thank you both for being 
here as well. I wish I had time to ask you questions. I don't, 
but you have all been generous with your time today with all of 
us, and I appreciate that. I appreciate the Chairman's 
indulgence.
    With that, I yield back.
    Chairman McCaul. Thank you.
    The Chair recognizes Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Gentlemen, thank you very much. I have questions for you 
all. We will see how far I get with those. I probably won't get 
there.
    General Keane, is this threat Islamic?
    General Keane. Yes. It is--radical Islam is centered in a 
religious-based ideology, where religion is central to their 
belief system.
    Mr. Perry. I would agree with you. Just some people can't 
seem to come to that conclusion. I have come to the same one as 
you have. I know this is kind of rhetorical, but are they at 
war with us?
    General Keane. Oh, absolutely.
    Mr. Perry. Absolutely.
    Do you see this, since you say it is Islamic, and I agree 
that it is, is this only ISIS? I mean, while we have been 
sitting here, and I have been sitting here a while as you have, 
but I just wrote down ``ISIS, al-Qaeda, Nusra, al-Shabaab, 
Haqqani, Abu Sayyef, al-Shabaab, Boko Haram, AQAP, AQIM, 
Khorasan.'' I mean, we get rid of ISIS, we have got a whole 
list here is coming right after them, right?
    General Keane. No, I totally agree with that. That is why I 
have been frustrated for a long time, going back to President 
Bush's administration, that we focused on the sanctuary that 
was supporting al-Qaeda, but we should have focused also--that 
was the right thing to do. Don't make a mistake about that. But 
we also should have focused broadly on radical Islam as an 
ideology and as a movement, and how do we organize our efforts 
against that entire movement?
    Because what you don't want to get into, and I think we are 
on the path of this, is as one of these radical Islamic groups 
grows up and it becomes a threat to us and we go after it, and 
then 3 or 4 years later we are dealing with another one. We 
have never had the collective strategy and alliances to deal 
with the much larger issue that we are dealing with.
    Mr. Perry. Do you think the--because many people say this--
the United States created this phenomena, this issue?
    General Keane. No, that is absolute rubbish.
    Mr. Perry. Well, I agree with you. So, let me ask you this, 
because I have heard some things in the committee here. I have 
changed my questioning based on some of the testimony. I keep 
hearing: How do we keep us safe and be true to our values? 
Listen, we are a compassionate people. I am the product of 
legal immigration.
    Then kind of keeping with that theme, you know, people act 
like we are trying to separate the Muslim and non-Muslim 
population, not understanding that we accept and agree that, 
look, there are probably a couple hundred million Shia Muslims 
that are considered apostates by these people, right? They are 
Muslims, right?
    So--but isn't it reasonable to say that the world that we 
grew up in has changed; that when my grandparents immigrated to 
the United States, there was no radical Islam. I mean, to speak 
of, right? I mean, there was Wahhabism and Salafism and those 
type of things, but not in the context that we currently see 
it.
    So, to act like everything has been the same since the 
United States has been here, and we just need to continue this 
policy or these policies without considering the changes, the 
geopolitical changes, the theological changes occurring in the 
world, is incredibly myopic, I think. Would you agree with that 
at all? Or do you--is that a part of the calculation? Shouldn't 
it be?
    General Keane. Well, I mean, I think, you know--to think 
what you are getting at is we have been dealing with radical 
Islam since they took the World Trade Center down in 1993.
    Mr. Perry. But this is recent history.
    General Keane. Now we have been dealing with it rather 
dramatically since--for 14 years since 9/11. We have been 
taking in refugees--what?--70,000-plus a year during all of 
that.
    Mr. Perry. Right.
    General Keane. Peter would tell us if any of those ever 
committed an act of violence, a terrorist act in the United 
States. I am not sure there has been any. He could tell us if 
there has. So, I think we have had in place decent processes. 
We have focused on this. I think we can do that. I think we can 
do both here.
    I mean, stay true to our values as Americans and what we 
stand for in the world in terms of our generosity in helping 
other people. We are also--there is no country on earth that 
has ever sent its young people armed to put down evil in the 
world to the degree that America has done as well. That is the 
most significant generosity that America has expressed to the 
world in terms of stabilizing the world out there and putting 
down the thugs and the killers in the world.
    Doing that at the expense of our youth and the expense of 
our sacrifice to do that.
    Mr. Perry. I don't question that, General Keane, at all. 
But, you know, I hear that one of my esteemed colleagues said 
that, you know, we need to trust the Government. They are 
saying that they are doing the best they can. They are doing 
all they can. This is a robust vetting process. We look at the 
metrics that only so many of these have come in at this age and 
this sex and whatever over the course of time.
    But understand, you know, just like my colleague here, Mr. 
Ratcliffe said, the American people are--it is okay and it is 
understandable and you shouldn't be considered a bigot because 
you fear what you see happening.
    With all due respect to the administration, as Mr. 
Ratcliffe pointed out, that called these folks the ``J.V. 
team'' and said they were on the run. Then admitted that he had 
no strategy and calls, you know, a hundred people dead in 
France a setback.
    Oh, well, heaven forbid, and forgive the citizens of the 
United States for being concerned. Heaven forbid.
    One last question, if you will indulge me, and I have got a 
thousand here. But we seem to hear from the administration that 
there is only one option here. Our option is to do our part to 
take as many of these refugees as we can within the confines of 
the law.
    Why can't there be--and has there been consideration of an 
option of a safe zone that is administered by the United 
Nations with our participation, with the participation of Gulf 
country allies like Saudi Arabia, who have been--I understand 
they don't trust us, nor have we given them any reason to 
recently.
    But why can't that be an option instead of having all these 
people exfiltrate into Europe and the United States, to stay in 
that region of the world, and at the end of the day maybe it is 
less expensive for us in the cost of dollars and lives, and is 
that something that could be done?
    General Keane. Well, in my testimony, I do think we should 
have safe zones near the Jordanian and Turkish border that 
would hold some of the people that may not have the opportunity 
to leave the country or connected to family that is still in 
the country. We can protect them. I think we can do that with 
an international force on the ground, and also protect them in, 
you know, from the air as well.
    So I think that is a course of action. But I think what you 
have to recognize is that millions of people have been in these 
refugee camps for years and the tremendous emotional and 
psychological pressure on any family unit that is experiencing 
something like that. I think people go to refugee camps in the 
hope that this is a very temporary situation, and eventually 
they will be able to go back home. That is what they want to 
do.
    But after 4-plus years of war and rolling into the fifth 
year, and looking--when they look at it, they don't see any 
progress. They don't see any end in sight. So I think now what 
we have, just from a Syrian perspective, which only makes up 30 
or 40 percent of these migrating refugees in Europe, there is 
just an absolute sense of hopelessness and desperation not to 
ever go back to Syria likely until years later.
    In other words, they are running to a new life because they 
have been pushed to that act of desperation and they have come 
to the----
    Mr. Perry. I understand, general. I am sure they never--
they plan on never going back once they----
    General Keane. You know, we would have to talk to them, but 
I mean, I think their actions are speaking louder than words. 
They are just literally leaving everything behind to hope to 
have a new life. That is what political asylum and refugees 
coming to this America has always been about. We have always 
been willing to take--not everyone, but a certain percentage of 
people who are running as a result of desperation.
    We give them the opportunity to have that new life here.
    Mr. Perry. Thank you, Chairman. I yield back.
    Chairman McCaul. The Chair recognizes Mr. Zeldin.
    Oh, I am sorry. Mr. Katko.
    Mr. Katko. Thank you, Mr. Chairman.
    I want to follow up on some of the comments and interplay 
between Mr. Bergen and--all three of you, as a matter of fact--
and Mr. Keating earlier. They were talking about some of the 
findings in our Foreign Fighter Task Force, which I chaired, 
and especially with respect to some of the findings about some 
of the security gaps in Europe.
    I can tell you, when we went there, the Chairman went on a 
CODEL with myself and several others from the task force, 
Republicans and Democrats. We first went to Israel to get their 
perspective, and then went on the front lines in Baghdad. Then 
we went to Turkey, and then Western Europe--Berlin and then 
Brussels and France.
    When we got to Western Europe, it was--it became patently 
obvious that the security gaps were quite significant compared 
to what we do in the United States. As a matter of fact, 
quietly on the side, the intelligence officials would 
acknowledge to us that those security gaps were significant and 
they were borderline leaving the door open for something to 
happen.
    It happened in Paris. Quite frankly, it was to none of our 
surprises that event happened there, as tragic as it may be 
because of what we saw when we over there. So, you know, we are 
very concerned about that and the findings and the report, I 
encourage you to take a look at them because I think they 
mirror what happened in Paris.
    The problem I have with that, is that it makes our homeland 
less safe. Particularly with respect to the Visa Waiver 
Program. If we don't know if someone is broken bad in Western 
Europe and then they get it, you know, and the Western 
Europeans don't know it, it is easy for some of those people to 
come to the United States. That is a great concern of mine.
    So then overlay with that, my work on the Subcommittee on 
Transportation Security and Infrastructure Protection, which I 
chair, and, the things we found out about domestic airlines and 
security of domestic airports. That greatest fear seems to be 
manifested in what happened at Sharm el-Sheikh.
    When you have inside employees who look like they helped 
facilitate the bombing.
    That is a great concern of mine--domestically, as well, and 
I wanted you to comment on that. I will not that in several 
incidents in the United States in the last couple of years, 
which highlight my concern--one being an individual carrying 
guns from Atlanta to La Guardia. Did it about approximately 10 
times. Well over 100 guns. Loaded in a backpack, because an 
employee in Atlanta brought them into the security area and 
gave them to him.
    Then you have drug trafficking case, and they were 
introducing a bill in Congress that showed--not only did they--
were smuggling vast amounts of drugs through employee access 
point, but one of them offered to bring a bomb through.
    So, the threat is real here, and it has certainly 
manifested itself overseas with respect to airline security. 
So, regarding airline security, all of you could comment on 
your concerns about the airline--situation overseas regarding 
employees, in particular. Whether it is really that much better 
here.
    The Sharm el-Sheikh, I understand, is a situation--even 
Western Europe. Because the fact of the matter is, employees at 
airports around the world get far less screening than 
passengers that are coming there to visit the airport. So, if 
anyone wants to comment on that, please.
    Mr. Bergen. I think that vulnerability is--I mentioned 
earlier the British Airways employee who was trying to get a 
bomb on a plane who was in touch with the head of al-Qaeda and 
Yemen, the Anwar al-Awlaki in 2011. I will add to that, a 
Heathrow employee who was in touch with a self-described member 
of al-Qaeda who was getting this guy information about the 
security environment at Heathrow.
    So, I mean, this is not an abstract concern at all. We have 
seen these cases. I think that--we probably have a better 
situation in this country. I know DHS in June said that there 
were going to be more randomized screening of airport 
employees. Less access to secure areas for people who shouldn't 
be there.
    I don't know if those are being implemented, but clearly, 
that is a start.
    Mr. Katko. Mr. Olsen.
    Mr. Olsen. Yes, I generally agree. It is a--and I 
appreciate the committee's work on identifying the 
vulnerabilities.
    We saw these, in particular the one with information 
sharing when I was at NCTC, and how difficult it would be for--
and we saw examples of this, even with Germany and Belgium, and 
France. I believe over a year ago.
    Where, you know, the Germans had some information, and they 
didn't share it with the Belgians. Didn't share it with the 
French. As easy it is to move around Europe, sharing 
information about individuals who are suspected of traveling to 
Syria is absolutely critical.
    Mr. Katko. I just, to follow up on that. I heard, was 
earlier this week, perhaps, that France and the United States 
enhanced their information-sharing agreement and it was hailed 
as a significant event. To me, it is piecemeal, it is ad hoc, 
it is intermittent like was mentioned before. Until we get some 
sort of a comprehensive information sharing system, we are 
really not--we are really just flying blind. That is what makes 
me nervous.
    That coupled with the fact--the ease of getting into the 
United States, and the lack of real security with respect to 
employees at airports, to me, is really a recipe for disaster.
    Mr. Keane, do you have anything you want to add?
    General Keane. Well, the only thing I would add is that it 
is interesting that the terrorists have never given up on the 
use of an airplane as a weapon for them.
    They have been absolutely persistent about that, and to 
break down whatever security barriers that we have. I think, 
what we have to recognize is that they are going to continue to 
do this, and we just have to make certain that we just have the 
best security barriers out there for--they are not giving up on 
it.
    Mr. Katko. Yes, and the fact that ISIS, now getting into 
the game, trying to take down airlines, and perhaps 
successfully, in the MetroJet incident, really is a game-
changer. I think it should be viewed as such. Because it is not 
just one group trying to do it. It is definitely--ISIS.
    The way they are radicalizing people over the internet and 
trying to get people to break bad without even coming over to 
Syria--that is a--compounds that concern for me.
    You have a million people in United States flying--working 
at airports--close to a million people. You just need one guy 
or one woman to break bad, and you have got a real problem.
    Thank you.
    Chairman McCaul. Thank you. Chair recognizes Mr. Zeldin.
    Mr. Zeldin. I would like to thank Chairman McCaul, Chairman 
Royce for putting together this hearing today. Obviously, very 
timely with what happened last week. But their leadership on 
this issue for a long time is very much appreciated by my 
constituents.
    I would also like to thank all of our witnesses for being 
here as well. I know that you have been answering a lot of 
questions over the course of the last several hours, and a lot 
of our people back home are paying attention to what you have 
to say, and your time here is very valuable, so thank you.
    I personally believe that the best humanitarian victory 
that we can provide is to defeat ISIS overseas. I would like to 
get your thoughts on the humanitarian victories that can be 
pursued, that maybe we are not pursuing now where the refugees 
currently are in the Middle East.
    So if you can address that first. I know--there is a lot of 
focus here about, you know, what to do to be good citizens of 
the world and--in bringing these individuals to the United 
States. I would like to get more of your thoughts and ideas on 
what we could do to provide that assistance abroad, rather than 
here.
    Mr. Bergen. You know, there is a very good piece in foreign 
affairs this month by a couple of specialists in refugees--
most, as we have already indicated, most of these refugees are 
in Jordan and in Turkey. You know, Jordan is--you know, doesn't 
have a particularly strong economy. So, I mean, your--if these 
people are just going to be condemned to the refugee camps that 
General Keane has described without a chance of working, that 
is really a big problem.
    So, aid to the countries that are taking these refugees, to 
get these refugees to actually have a job, I think is quite 
important and probably wouldn't be a great deal of money. 
Particularly if you are trying to persuade them not to come as 
a flood into Europe and the West.
    Mr. Olsen. I was going to say exactly the same thing as Mr. 
Bergen. I mean the numbers are what is so difficult here--4 
million-plus Syrian refugees have left the country.
    The vast majority are in countries around the region--
Turkey, Jordan, Lebanon. Countries that, particularly with 
respect to Jordan and Turkey, we need to be helping us in this 
fight. Countries that will potentially face destabilization 
because of the enormous numbers. So, we need to work with them 
directly in helping them with the refugee problem.
    The 10,000 that the United States is talking about taking 
is really a very small and, thinking about this process 
process, a relatively manageable number compared to what is 
being faced in the region and also in Europe.
    General Keane. You know, some of this is really challenging 
because the conditions in the region at large. Beyond Syria and 
the brutality of the killing that has taken place there. But 
throughout the region, you know, to include Africa, I mean, 
there are serious issues there in the lack of much-needed 
political reform, social injustice, and lack of equal economic 
opportunity that, in fact, drive people to a sense of 
desperation.
    They drive them--it drives them into the streets to 
demonstrate against a government that is denying them all of 
that and it--and at some point it also drives them away from 
the region as well. And take--accept all the risk that it means 
to put your family, you know, on a raft and cross a major body 
of water. What an extraordinary act of desperation that this.
    So you give a sense of the seriousness of those problems in 
the region. But the nations in the region also have to change 
here, because they are driving some of these conditions. So 
that is the one thing. That is a long-term strategy and 
unfortunately, we have lost our leverage with a number of these 
countries in the region because of this nuclear deal that we 
have been involved in for 3-plus years.
    We don't have the political leverage we had in the past.
    Yes, not only should some of these countries change the 
conditions that they need, and that is a longer-term thing, but 
it is critical to keep people at home providing economic 
opportunity and social justice. But it--given the crisis, given 
the humanitarian crisis that exists right now, there are a 
number of countries in the region, or even coming close to what 
they could do to help with this crisis. You know, to ease some 
of the burden that Jordan and Turkey and Lebanon feel who 
really are the repository of the ones that are coming out of 
Syria to reassure.
    We are not leveraging that to the point where we are 
getting some real results out of it. After all, these countries 
do have finances that can help with it. If they didn't--even if 
we can't persuade them to build--accept the people in their own 
country. They do have finances that can help the situation, and 
that is not happening.
    So, your instincts are right. There is a lot we can do in 
the region to be sure that are driving this, but also, what is 
happening in the region is related to radical Islam, as well. 
That is why you need a comprehensive strategy to deal with 
this. Because at that aspect of making basic and fundamental 
reform in terms of political reform, social justice, and 
economic opportunity, that is a long-term strategy that you 
need.
    That is beyond the immediate crisis.
    Mr. Zeldin. Well, I thank you, general. Thank you to all 
the witnesses, again, for answering all the questions over the 
course of this hearing. I personally, as I stated earlier, 
believe that the No. 1 humanitarian victory that we can provide 
for those in that region is to do everything in our power, 
working with some newly-motivated countries across the world--
specifically the French, the Germans, the British, the 
Russians, who are now motivated as well to defeat the threat. 
To annihilate the threat.
    They are not contained. They are not the J.V. squad. 
Everything else as far as improving the conditions on the 
ground is impossible without us eliminating the threat.
    Again, Chairman McCaul who is still here, who has been an 
active, vocal presence and leader, and I am so grateful he is 
Chair of the Committee on Homeland Security, and he is doing a 
lot to ensure that my constituents, as well, are being heard. 
As well as constituents in his district from coast to coast.
    So thank you again, Chairman.
    Chairman McCaul. Well, thank you, and I know your New York 
constituents, that means a lot for me to hear that from you. I 
agree, until this crisis is resolved, we are going to continue 
to have a refugee crisis and problem. It would be nice if maybe 
some of the Sunni Arab nations or Gulf states could help 
finance some of this mess, would take in some of the refugees. 
But today, they are taking zero.
    I know this will be heard hopefully across international 
boundaries, but they have the wherewithal. They are Sunni 
Arabs, after all, fleeing Assad and ISIS. Why aren't they 
taking them? Instead, they are fleeing to Europe and to the 
United States. A refugee means that they want to return to 
their homeland. They are not going to return once they go to 
Europe and the United States.
    So I would implore those nations to maybe change their way 
of thinking and take these refugees and be responsible in that 
effort. I can think of no better place that has the wherewithal 
to house them, to take them, and to finance it. Then when the 
conflict, if we can ever get it resolved, they can return back 
to their homes.
    I know the gentlelady from Texas wants to be recognized for 
a closing statement.
    Ms. Jackson Lee. Mr. Chairman, part of my closing statement 
will be thanking General Keane, we have been together before on 
a number of issues; and Mr. Olsen, I almost thought Congressman 
Olsen was here, but a different Olsen that is here. Thank you 
so very much. Peter Bergen, thank you again all of you, your 
constant input into the process of what America is all about.
    Thank you, Mr. Chairman. I do want to thank you. I thank 
Mr. Royce. I thank Mr. Engel and Mr. Thompson. To reinforce the 
bipartisanship of this committee, meaning the Committee on 
Homeland Security, and certainly I have seen it with the 
courtesies extended to me on Foreign Affairs.
    But let me add these points, concluding points to the 
record, if I might. First of all, I want every measure of 
security and every documentation necessary to protect the 
American people. We may have a difference of opinion dealing 
with refugees and the threat that they pose. I just put 2 or 3 
numbers into the record for our reflection.
    I think the Chairman noted it. Turkey has taken 1.9 million 
refugees; Lebanon, 1.4 million refugees. Obviously, they are in 
the neighborhood. Egypt has taken 132,000; Germany, 98,000; 
Sweden, 64,000; France, 66,700; Jordan, 629,000. Anybody that 
has been to the camps in Jordan recognizes the burden that they 
have had.
    I want us to protect ourselves by smart legislation. I have 
introduced the No Fly For Foreign Terrorists. I believe that 
the documentation that we use should be vetted and screened to 
make sure that we keep those who go to the fight out of the 
United States. I think that is the intent behind what we do 
tomorrow, or what there is intended to do tomorrow.
    My only concern is as we go forward, I believe we are going 
to find common ground. I want the American people to know that 
we are not operating out of fear. I take the words of Franklin 
Delano Roosevelt very seriously: There is nothing to fear but 
fear itself. We must look them in the eye. Those who are evil, 
we must rid ourselves of the evilness. There are many groups.
    I have been a strong opponent to Boko Haram and the 
heinousness as they spread across North Africa. But let's do it 
smart.
    So let me finish on these points. No. 1, I have been, as 
Mr. Katko, the Chairperson of the airport--of the 
Transportation Security Committee. There is no greater danger, 
I believe, than our exposed airports. Let me qualify that by 
saying we have come a long way since 9/11.
    But I do believe that one of the things that this committee 
will hopefully raise up--Mr. Katko has been a strong supporter 
of this--is every measure a person that comes on the airport as 
an employee or comes to the backside of the airport or the 
front side of the airport, is screened extensively, that we 
know every single person that is going on the ingress and 
egress of the airport.
    I think that is crucial, and I think the Egyptian 
catastrophe with Russia, who has finally acknowledged that it 
was a bomb, would be the case.
    Second and third, and I will be closing, intelligence. I 
think with restraint, there was obvious intelligence of what 
happened last Friday. We have got to share as it is possible 
our intelligence. I want to applaud our intelligence community. 
People must recognize the intelligence and act on it when it 
comes to their attention.
    Finally, I want to say that as we speak about this issue, I 
take issue with the definition or the utilization of radical 
Islam. I think it is radical Jihad. I think there are persons 
who have abused the faith. Make it very clear, and I hope that 
our friends who are of the faith, as many of us would stand 
against any abuse or misuse of any faith that we are in, that 
would be used for violence, that we stand against it. But we do 
more harm, I think, if we characterize a religion.
    So Mr. Chairman, I am grateful for the opportunity to be in 
this hearing, but more importantly let us understand what 
refugees are, fleeing for their life. Let us understand that we 
live with Muslims in this country, some who have died on the 
battlefield. Let me say that I think now we can collaboratively 
work with allies such as France, but many others, including the 
Arab states, must stand up to the multiple threats and take the 
fight to them as the United States works with them.
    No President is perfect on their assessment of 
international terror, which is the new fight that we have, or 
National security. But we can be as perfect as we possibly can, 
using the skills and tools and the democratic values that have 
been so precious to this Nation.
    I thank you, Mr. Chairman, for allowing me, and I yield 
back.
    Chairman McCaul. Thank you. We thank the witnesses for your 
perseverance, your strength, getting through the hours of 
testimony. I just got word that Mr. Abaaoud is confirmed dead, 
so that is a good day in the war against the terrorists, and 
hopefully this will end in our lifetime.
    Mr. Bergen, I must say you have been very patient sitting 
there, and I know that the other witnesses have been able to 
respond to a lot of questions. I want to give you the last 
word, to close out the hearing.
    Mr. Bergen. I would say that there has been a lot of 
consensus amongst the Members here, except perhaps Dana 
Rohrabacher who I think is often an outlier. There seems to be 
a lot of consensus that there is a robust system in place, but 
that there needs to be, you know, it just needs maybe a little 
bit of a hard look just to make sure it is as robust as it can 
be.
    You know, I am very privileged and honored to have been 
asked to be part of this.
    Thank you.
    Chairman McCaul. Again, my thanks to all the witnesses. The 
record is open for 10 days if Members have additional 
questions.
    Thank you so much for being here, all three of you.
    Without objection, this hearing stands adjourned.
    [Whereupon, at 3:03 p.m., the committees were adjourned.]

                                 [all]



</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
